<html>
<title> - 1998 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 1999 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 105-443]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-443
 
   1998 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 1999 
                             BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations

                               __________

        You may access this document on the Internet at: http://
            www.access.gpo.gov/congress/senate/senate11.html




                     U.S. GOVERNMENT PRINTING OFFICE
46-661 CC                    WASHINGTON : 1998




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., Secretary of State..................     3

                                Appendix

Prepared statement of Hon. Madeleine K. Albright, Secretary of 
  State..........................................................    43
Additional Questions for the Record Submitted by the Committee to 
  Secretary Albright.............................................    56

                                 (iii)

  


   1998 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 1999 
                             BUDGET REQUEST

                              ----------                              


                       TUESDAY, FEBRUARY 10, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. In 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
chairman of the committee, presiding.
    Present: Senators Helms, Lugar, Hagel, Smith, Thomas, 
Grams, Brownback, Biden, Sarbanes, Dodd, Kerry, Robb, Feingold, 
Feinstein, and Wellstone.
    The Chairman. The committee will come to order. Madam 
Secretary, you always draw a crowd.
    The Chairman. Madam Secretary, once again all of us welcome 
you to the Foreign Relations Committee. You have travelled 
constantly in recent weeks and we admire your stamina. But we 
want you to take care of your health.
    Now I have told you that privately and I now say so 
publicly.
    With that, I am going to forego the best speech that I 
never read and will yield to my friend and colleague, Senator 
Biden.
    Senator Biden. Mr. Chairman, I would ask unanimous consent 
that my opening statement be placed in the record as well, if I 
may.
    I would just say, very briefly, Madam Secretary, that it is 
a pleasure to have you back. I thought you, as always, 
represented us very, very, very well. It seems as though my 
statement, not yours--you put a little spine in the Alliance 
and you, as usual, are crystal clear in what our objectives 
are.
    We are off to a quick start here in this session. I want to 
thank the chairman for getting underway as expeditiously as he 
has. Iraq is on the table and NATO expansion is coming up very 
close behind. We have to act on IMF funding. We have the 
reorganization to revisit as well as the United Nations 
arrearages. We have a full plate. But, based on the way the 
chairman ran the committee the first year of this Congress, I 
am confident that we can address all of those issues with you.
    Let me just conclude by suggesting to you that I know there 
is legal authority, that is, there are legal scholars who 
believe there is residual authority from seven years ago if the 
President wishes to use force in Iraq. I support his use of 
force. I think he would be very wise, both constitutionally and 
politically, if he decides to do that, to seek specific 
authorization to do so. But I will get into that in the 
question and answer period.
    I thank you, Mr. Chairman, and I yield the floor.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Mr. Chairman, I join you in welcoming the Secretary to the 
Committee this morning. Madam Secretary, last year this Committee and 
the Administration cooperated constructively on many issues to advance 
the foreign policy interests of the United States.
    I commend Chairman Helms for his leadership and look forward to 
working with both of you this year to address many critical and far-
reaching decisions that will affect American security well into the 
21st century.
    The most critical challenge for American policy is forging, and 
implementing, a new strategy of containment--a strategy directed not 
against a particular nation or ideology, but against a more diffuse 
danger--the threat posed by weapons of mass destruction.
    It is commonplace to speak of ``defining moments.'' But it is clear 
that Iraq's intransigence over U.N. inspections presents just such a 
moment. If the world cannot summon the will to act decisively against 
the ambitions of the world's most dangerous dictator to attain the 
world's most dangerous weapons, then there is little prospect that the 
international community can unify against less obvious threats.
    Last week, you engaged in tireless diplomatic efforts to seek such 
unity against Iraq. Oddly, other members of the Security Council 
continue to indulge the fantasy that Saddam will suddenly begin 
listening to reason.
    Members of Congress do not share that delusion. We look forward to 
receiving the President's recommendations with regard to the need to 
use force to contain, if not destroy, Iraq's capability to produce 
weapons of mass destruction.
    I recognize that the Administration asserts that it has the legal 
authority under the 1991 Gulf War resolutions to use military force 
against Iraq. Nonetheless, if the President decides that the military 
action is warranted, he would be wise to seek a specific legal 
authorization from this Congress. I would support such an authorization 
and believe it would receive overwhelming support.
    I would hope that the Administration would also attain support in 
this Committee for a new instrument aimed at containing nuclear weapons 
proliferation: the Comprehensive Test Ban Treaty. The treaty, signed in 
1996, is the culmination of nearly four decades of effort, beginning 
with the Eisenhower Administration. Along with the Nuclear Non-
Proliferation Treaty, the Test Ban Treaty is an essential tool in the 
global strategy of containment.
    A second critical challenge for the United States is assuring 
security and stability on the European continent--where Americans 
fought two bloody wars in this century. For nearly fifty years, the 
North Atlantic Alliance has been the cornerstone of European security; 
its enlargement to admit the new democracies in Poland, Hungary, and 
the Czech Republic will be a key building block in cementing the 
democratic foundation in Central Europe. Because of the strong 
leadership of Chairman Helms, I am confident that this Committee and 
the Senate will give a strong endorsement to NATO enlargement in March.
    A stable Europe is not possible, however, if the ethnic tinderbox 
in the former Yugoslavia is allowed to reignite. Having been to Bosnia 
twice in the past six months, most recently with the President in 
December, I am convinced that President Clinton made the right decision 
in extending the American troop presence there. Although the carnage of 
the Bosnian conflict has been halted, and Bosnia is slowly rebuilding, 
the peace is far from secure.
    The hardest tasks remain. We must press the parties to fulfill the 
promise of Dayton: freedom of movement, the return of refugees to their 
homes, the seating of all elected municipal governments, and the 
cooperative reconstruction of Bosnia. Further, we must demand the 
arrest of indicted war criminals. The responsibility here is also ours: 
NATO's policy of turning a blind eye to suspected war criminals must 
end.
    A third critical challenge for U.S. foreign policy is reorienting 
and reforming our institutions, both domestic and international, for 
the coming decades. Last year, the Senate overwhelmingly passed 
landmark legislation, initiated by this Committee, to reorganize our 
foreign affairs agencies and reform the United Nations. Unfortunately, 
a handful of members in the House blocked the bill because of an 
unrelated issue.
    I hope I speak for the chairman in stating that we both remain 
committed to the reorganization and U.N. reform bill. I'm not sure how 
and when we'll cross the finish line, but we have come too far to fail.
    The economic crisis in Asia presents an opportunity for the United 
States to re-examine and reinvigorate the International Monetary Fund. 
We must ensure that the IMF, created in the wake of World War Two, is 
equipped for an era of economic globalization.
    I commend the President for recognizing the importance of the Asian 
crisis by requesting early consideration of $18 billion in funding for 
the IMF. The financial meltdown in Asia affects our economic and 
security interests; we must act, out of our own self-interest, to help 
bring stability to the region.
    Last year, this Committee authorized $3.5 billion for the New 
Arrangements to Borrow. I look forward to working with the chairman and 
other members of the Committee on legislation to authorize the IMF 
quota increase and to strengthen the IMF's ability to address future 
financial crises.
    Madam Secretary, there is much more to say about the ambitious 
agenda before the Committee this year, but I will stop there. In 
closing, I want to commend you for the extraordinary start you made in 
your first year as Secretary. You have a unique ability to communicate 
to the public regarding the importance of international affairs to our 
security. And that ability is critical, because no foreign policy can 
succeed unless it has the informed support of the American people.

    The Chairman. Madam Secretary, I would appreciate it and I 
think most people listening on television and here in the 
hearing room would enjoy an update on Iraq as you see it. You 
can do it now or you can do it later; but I would suggest that 
you do it now, because that is one of the things everyone is 
waiting for.

  STATEMENT OF HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

    Secretary Albright.  Fine. Mr. Chairman and members of the 
committee, first of all, thank you very much. I have some part 
of that in my remarks. But let me just do a quick update before 
I go to those.
    First of all, I think that we have made very clear over and 
over again that it is essential for Saddam Hussein to live up 
to his Security Council obligations and allow unfettered, 
unconditional access for the United Nations inspectors. They 
are the only ones who can really determine whether he still has 
weapons of mass destruction and then continue monitoring 
whether he is going to be able to reconstitute them.
    We want very much to be able to solve this situation 
diplomatically. But if we are not able to, we will, in fact, 
use the force that we have now gathered in the Gulf. The 
purpose of that use of force would be to substantially diminish 
Saddam Hussein's ability to reconstitute his weapons of mass 
destruction and the delivery systems for them, as well as not 
to threaten his neighbors.
    Obviously, we believe we have the authority in the United 
Nations to be able to do that. In response to Senator Biden's 
question, we believe that the President has the constitutional 
authority to undertake this. But, obviously, we would welcome 
Congressional support.
    As you may have heard this morning, there is increasing 
international and public support. The Canadians this morning 
said that they would join us, and the Germans have stated that 
United States bases on its territory could be used to support 
military operations. Yesterday, I met with three of the new 
invitees to NATO. They said, subject to consultations with 
their governments, they were prepared to join us.
    When I was in the Gulf, it was evident there to me that the 
countries understood the fact that Saddam Hussein was to blame 
for this crisis; that he had to bear the consequences of it; 
that they would prefer to solve the issue diplomatically, as do 
we; but that, if we had to use force, it was clear that Saddam 
was responsible for the grave consequences.
    When I met with them privately, not one of them said to me 
go home and tell your president not to use force. As I say, 
they prefer the diplomatic solution; but they did not, in fact, 
say go tell your president not to use force.
    So, Mr. Chairman and members of the committee, what we are 
doing is trying to follow out the diplomatic string, but it is 
running out, frankly. We are prepared to use force. The 
President has not made the decision. We are gathering 
additional support. We feel confident that we will have the 
support we need.
    I would be happy to answer questions as we go on with this, 
but should I go on with my statement?
    The Chairman. Why don't you proceed with your statement.
    Secretary Albright.  OK.
    I have been traveling a lot, lately, so it is very nice to 
be back here where you always make me feel at home. Of course, 
as a mother I know that home is where the hardest questions get 
asked and where it is almost never enough to say I'll provide 
the answer for the record.
    Just one year ago, I came before this committee to ask your 
help in creating a new foreign policy framework adapted to the 
demands of a new century. And, although we have had a few 
disagreements, on the whole we have worked together 
successfully to advance American interests and sustain American 
leadership. But major accomplishments lead to great 
expectations. And so, this morning I am here again to ask for 
your help.
    It is true that, as we meet, America is prosperous and at 
peace in a world more democratic than ever before. But 
experience warns us that the course of history is neither 
predictable nor smooth, and we know that in our era, new perils 
may arise with 21st century speed.
    So if Americans are to be secure, we must seize the 
opportunity that history has presented to bring nations closer 
together around basic principles of democracy, free markets, 
respect for law, and a commitment to peace.
    This is not an effort we undertake with a scorecard or a 
stop watch in hand. But every time a conflict is settled or a 
nuclear weapon dismantled, every time a country starts to 
observe global rules of trade, every time a drug kingpin is 
arrested or a war crime prosecuted, the ties that bind the 
international system are strengthened.
    America's place in this system is at the center and our 
challenge is to keep strong and sure the connections between 
regions and among the most prominent nations. We must also help 
other nations become full partners by lending a hand to those 
building democracy, emerging from poverty, or recovering from 
conflict.
    We must summon the spine to deter, the support to isolate, 
and the strength to defeat those who run roughshod over the 
rights of others, and we must aspire not simply to maintain the 
status quo, for that has never been good enough for America. 
Abroad, as at home, we must aim for higher standards so that 
the benefits of growth and the protections of law are shared 
not only by the lucky few but by the hard working many.
    All this requires a lot of heavy lifting, and we will 
insist that others do their fair share. But do not doubt: if we 
want to protect our people, grow our economy, improve our lives 
and safeguard the freedoms we cherish, we must stamp this 
heretofore unnamed era with a clear identity, grounded in 
democracy, dedicated to justice, and committed to peace.
    Mr. Chairman, the best way to begin this year's work is to 
finish last year's, and last year, working together, we 
developed creative plans to restructure our foreign policy 
institutions and to encourage United Nations reform while 
paying our long overdue U.N. bills.
    Unfortunately, a small group of House members blocked final 
passage of those measures, along with the funding for IMF, not 
because they opposed our ideas or had credible arguments 
against them. They simply wanted to take a valuable piece of 
legislation hostage. The victims were your constituents; for, 
without reorganization, our effort to improve foreign policy 
effectiveness is slowed, and the failure to pay our U.N. bills 
has already cost us.
    Last December, the General Assembly voted on a plan that 
could have cut our share of U.N. assessments by roughly $100 
million every year. Because of what happened, we lost that 
opportunity and our taxpayers lost those savings.
    But paying our U.N. bills is about more than money. It is 
also about principle and our vital interests. We have important 
business to conduct at the United Nations, from dealing, as I 
just said, with Saddam Hussein to punishing genocide. And we 
know that the U.N. is not, as some have seemed to suggest, an 
alien presence on U.S. soil. It was ``made in America.'' Our 
predecessors brought the U.N. together, led the drafting of the 
U.N. Charter, and helped write the U.N. rules.
    Mr. Chairman, this issue is not complicated, it is simple. 
The best America is a leader, not a debtor. Let us act soon to 
put our U.N. arrears behind us, restore America's full 
influence within the U.N. system, move ahead with U.N. reform, 
and use the U.N. as its founders intended, to make the world 
safer, more prosperous, and more humane.
    Even as we deal with old business we must think anew. 
Normally, when I review U.S. policies around the world, I begin 
with Europe and Asia. This morning, I want to break with 
tradition and start with the crossroads linking those 
continents, the vast territory that stretches from the Suez and 
Bosporus in the West to the Caucasus and Caspian in the North 
to the Bay of Bengal in the Southeast.
    In case you are wondering about my prop (indicating), when 
I was a professor I read a book by Zbigniew Brzezinski, and he 
said that depending upon how you look at the map is the way you 
look at the world.
    Now most Americans look at the globe by having the United 
States in the center--this way (indicating). However, if you 
turn the globe around and look at it in terms of the Eurasian 
continent that I am about to talk about, you see things quite 
differently. You have your own versions, up there.
    But as a professor, I always think that it is kind of fun 
to be able to look at this from other people's perspectives, 
and I have found that very illustrative, depending upon how you 
look at it.
    Senator Biden. Madam Secretary, with the permission of the 
chairman, might I interrupt? For years and years in the Foreign 
Relations Committee, we had a map along one wall, with the 
United States sitting in the middle, flanked by the rest of the 
world. I didn't know one single world leader who came in who 
didn't comment on our perspective on that. [General laughter]
    Secretary Albright.  But the main thing is, when you do it 
that way, you only see pieces of Eurasia on either side. And if 
you look at it the other way, you can see the vastness of it.
    The reason that I want to begin with this part of the world 
this time is this. As much as any region, the choices made here 
during the remaining months of this century will determine the 
shape of the next. They will decide, for example, whether 
weapons of mass destruction cease to imperil the Gulf and South 
Asia; whether the oil and gas fields of the Caucasus in Central 
Asia become reliable sources of energy; and whether the opium 
harvests of death in Burma and Afghanistan are shut down; 
whether the New Independent States become strong and successful 
democracies; and whether international terrorists will have the 
support they need to perpetrate their crimes.
    Developing an integrated approach to this varied part of 
the world is a major challenge. But we approach it with a set 
of common principles.
    First we must avoid a modern version of the so-called 
``great game,'' in which past scrambles for power led to war 
and misery. Each nation's sovereignty must be respected and the 
goal of each should be stability and prosperity that is widely 
shared.
    Second, cooperation must extend to security. Nations must 
have the wisdom and the will to oppose the agents of terrorism, 
proliferation, and crime.
    Third, neighbors must live as neighbors, by settling 
differences fairly and peaceably.
    Fourth, the international community must nurture inter-
ethnic tolerance and respect for humanitarian rights, including 
women's rights.
    U.S. policy is to promote and practice these principles, to 
urge all to rise above the zero-sum thinking of the past, and 
to embrace the reality that cooperation by all will yield for 
all a future of greater prosperity, dignity, and peace.
    That is certainly our message in the Middle East, where we 
continue to seek progress toward a just, lasting, and 
comprehensive settlement.
    Last month, President Clinton presented ideas to Chairman 
Arafat and Prime Minister Netanyahu in an effort to break the 
current stalemate, recognizing that the parties, given the 
level of their distrust, might respond to us, even if they 
remain reluctant to respond to each other.
    The issue now is whether the leaders are prepared to make 
the kind of decisions that will make it possible to put the 
process back on track. Indeed, we have to ask: are they 
prepared to promote their common interests as partners or are 
they determined to compete and return to an era of zero-sum 
relations?
    The stakes are high. That is why we have been involved in 
such an intense effort to protect the process from collapsing.
    U.S. credibility in the region and the interests of our 
Arab and Israeli friends depend upon it.
    The stakes are also high in the confrontation between the 
international community and Iraq. Saddam Hussein is an 
aggressor who has used weapons of destruction, mass 
destruction, before and, if allowed, will surely use or 
threaten to use them again.
    Since 1991, he has been denied this opportunity for he has 
been trapped in a strategic box, hemmed in by the four walls of 
the U.N. sanctions, inspections, monitoring, and tough-minded 
enforcement. Now he seeks to escape.
    Instead of going through the front door by complying with 
U.N. Security Council resolutions, Saddam is trying to sneak 
out the back with weapons of mass destruction in hand and 
aggressive intentions unchanged.
    At the same time, Saddam is trying to pin blame for the 
suffering of the Iraqi people on the United States and the 
United Nations. The truth is that Saddam does not care a fig 
about the Iraqi people whom he has terrorized and brutalized 
for years.
    Arab leaders tell me of the concerns their citizens have 
for the plight of the Iraqi civilians, and that concern is 
fully shared by the United States and the American people. 
Saddam knows this, which is why he so ``bravely'' sends women 
and children to guard his palaces in times of crisis.
    The United States has strongly supported efforts through 
the U.N. to see that foods and medicines are made available to 
the Iraqi people. U.N. Secretary General Kofi Annan has 
proposed to expand these efforts, and we are looking hard at 
how best to do that.
    Meanwhile, the blame for Iraqi suffering does not rest with 
the international community. It rests with Saddam Hussein.
    As President Clinton has made clear, we will not allow 
Baghdad to get away with flagrantly violating its obligations. 
Saddam does not have a menu of choices. He has one: Iraq must 
comply with the U.N. Security Council resolutions and provide 
U.N. inspectors with the unfettered access they need to do 
their job.
    As I said, Mr. Chairman, there is still time for a 
diplomatic solution. But the lower half of the hour-glass is 
filling rapidly with sand. If Iraq's policies and behavior do 
not change, we will have no choice but to take strong 
measures--not pinpricks but substantial strikes that will 
diminish Saddam's capacity to reconstitute his weapons of mass 
destruction programs and reduce his ability to threaten Iraq's 
neighbors and the world.
    Let no one miscalculate. We have the authority to do this, 
the responsibility to do this, and the means and the will.
    The strategies we apply in places such as the Gulf, the 
Caucasus, and Central Asia, show how much the political map has 
changed. They show as well that the regional categories into 
which we once divided the world no longer suffice.
    But whether the problems we face are old or new, there is 
still one relationship that more than any other will determine 
whether we meet them successfully, and that is our relationship 
with Europe.
    Today, we are working with Europe to meet global 
challenges, such as proliferation, crime, and the environment. 
And we are working in Europe to realize this century's most 
elusive dream, a Europe that is whole, free, prosperous, and at 
peace. That effort is reflected in the Dayton Accords.
    Around Christmas, I went to Bosnia with the President and 
Senator Dole. We found a nation that remains deeply divided, 
but where multi-ethnic institutions are, once again, beginning 
to function. Economic growth is accelerating, indicted war 
criminals are surrendering or being arrested, refugees are 
slowly beginning to return, and a new Bosnian-Serb government 
is acting on its pledge to implement Dayton.
    More slowly than we foresaw, but as surely as we had hoped, 
the infrastructure of Bosnian peace is taking shape and the 
psychology of reconciliation is taking hold. But if we were to 
withdraw our support and presence from Bosnia now, as some 
urge, the confidence we are building would erode and the result 
could well be a return to genocide and war.
    Quitting is not the American way. We should continue to 
play an appropriate role in Bosnia as long as our help is 
needed, our allies and friends do their share, and, most 
importantly, the Bosnian people strive to help themselves. That 
is the right thing to do. It is the smart thing and it is the 
only way to insure that when our troops do leave Bosnia, they 
leave for good.
    The effort to recover from war in Bosnia reminds us how 
important it is to prevent war and how much we owe to those who 
designed and built NATO, which has been for a half century the 
world's most powerful defender of freedom and its most 
effective deterrent to aggression.
    In two weeks, I will be back again with you to seek your 
support for making America among the earliest to ratify the 
first round of NATO enlargement and thereby make America safer, 
NATO stronger, and Europe more stable and united.
    Mr. Chairman, moving around this globe, one of our most 
important foreign policy objectives is to build an inclusive 
Asia-Pacific community based on stability, shared interests, 
and the rule of law. To this end, we have fortified our core 
alliances, crafted new defense guidelines with Japan, and 
embarked on four party talks to create a basis for lasting 
peace on the Korean Peninsula.
    We have also intensified our dialog with China, achieving 
progress on proliferation, regional security cooperation, and 
other matters, while maintaining our principles on respect for 
humanitarian rights.
    Let me stress here, Mr. Chairman, that engagement is not 
the same as endorsement. We continue to have sharp differences 
with China. But we also believe that the best way to narrow 
those differences is to encourage China to become a fully 
responsible participant in the international system.
    Finally, we have been working with the IMF and the world 
community to respond to the financial crisis in East Asia. Our 
approach is clear: to recover from the current period of 
instability, the nations affected must reform, and if they are 
willing to do so, we will help.
    We have adopted this approach because East Asia includes 
some of our closest allies and friends, including South Korea, 
which faces a large and well armed military force across the 
DMZ. The region also includes some of the best customers for 
U.S. products and services, and if they can't buy, we can't 
sell.
    Moreover, since the IMF functions as a sort of inter-
governmental credit union, its efforts to assist East Asian 
economies won't cost U.S. taxpayers a nickel. Still, there are 
some who say we should disavow the IMF, abandon our friends, 
and stand aside, letting the chips or dominoes fall where they 
may.
    It is possible if we were to do so that East Asia's 
financial troubles would not spread and badly hurt our own 
economy, and that our decision to walk away would not be 
misunderstood, and a wave of anti-American sentiment would not 
be unleashed, and new security threats would not arise in this 
region where 100,000 American troops are deployed.
    All this is possible. But I would not want to bet American 
security or jobs of your constituents on that proposition, or 
it would be a very, very bad bet.
    Even with full backing for the IMF and diligent reforms in 
East Asia, recovery will take time and further tremors are 
possible. But the best way to end the crisis is to back the 
reforms now being implemented, approve our 15 percent share of 
resources to the IMF, work to keep the virus from spreading, 
and develop strategies for preventing this kind of instability 
from arising again.
    Mr. Chairman, closer to home, we meet at a time of 
heightened emphasis in our policy toward the Americas. This 
attention is warranted not only by proximity of geography but 
by proximity of values; for today, with one lonely exception, 
every government in the hemisphere is freely elected.
    In the weeks ahead, we will be preparing for the second 
Summit of the Americas, intensifying our effort to strengthen 
democracy in Haiti and pressing for democratic change in Cuba. 
Christmas had a specific meaning in Havana this year because of 
the Pope's visit. But we will not rest until another day, 
election day, has meaning there as well.
    We are also heightening our diplomatic emphasis on Africa, 
where the President will visit soon. During my own recent trip, 
I was impressed by the opportunity that exists to help 
integrate that continent into the world economy, build 
democracy, and gain valuable allies in the fight against global 
threats.
    To frame a new American approach to the new Africa, we will 
be seeking your support for the President's initiative to 
promote justice and development in the Great Lakes and for the 
proposed Africa Growth and Opportunity Act.
    Mr. Chairman, many of our initiatives are directed, as I 
have discussed, at particular countries or regions. But others 
are best considered in global terms.
    For example, it is a core purpose of U.S. foreign policy to 
halt the spread and possible use of weapons of mass 
destruction, which remains the most serious threat to the 
security of our people.
    To this end, we employ many means from traditional 
negotiations to counter-terrorism, to cooperative threat 
reduction programs, such as those pioneered by the Nunn-Lugar 
legislation. We will also be seeking an early opportunity to 
testify before the committee in support of the Comprehensive 
Test Ban Treaty, a long sought agreement strongly backed by our 
military and by the majority of the American people, which 
would make us all safer by hindering the development and spread 
of new and more dangerous nuclear weapons.
    A second, over-arching goal of our foreign policy is to 
promote a healthy world economy in which American genius and 
productivity receive their due. Through bipartisan efforts we 
have put our fiscal house in order, and our economy is stronger 
than it has been in decades. I am pleased that American 
diplomacy has contributed much to this record.
    To stay on this upward road, we will be working with 
Congress this year to gain for the President the fast track 
trade negotiating authority he needs to reach new agreements 
that will benefit our economy, workers, farmers, and business 
people.
    A third global objective of ours is to meet and defeat 
international crime; and here we are using a full box of 
diplomatic tools, from building viable judicial and law 
enforcement institutions, to eradicating coca and opium 
poppies, to forging bilateral law enforcement agreements, to 
speaking frankly with foreign leaders about the need to close 
ranks.
    There is no silver bullet in this fight. But as our 
increased budget requests reflect, we are pushing ahead hard. 
Our purpose is to assemble a kind of global neighborhood watch 
which denies criminals the space they need to operate and 
without which they cannot survive.
    The United States also has a major foreign policy interest 
in ensuring a healthy global environment. So we will be working 
to ensure that the promise of the Kyoto Protocol is realized, 
including through the meaningful participation of developing 
countries in the global response to climate change.
    We took an essential step at Kyoto, but we have more to do.
    Finally, we will continue to ensure that our foreign policy 
reflects the ideals and values of our people. We will support 
democratic aspirations and institutions however and wherever we 
effectively can do so. We will advocate increased respect for 
human rights, vigorously promote religious freedom, and firmly 
back the International War Crimes Tribunal. And we will renew 
our request that this committee approve, at long last, the 
Convention to Eliminate All Forms of Discrimination Against 
Women.
    Senators, American leadership is built on American ideals, 
backed by our economic and military might and supported by our 
diplomacy. Unfortunately, despite progress made last year with 
bipartisan support from this committee, the resources we need 
to support our diplomacy are stretched thin.
    Over the past decade, funding in real terms has declined 
sharply, personnel levels are down, training has been cut. We 
face critical infrastructure needs. Our information systems 
badly need modernizing, and we have seen the share of our 
Nation's wealth that is used to support democracy and 
prosperity around the globe shrink steadily so that now, among 
industrialized nations, we are dead last.
    I urge the committee to support the President's budget 
request in its entirety, remembering, as you do so, that 
although international affairs amount to only about one percent 
of the Federal budget, it may well account for 50 percent of 
the history that is written about our era, and it affects the 
lives of 100 percent of the American people.
    A half century ago this month, a communist coup in my 
native Czechoslovakia altered forever the course of my life and 
prompted, as well, an urgent reappraisal by the West of what 
would be required to defend freedom in Europe. In that testing 
year, a Democratic President and a Republican Congress approved 
the Marshall Plan, laid the groundwork for NATO, helped create 
the Organization of American States, established the Voice of 
America, recognized the infant State of Israel, airlifted life 
sustaining aid to a blockaded Berlin, and helped an embattled 
Turkey and Greece remain on freedom's side of the Iron Curtain.
    Secretary of State Marshall called this a brilliant 
demonstration of the American people's ability to meet the 
great responsibility of their new world positions.
    Some believe Americans have changed and that we are now too 
inward looking to shoulder such responsibilities. In 1998, we 
have the opportunity to prove the cynics wrong; and, Senators, 
I believe we will.
    From the streets of Sarajevo to the Arabian and Korean 
Peninsulas, to classrooms in Africa, board rooms in Asia, and 
courtrooms at the Hague, the influence of American leadership 
is as deep and as beneficial in the world today as it has ever 
been. This is not the result of some foreign policy theory. It 
is a reflection of American character.
    We Americans have a big advantage, because we know who we 
are and what we believe in. We have a purpose; and, like the 
farmer's faith that seeds and rain will cause crops to grow, it 
is our faith that if we are true to our principles, we will 
succeed.
    Let us then do honor to that faith in this year of 
decision. Let us reject the temptation of complacency and 
assume not with complaint but with welcome the leader's role 
established by our forbears. And by living up to the heritage 
of our past, let us together and with God's help fulfill the 
promise of our future so that we may enter the new century 
free, respected, prosperous, and at peace.
    Thank you very much, Mr. Chairman and members of the 
committee. I am happy to answer questions.

    [The prepared statement of Secretary Albright appears in 
the Appendix.]

    The Chairman. Well said, Madam Secretary.
    We have a great many Senators here today, and I have an 
idea that others will join us as the time approaches for them 
to ask questions. Therefore, because of the Secretary's time 
limitation and because of the vote at 11 this morning, the roll 
call vote, I am going to recommend that each round of questions 
be limited to five minutes.
    Now, Madam Secretary, Asia's democrats recognize the need 
for political reform in order for Asia to find its way out of 
the current economic crisis.
    Now, South Korean President Elect Kim, who will take office 
at the end of this month, blames his country's economic 
problems on its authoritarian past. Mr. Kim said, and I quote 
him, ``I believe the fundamental cause of the financial crisis, 
including here in Korea, is the placing of economic development 
ahead of democracy.''
    Meanwhile, Martin Lee, the leader of Hong Kong's Democratic 
Party, has also urged the United States and the West, and I 
quote him, ``to seek not only economic restructuring from 
Asia's teetering autocratic regimes, but substantial political 
reform as well.''
    I guess the obvious question, Madam Secretary, is this. Do 
you associate yourself with the remarks of those two men?
    Secretary Albright.  Well, I do believe in democracy and I 
do believe that a democratic form of government and market 
reforms are the best way for countries to go. And it is our 
hope that countries throughout the world do, in fact, choose 
this way of operating because it is the best way to insure the 
best life for their citizens.
    The Chairman. I like that answer, but I want you to be a 
little bit more specific, if you can and will.
    What specific plans does the administration have to deal 
with the political causes of the economic crisis?
    Secretary Albright.  Mr. Chairman, we are at this time 
obviously very concerned about the financial crisis and have 
spent a great deal of time--all of us, Treasury, State, and 
other parts of the government--working together in order to try 
to stem the problem. We have been backing the IMF because the 
IMF we believe has the best process procedure, to having this 
come about.
    At the same time, we are also talking to the political 
leadership and, specifically, in Korea, where obviously the 
accession of Kim Dae Jung is a very important step. I think the 
way that he has handled the situation, even while in a 
transitional forum because he has not yet taken office, has 
enabled him to show his support for the process and for 
understanding that he needs to put his country back on its 
feet. His election I think and the people that he has put there 
has been very important.
    In Indonesia, there is an election coming up. We have been 
talking to President Suharto. I think it is important for the 
legacy that he has put in economically to be maintained. But it 
is very important for the system to be opened up and for 
greater pluralism to take place.
    So specifically, Mr. Chairman, as we are trying to deal 
with the financial problems which are deep and need to be dealt 
with, we are talking to the countries about generally the 
importance of political reform where it is appropriate.
    The Chairman. Well, as to IMF, I guess you saw Bill Simon's 
piece in the Wall Street Journal the other day. You are going 
to have some selling to do on the IMF, I think, even with me.
    Along another line, I was delighted to hear you discuss the 
ABM modifications. The administration, I think about nine 
months ago, promised to submit amendments to the 1972 ABM 
Treaty to the Senate for its constitutional advice and consent. 
We are yet to see those documents and ``time is a wastin'.''
    It has been 26 years since the Senate ratified the original 
ABM Treaty, and I think the time has come for the Senate to 
conduct a thorough review of the strategic rationale behind 
that treaty which is, in my judgment, outdated.
    When can the committee expect the President to fulfill the 
promise to the Senate by submitting these documents so that we 
can begin the review?
    Secretary Albright.  Mr. Chairman, we are committed to 
seeking the Senate's advice and consent to the memorandum on 
succession and the two agreed statements. As we have said, we 
will send this forward with the START II extension protocol 
after the Russians have ratified.
    We believe that the ABM Treaty contributes in an important 
way to stability and the agreed statements that accompany it 
that allow theater missile defenses to go forward.
    So you will be seeing all of that. We will send it up to 
you. But, as I said, we are waiting for START II and the 
Russians.
    The Chairman. Have you got a sort of time certain, a no 
later than?
    Secretary Albright.  We have been talking with the Russians 
about the importance of their Duma ratifying, and I have spent 
a great deal of time with Foreign Minister Primakov discussing 
this. He is testifying before the Duma on the subject. I cannot 
give you an exact date because that is what we are waiting for.
    The Chairman. I am smiling because I know you cannot 
guarantee the date if you are going to rely on the Russians.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    Madam Secretary, again, welcome.
    Now five minutes is a proper time for us. It doesn't give 
us much time to get into much detail, but this is more of a 
survey, if you will, as to the state of the world.
    To state the obvious, your becoming the Secretary of State 
has had a lot to do, in my view, with this committee 
functioning as cooperatively and as well as it has with the 
administration. Although seeing Mrs. Helms in the audience, I 
would say it is probably more of a consequence of her than it 
is of the chairman.
    All kidding aside, there are going to be some rough patches 
that we are going to hit here because the chairman and others 
have very deep philosophic concerns and disagreements relative 
to arms control issues.
    We have the Test Ban Treaty. Indeed, we have a very, very 
full agenda. On some of the items that are going to first come 
out of the box here, such as IMF, the chairman was kind 
enough--not kind enough; the chairman exercised his leadership. 
We acted on it. He did not agree to the $3.5 billion 
contribution; but we prevailed, and he allowed the committee to 
do its work.
    But he is correct. I am afraid we are going to have a 
harder time for the additional $14 billion. I think we should 
be doing that. But I will withhold my questions on that because 
Secretary Rubin and Alan Greenspan are going to be appearing 
before the committee--not that you don't have full command of 
the subject, but there is much more to discuss with you.
    On Iraq, we have had some difficulty crafting a resolution. 
To his great credit, the Republican Leader, in the response to 
the State of the Union, made it clear to Saddam Hussein that 
Americans, Democrats and Republicans alike in the Congress, 
stood together in being willing to oppose his outrageous 
actions.
    But the devil is in the details, and as we are drafting 
that resolution, there is some disagreement among Republicans, 
among Democrats, between Democrats and Republicans in the House 
and the Senate. It seems to come down to the degree of force 
that we are willing, able, and wish to exercise if diplomacy 
runs its course and ultimately fails.
    I would like to ask you a very pointed question, if I may, 
which is this. If we were, as some suggest and as we all would 
like, to topple Saddam Hussein--I have been operating on the 
assumption, by the way, parenthetically, that that means his 
regime. My question is, in your judgment, in generic terms, 
what would it take to topple him?
    Number two, and an area of your expertise that is more 
appropriate, rather than force structures and balance of forces 
is, if he were to be toppled, what would we replace him with? 
Would it require American troops to be stationed in Iraq in 
your judgment for a serious amount of time? Is there an 
indigenous alternative to Saddam Hussein? What, in your view, 
would Iran feel compelled to do in light of the fact hundreds 
of thousands of Iranians and Iraqis were killed in a long, 
drawn-out, protracted war over oil fields?
    Can you discuss with us for a moment--and I realize this 
will take up all my time--but can you discuss with us what 
alternatives we would be faced with? We always ask the 
question: ``what next if bombing does not work?'' What next if 
we topple Saddam?
    Secretary Albright.  Senator Biden, let me just say that, 
as we have looked at the Saddam problem, which is really what 
it has been, for the last almost decade, it is one of the most 
serious ones that we face as a country.
    He has, as we know, been able to develop these weapons of 
mass destruction and did invade another country. For the years 
that I was at the United Nations, we worked very assiduously to 
keep the sanctions regime in place. It is the toughest 
sanctions regime in the history of the world. Ambassador 
Richardson is there also working to keep it in place.
    But keeping the coalition together on that for a variety of 
reasons became difficult, partially because Saddam Hussein was 
using his people as a pawn and crying crocodile tears, making 
it seem as if it had become an Iraq-U.S. battle when it is 
basically Iraq versus the world.
    Now there are three ways at this moment that the President 
could deal with this and that we together could deal with this 
issue. One is to do nothing. One would be to reconstitute a 
force of a half million, as we had in 1990-1991, when a 
decision was made at that time not to topple him, or to do what 
we are trying to do now, which is to work at the problem that 
we have, which is an issue that is a problem for our national 
interest. This is his ability to create these weapons of mass 
destruction or threaten his neighbors.
    This is why what we have decided to do is, if, in fact, we 
do have to use force--and let me repeat, again, that we prefer 
the diplomatic route--we must make sure we diminish his 
capability substantially to reconstitute these weapons of mass 
destruction and the delivery systems as well as not threaten 
his neighbors.
    I know we all have been talking, as have all of you, about 
the possibility of what it would be like after Saddam Hussein. 
A year ago about this time I made a speech in which I said that 
we are ready to deal with a post-Saddam regime.
    We have, in the past, dealt with opposition groups. We are 
interested in doing so again. But we have to realize that that 
takes additional resources, something that you all may wish to 
address yourselves to, that also we need to see what it would 
look like afterwards.
    I think you, Senator, have raised a lot of the issues. We 
have said all along that we are committed to the territorial 
integrity of Iraq.
    I think that we all will have to consult and talk more 
about this. There is not a simple solution to this problem. I 
think what we have decided to do is the best course for now.
    Senator Biden. Is it possible to topple him and leave?
    Secretary Albright.  I think it is not, Senator, because I 
think that it is a country--and I don't want to go into too 
much detail on this--chances are it would create a situation 
which, for a time, would require the presence of troops.
    Now let me just say this. I don't know how many here today 
or in our discussions are prepared to send, again, a half 
million troops into Iraq. At the time it took many months to 
accomplish. There was an invasion, and I think these are the 
kinds of subjects that we need to discuss. The President has 
felt that there is not support nor a desire to constitute such 
a force. And, as you say, it is not one that we can go in and 
come out quickly.
    I think that it would then require us to be there for some 
time. But I don't want to speculate too much on that because 
our goal is to deliver, if we do in fact use force--that it be 
done not in a pin-prick fashion, as I said, but with a 
substantial strike that would, in fact, allow us to accomplish 
what the President has set out.
    But let me just say that, no matter how one thinks about 
what it would look like, I cannot imagine a worse regime than 
the one they have now. So I do think we need to do what we have 
to do now, follow the diplomatic route, talk to each other, and 
explore those other things that we can look at.
    Senator Biden. Thank you very much.
    Thank you, Mr. Chairman.
    Secretary Albright.  Sorry to have taken so long.
    The Chairman. Depending on the circumstances, you might 
have more assistance from the Iraqi people than you would 
imagine.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Madam Secretary, you have touched upon many of these issues 
in your prepared statement. But I would just observe, and I 
want your counsel on what we do about it, that, essentially, at 
a time in which we are heavily involved with the United 
Nations, as you and others have pointed out, we have not paid 
our dues, and there does not seem to be much prospect of that 
for the moment unless somebody does something about it, either 
in the administration or in Congress.
    The IMF moneys are clearly in jeopardy, tied up at the end 
of the session in the same package with the U.N. situation. But 
the case for doing something in Asia is imperative. Life goes 
on out there, even as we temporize here.
    The State Department reorganization, likewise, is tied up 
and is sort of in limbo, which is a problem for you and for us, 
I believe. Fast Track authority disappeared. It may reappear, 
but is critical, I think, as we head toward WTO negotiations as 
well as toward the trade we are going to have to have, given 
the lack of orders that are going to come as people in Asia 
cancel what they want to do with this.
    The enabling legislation for the Chemical Weapons 
Convention is likewise tied up somewhere in the legislative 
process, so much of that is not occurring. Finally, there is 
the issue we discussed very pointedly today, the need for 
Congressional action, which I think is very important, with 
regard to our mission in Iraq. You have defined the mission 
carefully and narrowly, as has the President in his press 
conference. If it is still under discussion, so be it. But I 
would hope that the President and the Congressional Leadership 
would arrive at some language soon so that there could be a 
vote up or down and there could be proper authorization for the 
use of force.
    I and others have observed that this is going to cost us 
lives and money. There is a responsibility here that ought not 
to be shifted in some way as we discuss past each other.
    I just want some advice and counsel on what is to be done 
with this long list. In essence, most of the tough issues of 
American foreign policy are tied up somewhere that are not 
observed. Nobody is having votes. Nobody is having debate.
    The administration bears some responsibility here. Congress 
clearly bears a lot. But who is going to get the logjam 
unjammed? Who will do something that makes a difference with 
regard to these issues?
    Secretary Albright.  Senator Lugar, thank you very much for 
pointing out the large problems; because, while my colleagues 
may not believe this, I actually enjoy coming up here and 
having these discussions. I thank Senator Biden for his words 
about how we all get along, and everybody knows that the 
chairman and I do. So I think that the issue here is how we can 
all do a better job without having our hands tied behind our 
backs.
    I have to tell you that I literally feel when I go out on 
behalf of the U.S. that I cannot do it with both hands, and I 
would like to have this ability. This is because we have not 
been able to get final Congressional action on what you have 
talked about--the U.N. arrears, the IMF, and the 
reorganization.
    I believe that the reorganization is very important to 
streamline our foreign policy apparatus and to put the emphasis 
in the right places, not to mention the other issues which I 
will get to.
    But I think what we need to be aware of, Senator, is as we 
all know, those particular pieces of legislation were held up 
by language that has to do with family planning and pro-choice 
or pro-life issues.
    I happen to have one view and many of you have another 
view. The issue here is, I think, no matter which side of that 
issue people are on, it is a very deep and important issue. 
There are good folks on both sides of this issue and it needs 
to be debated. It needs to be voted on. But it should not be on 
national security issues.
    Our national security is being harmed at this point, I 
believe, by not being able to have all the assets that we need. 
You would not want to go out there and try to represent 
American interests with one hand tied behind your back and with 
us not having the ability to really have full standing in terms 
of our position at the U.N., because they do every time say 
where is your money. And rightfully so, after all, because this 
is not a bill; rather, these are dues.
    The IMF I am sure we will have long discussions about. I 
believe it is essential to an orderly process.
    So I hope we are able to proceed. I hope that this 
committee comes back to the legislation. We may have to change 
some of the conditions a bit, because life is slightly 
different at the moment. But I hope we do come back to it.
    On the question of Iraq, as I said to Senator Biden, we do 
think that we have the legal authority to go forward. But as we 
have all said, we would very much like to have Congressional 
support.
    I can tell you that when I went out on my trip to Europe 
and the Gulf the day after the State of the Union message, 
where there was overall, bipartisan, loud applause for what the 
President said about what he was going to do about Saddam 
Hussein, it helped a lot. I can say that Congress was there, 
speaking with the administration.
    I would hope that we could show common cause here, debate 
what is legitimate, obviously, and important. We have to make 
sure that we send the right signal. So support would be 
terrific.
    The Chairman. Of course, if the President hadn't been so 
insistent on vetoing the bill that you, I, and Joe Biden and 
others worked so hard on, it would have been law last year.
    Now the White House stonewalled that one. So maybe he could 
swallow a little bit and take something that he doesn't like.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Let me at the outset of this question compliment you, Madam 
Secretary, for the tremendous job that you are doing on behalf 
of our country. We certainly all take great pride in the 
tremendous efforts that you have made, particularly in the 
situation in Iraq. I know my colleagues are focusing their 
attention on that.
    Senator Coverdell and I deal with Latin America. He is the 
chairman of the subcommittee. I thought I might take that globe 
and maybe bring it back to the picture that we usually see and 
focus some attention here on our own hemisphere for a couple of 
minutes, if I might, although I am sure you will want to get 
back to Iraq very quickly and understandably so.
    I would like to raise the issue of Cuba with you, Madam 
Secretary. As you know, of course, the Pope made an historic 
visit to Cuba just days ago that at least raises hopes that we 
might see some changes inside Cuba.
    Let me just at the outset say what I think all of us 
embrace here, which is, obviously, that our fervent desire is 
that democracy come to Cuba as quickly as possible. The people 
of that country have the right to choose their own leadership 
as quickly as possible. None of us retreats from that fervent 
goal.
    But some of us here have crafted a proposal that would at 
least allow for the sale of medicine and food supplies to go to 
the people of Cuba.
    In fact, on his visit, the Pope called for such a move, 
such a step to be made. So I would like to raise the issue with 
you of whether or not the administration might be willing to 
support the proposal that Senators Warner, Bennett, my 
colleague from Minnesota, Senator Grams, Senator Leahy, Senator 
Jeffords, and others and I have proposed to allow for the sale.
    We allow, as I understand it, medicine and food to be sold 
in Iraq, Iran, and Libya. This is about as unique a situation 
as we have. We have some 20 cosponsors in a bipartisan proposal 
here, and we would recommend this opening.
    Why do we do it? I don't have any illusion that Fidel 
Castro gets all of the medicine and food that he wants and 
needs. The question is whether or not people down there who are 
in desperate need--and we are told the situation is pretty 
desperate--are going to get that help.
    I have been told by some in the administration that we 
allow these to go forward. There were some 28 licenses that 
have been extended.
    In our discussions with people who are involved in this, 
they say that if we allow it, it is one of the best kept 
secrets around. It is about $1.5 million or so that have gone 
forward. In fact, a number of the licenses really do not amount 
to much at all.
    So I raise that question with you as to whether or not, in 
light of the Pope's visit here, the Catholic Conference's call 
for this modest change, one that is allowed for nations with 
whom we have a far more hostile relationship, I might argue, as 
hostile as the relationship is with Cuba, in light of that 
whether we might begin to open up this door and see if we can't 
try a different approach to bring about the desired change that 
all of us wish for the people of Cuba.
    Secretary Albright.  Senator Dodd, I know we have all been 
following very closely the events in Cuba and especially during 
and after the Pope's visit. I think, since we are all aware of 
the power of the Pope in many ways, but I think particularly of 
what he has done to end communism in a variety of places--I 
spent a lot of time studying this myself--I think the trip was 
of great importance. What he did to make the Cuban people 
understand that there were other things going on on the outside 
and that they had a right to speak out on religious rights and 
others was absolutely very important.
    I do know about your bill, but I understand that Senator 
Helms also has a proposal. I think that we are very interested 
in reviewing this legislation to see what can be done. We will 
look at it because I think that the points made are very 
important and that, as often happens, the people, the Cuban 
people, clearly are suffering under this regime.
    But, as you pointed out yourself, Senator, some aid is 
going in there, though not enough, obviously. We will take a 
very careful look at your legislation.
    Senator Dodd. I appreciate that. I have not had a chance to 
talk with the chairman of the committee, and I appreciate 
immensely his proposal here. I think it is a very positive step 
and we ought to sit down and see if at some point soon here we 
cannot move on that. I appreciate that.
    I am watching the clock. I realize we have only five 
minutes, so I will try to sneak one more question in to you. It 
concerns Mexico and the annual drug certification process.
    Last week, the administration made public a detailed 
bilateral counter narcotics strategy drafted by Mexico and U.S. 
authorities.
    General McCaffrey I think has done an incredibly fine job 
in a very, very difficult position. But he has been 
tremendously cooperative and forthcoming with many of us up 
here.
    I know my colleague from California, Senator Feinstein, has 
had numerous conversations with him.
    I commend this effort. It is a tremendous effort that is 
underway. The one thing lacking, and you may just want to give 
a quick response to this, are benchmarks.
    When I raised the issue last year about changing the 
certification process--and I thought, Senator McCain and I 
thought we ought to try something new here to multilateralize 
this and approach it differently--one of the arguments raised 
against it was that you did not really set out any benchmarks, 
any guideposts here as to how you would achieve the same 
results. It's not an illegitimate question.
    I wonder if we might anticipate some benchmarks being laid 
out in this approach that has just been crafted.
    Secretary Albright.  Well, we have all done a lot of 
thinking and talking about this. We are looking at a variety of 
ways to try to make the process work better. Benchmarks are one 
way. But I don't have an answer for you yet on it.
    Senator Dodd. Thank you.
    The Chairman. Senator Hagel.
    Senator Hagel. I very much thank you, Madam Secretary, for 
the work that you have done. As Senator Dodd said, I think all 
of America is very proud of the way you have conducted 
yourself. And, as the old saying goes, ``are you having fun 
yet?''
    Secretary Albright.  Yes.
    Senator Hagel. I can tell that you are.
    Let me go back to Senator Biden's questions regarding Iraq. 
I want to kind of develop that a little bit. Let me ask you 
this.
    Is the President, your colleague, Secretary Cohen, and 
others--are you conferring with President Bush, Secretaries 
Baker and Cheney, and General Powell on this issue?
    Secretary Albright.  We are having general discussions. I 
have talked to some as have others. We have each talked to our 
counterparts on the subject. I think that there are a variety 
of views on it.
    Senator Hagel. Well, you know your business. But I would 
hope that that is being done. They developed a very successful 
coalition, as you know, which was very successful in that 
effort, at least in 1991. That leads me to the next question.
    Why are we having such difficulty in developing Arab 
support on this issue?
    Secretary Albright.  Well, first of all, let me say that it 
was quite a different situation. Iraq had invaded, crossed a 
border and invaded another country. It also took quite a long 
time to put a coalition together. And I in no way wish to say 
anything negative about that effort, because it was a brilliant 
effort and we all saw America deal with what was a cross border 
invasion in a very effective way.
    But it was an effort that took a long time to put together. 
Many people, as they talk about the coalition, know that it was 
basically the U.S. and the U.K. that did the heavy lifting on 
that. There were a number of countries that worked together.
    So I in no way wish to take anything away from that or from 
the great work that those gentlemen did. But I would like to 
make that point.
    Second, I have just come back from a lot of the Gulf States 
and Secretary Cohen is out there now. I came back with the 
following set of impressions from it.
    First of all is that they are very concerned about what is 
going on in Iraq. They understand about the problems of the 
weapons of mass destruction and the fact that they do threaten 
them. But it is less visible, I think, than a cross border 
threat.
    Second, they are fully convinced that this crisis has been 
created by Saddam Hussein. They are concerned about the Iraqi 
people, as are we, which is why we support this oil for food 
plan that we wrote originally with Resolution 986 and that is 
now being proposed to be expanded by Kofi Annan. They prefer a 
diplomatic route, but they also understand that, should there 
be consequences, they are the responsibility of Saddam Hussein, 
who will be responsible for the grave consequences.
    So I feel confident of their support. They state they have 
domestic audiences, and they state their support for their own 
purposes. But I do feel that, should we use force, they will be 
helpful to us.
    I think that they also understand the dangers, but it is 
not quite the same situation as when Saddam Hussein invaded 
Kuwait and there were six months to put together a coalition, 
which was primarily a U.S.-U.K. operation.
    Senator Hagel. Do you believe part of this problem is a 
perception in the Arab world that we have tilted way too far 
toward Israel in the Middle East peace process?
    Secretary Albright.  Some of them may think that. I do not 
think that.
    Senator Hagel. You don't think that's the case?
    Secretary Albright.  No, I do not. I think that these are 
two separate issues, clearly very difficult ones. But my own 
sense is we have to deal with both of them. We have to look at 
our national interests. We have to deal with them both 
separately. They are both very important to us.
    We have ties with Israel that are indissoluble, and I think 
that we have to work the Middle East peace process, which I do 
and so does the President.
    I think that some of them have stated those views, but I 
don't agree.
    Senator Hagel. But surely you believe that they are linked?
    Secretary Albright.  [Nods negatively]
    Senator Hagel. You don't believe that there is any linkage 
between the Middle East peace process and what is happening 
with Iraq?
    Secretary Albright.  I prefer not to make that linkage.
    Senator Hagel. You prefer not to make it?
    Secretary Albright.  Yes.
    Senator Hagel. What are we doing collaterally in political 
policy working with our allies over there, as Senator Biden was 
referring to? What happens if we exercise the military option? 
What happens after that? Are we doing anything in the political 
world to drive him from Iraq, working with dissidents? Is there 
anything you can share with us on what our policy is outside 
maybe a military option and just focusing on sanctions and 
resolutions?
    Secretary Albright.  Senator, as I have stated, we have 
worked with opposition groups in the past and are interested in 
working with them effectively. It is very hard to have this 
discussion in this setting. We should probably discuss it 
somewhere else.
    Senator Hagel. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. I certainly join my colleagues in 
expressing both pride in and gratitude for what you have 
accomplished. It has been wonderful to watch.
    As you know, I am a friend of much of what the 
administration has sought to achieve in foreign policy, and I 
am certainly a friend of yours on a personal level. But I must 
say that, having attended now a number of briefings, both with 
you, with Secretary Cohen, General Shelton and others, trying 
to sort out where we are going, I have some concerns. I 
probably find myself more hawkish than some in the 
administration in the sense that I believe there is more that 
we could, in fact, be doing. I am deeply concerned that this 
situation may be sufficient to rise to the level of crisis that 
it is for us--and I think it is. I think that the specter of 
weapons of mass destruction in the hands of Saddam Hussein is 
so deeply threatening to the region, weapons that have already 
proven so provocative in his hands previously, that there is a 
deep sense of concern over the lack of shared concern by 
others, both in the Security Council and elsewhere.
    This said, I am concerned about the parameters of potential 
military action within which the administration appears to be 
currently setting the terms.
    On Friday, the President said that his decision was whether 
any military action can substantially reduce or delay Saddam 
Hussein's capabilities to develop weapons of mass destruction 
and deliver them on his neighbors. Prior to that, the goal was 
ostensibly to have unfettered and unconditional access to 
inspections.
    Today, you defined, in answer to Senator Biden, a response 
that simply said to diminish his capability substantially and 
reduce the ability to deliver or to threaten his neighbors.
    It seems to me that that is a very temporary 
accomplishment. You left out the word ``delay.'' Clearly, the 
delay, according to most estimates, is only six months or so 
before he could rebuild and threaten again. Everybody has 
acknowledged that.
    So I wonder if you could pull all of this together and 
share with the American people in very precise and very defined 
terms, if diplomacy breaks down, if we have to strike, or if 
the decision is made to strike, what is the maximum that we can 
anticipate we have accomplished by virtue of those strikes? 
What have we done?
    Then, of course, the question is where are we.
    Secretary Albright.  Senator, first of all, let me say that 
I think that we need to keep our national interests in mind as 
we look at this, and our national interests are to limit his 
ability, reduce substantially, delay his ability to 
reconstitute his weapons of mass destruction and the delivery 
systems that are attached to that, as well as reduce his 
ability to threaten his neighbors. Those are our national 
interests at this time.
    I think we are very concerned about his ability to have 
weapons of mass destruction. So the words are the same as the 
President's and those are our goals.
    The second is that we do require unfettered, unconditional 
access by the inspectors. We want Saddam to fulfill the 
obligations that have been imposed upon him by the Security 
Council.
    The best way for this whole thing to end would be for 
Saddam Hussein to go back and allow UNSCOM inspectors; because 
UNSCOM has destroyed more weapons of mass destruction than were 
destroyed in the Gulf War--38,000 chemical weapons, 100,000 
gallons of chemical agent, 48 missiles, and warheads with 30 
different kinds of weaponized warheads. So they do the best 
job. That is why there is nothing contradictory between what 
would be a military option versus what is our desire for the 
best outcome, which is to have this unfettered and 
unconditional access.
    Senator Kerry. Well, the presumption is that if he has made 
the decision not to have unfettered and unlimited access so as 
to invite a strike, which has been promised, I presume, having 
survived this strike, what then forces him to come around?
    Secretary Albright.  Well, I think, first of all, you will 
have to have another briefing about the targeting of this at 
some other time. But, as I have said, it will be a substantial 
strike. We have made that very clear. This is in no comparison 
to previous hits after the Gulf War. It will be a very 
substantial strike and an important one in terms of its 
targets.
    We have also said that, if we get even any hint of the fact 
that he is reconstituting, we will strike again. We have made 
that clear. So this is not a one-time issue.
    I think, Senator, what we have done, actually, is to be 
very careful to define what it is we are doing for our national 
interest. This is not to say, as I said, that we would not 
welcome a post-Saddam regime or think about the other options 
that you all have talked about. But we have tried to look at 
what our national interests are here and to deal with them in 
the most effective way we can.
    Senator Kerry. I see my time is up.
    Mr. Chairman, thank you.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much.
    Madam Secretary, it's nice to see you. I am pushing the 
envelope on this vote, so I want to be very brief and quick and 
will just ask a couple of quick questions. I will followup on 
what Senator Kerry has said.
    Retired General Norman Schwarzkopf has warned of a risk 
that, just as in the bombing of North Vietnam during the 
Vietnam War, pushing Iraq with air strikes without eliminating 
Iraq's rulers only would toughen their resolve. Here you are 
saying not a pin prick but a substantial air strike. It sounds 
like we are kind of repeating some of the same things.
    What exactly has the President set out to accomplish by 
this? I don't know if I have heard that this morning. I know 
that there are goals and objectives. But are you willing to 
state exactly what those goals and objectives would be and how 
they would be accomplished through a substantial air strike?
    Secretary Albright.  Well, as I have said, I think the 
problem that we face is that Saddam Hussein is not coming clean 
on what he has in terms of the weapons of mass destruction. 
UNSCOM is the best way to deal with that problem.
    If we are not able to have a diplomatic solution, that is, 
one that would allow unfettered, unconditional access, then we 
believe that we would have to take a military route. That route 
would be to have a substantial strike--and I am not going to go 
into the targets here--but that would substantially reduce his 
ability to reconstitute his weapons of mass destruction and the 
delivery systems and to threaten his neighbors.
    That is what is in our national interest.
    Now I think that there are those who would like us to 
topple Saddam Hussein. I have said that that would take huge 
ground forces, and they had those ground forces when General 
Schwarzkopf was in charge. I think that the issue here is now 
to decide what is in our national interest.
    Senator Grams. So this would be more to delay his 
capability than to eradicate it?
    Secretary Albright.  Well, it is to reduce it, delay it, 
and to make sure substantially that he cannot regain his 
ability with the weapons of mass destruction. ``Reconstitute'' 
is the word that we are using.
    Senator Grams. I have two other quick areas. In Sudan, what 
is the administration doing to put pressure on the Sudanese 
Government right now, bilaterally or multilaterally through the 
United Nations to lift what has now been imposed as a new 
flight ban on the Bahr al Ghazal Province in Southern Sudan? 
There is a lot of concern of urgently needed aid for up to 
200,000 refugees. What is the government doing, the 
administration, right now in the Sudan?
    Secretary Albright.  Well, we have a sanctions regime on 
Sudan. But on that specific issue, we have some aid that goes 
in. I will look into that specifically.
    Senator Grams. We have had several inquiries and I am 
trying to get some answers there.
    Secretary Albright.  I will get an answer for you, Senator.
    [The information referred to follows:]

    Department of State officials in Washington and Khartoum 
have strongly protested to the Sudanese Government against the 
flight ban in Bahr al Ghazal. The United Nations, with our 
support, has also issued a protest.
    On February 23, our Charge d'Affaires met with the U.N.'s 
Special Envoy for Humanitarian Affairs in Sudan, Robert van 
Shaik. The Charge expressed support for van Shaik's efforts to 
get the flight ban lifted and urged him to tell Sudanese 
authorities that the international community is prepared to 
defy the flight ban if necessary to assist war-affected 
civilians. Our Charge is organizing a multilateral demarche on 
the Government of Sudan if it does not accede to van Shaik's 
request.
    The Sudanese have permitted U.N. personnel to go to Bahr al 
Ghazal to conduct security and humanitarian needs assessments. 
We are hopeful that the ban will be lifted soon. We will 
continue our pressure on the Sudanese until it is lifted.
    In the meantime, in an effort to get food to the more-than-
150,000 internally displaced persons in Bahr al Ghazal, 
Operation Lifeline Sudan--a United Nations agency--is moving 
food overland. USAID, working closely with Operation Lifeline 
Sudan, will fund Norwegian Peoples Aid which will begin flying 
food into Bahr al Ghazal on February 25 in defiance of the ban 
if necessary. We expect other donor nations to provide funds to 
the Norwegian group and/or other non-governmental 
organizations.
    In November, 1997 President Clinton imposed comprehensive 
sanctions against Sudan. One of the reasons he cited for the 
sanctions was ``the prevalence of human rights violations.''

    Senator Grams. One final thing, quickly, Madam Secretary. 
You, Ambassador Richardson, and Ambassador Sklar have given 
this committee repeated assurances that the administration will 
not certify that the U.N. has achieved a no-growth budget of 
$2.533 billion if that amount was reached through any 
accounting changes, like net budgeting. Madam Secretary, 
quickly, would you state for the record that the administration 
will only certify that the U.N. has achieved a no growth budget 
if that is truly the case and no savings are recognized through 
any kind of accounting gimmicks?
    Secretary Albright.  We have said that we would certify a 
no-growth budget. I am not sure that we are going to agree as 
to what you think is an accounting gimmick. But I think we want 
there to be a real no-growth budget.
    Senator Grams. Thank you very much. I appreciate it.
    Oh, Madam Secretary, I want to ask, just briefly, if there 
are some questions that we cannot address here this morning in 
the committee, would there be consideration maybe of another 
closed door session to be able to ask more direct questions 
with Iraq? I was just hoping that maybe you would consider that 
within the next couple of days.
    The Chairman. Madam Secretary, they have said for me that 
cloture may be near.
    Secretary Albright.  For me?
    The Chairman. I want to explain for those in the radio and 
television audience that there have been all sorts of signals 
with the security people. There was an unattended briefcase in 
the back of the room.
    Now don't anybody leave. It is gone. They handled it 
gingerly, and I don't know whether they opened it or not. But 
it will be safe, and you will be safe with Senator Lugar. I am 
advised that two or three more Senators will be here to ask 
questions.
    If you will forgive me, I am going to go and vote. But I 
will be right back.
    Thank you.
    Senator Lugar.
    Senator Lugar (presiding). Thank you very much, Mr. 
Chairman.
    Madam Secretary, in the statements that you made yesterday, 
you commented on rumors that NATO expansion ratification could 
have an amendment that limits new members or at least creates a 
so-called pause effect of three to five years for additional 
members to be considered.
    Would you once again give your argument as to why the pause 
idea is not a good idea?
    Secretary Albright.  Well, first of all, let me say that 
the most important thing is that we have a strong and cohesive 
NATO. I think that has been the basis of our policy. That is 
why we decided that NATO expansion made sense, and also to try 
to bring in countries that are ready to come into NATO based on 
a set of guidelines that the NATO members have agreed upon and 
an understanding that each new NATO member is ready to accept 
the responsibilities as well as the privileges of NATO 
membership.
    We think that there needs to be an open door process 
because what we do not want to do is create any new artificial 
dividing lines because what we are trying to do, actually, is 
eliminate them. If we were to say that there is a pause, it 
would, in fact, create such a line and not allow the decisions 
about expanded NATO membership to be made on the basis of 
whether those countries are ready to come in.
    It would be an artificial way of regulating it.
    Now, if there are those that are concerned about who the 
next members would be or when they would come, at the 1999 NATO 
meeting there will be a review of how the process is working 
and also, obviously, if new members were to be invited, then 
you all would go back again through the process of advice and 
consent on it.
    It is just that we think that the pause is a very 
artificial way to deal with it and does create the possibility 
of a new dividing line.
    Senator Lugar. How has the Foundation Act with Russia 
worked this far? What are your impressions of how they are 
working into this?
    Secretary Albright.  Let me say that I think it has 
generally been working very well. There are those who predicted 
the end of the world if we did expand NATO and that it would 
hurt our relationships with the Russians. I think that the 
truth is they have not changed their opinion about NATO. But we 
have had two meetings of the Permanent Joint Council, one in 
New York and one just now in Brussels. I think we are all 
getting acclimated to how this works.
    There was a great sense of history being made when Foreign 
Minister Primakov was actually there at NATO in the meeting, 
attending. I believe that a lot of work is being done. It is 
establishing good working relationships on the issues of 
concern there and made very clear that Russia does not have a 
veto over any NATO decision, but that this is a way for there 
to be discussions and consultations.
    So I would say that it has been very useful and that it 
will be a good vehicle.
    Senator Lugar. The New York Times columnist, Tom Friedman, 
this morning indicates that in the Czech Republic people are 
very luke warm toward NATO membership. Is that an accurate 
perception on the part of Tom Friedman?
    You are an eye witness in many ways to the Czechs' ideas 
about NATO. Could you testify as to what you think the 
situation is there?
    Secretary Albright.  I think I have some reason to know 
this issue, and I have checked on it. I do, in fact, think that 
there is support in the public and there is support within the 
government, which has been going through a lot of changes. But 
I do think that the most eloquent spokesperson on behalf of 
NATO expansion in President Vaclav Havel of the Czech Republic.
    I feel that there is support for it there. I think that 
there are different polling results, but my own sense about 
this is that there is an understanding and a desire for the 
Czech Republic to be one of the three to come in.
    Senator Lugar. In your testimony, you have offered support 
and said it would be a priority that the administration would 
try to bring about the African Growth and Opportunity Act. This 
was initiated by distinguished House members. I have sponsored 
or introduced it in the Senate. I was disappointed that it did 
not move last year.
    There were, apparently, mixed signals in the administration 
with regard to some of the trade provisions, I gather with two 
countries in textiles or some arrangement of this variety. Are 
signals clear now and will there be strong administration 
support in the relevant committees to move this legislation?
    Secretary Albright.  Yes.
    We are very interested in this legislation and have it as 
one of our priority issues. I was in Africa just before 
Christmas. But my own sense is that we really need to look at 
Africa in a different way. I tried very hard and was interested 
in meeting with a variety of leaders in countries that I 
thought offered great economic opportunities. It is essential 
for us to see Africa as being able to be brought into the 
global economy, not as a victim of it but as a partner in it. 
This legislation will help us and you will see a lot of 
emphasis put on it.
    Senator Lugar. My understanding is that President Clinton 
will go to Chile in April at another Summit of the Americas. Of 
course, much is hoped for at that meeting. But some have 
suggested that prior to that time, Fast Track authority ought 
to be attempted again or at least some initiative that would 
give the Chileans some hope that they might have access to 
NAFTA, even if not Fast Track, or that somehow or other the 
trading system in the hemisphere is likely to be liberalized, 
to come unglued, prior to that very important meeting.
    What is your thinking about that and what might be 
attempted?
    Secretary Albright.  Senator, we have, obviously, thought 
that Fast Track authority was very important, generally, and 
obviously in our relations with Latin America. Getting ready 
for the Santiago Summit is something that we are actively 
involved in now.
    I think that the President has spoken a great deal to his 
counterparts about the importance of moving a trade agenda 
forward.
    In terms of it, specifically as we have said, and as the 
President said in his State of the Union message, he would be 
seeking Fast Track authority, but we have not decided on the 
timing right now. But we have, in fact, had a lot of 
discussions with Latin American leaders about the importance of 
moving forward in a way that makes the agenda go forward.
    Let me just say that the last time I was in Latin America 
with the President, we met with a lot of the MERCOSUR leaders. 
It was very much our sense that it is good for America to be 
part of an overall free trade area system because they are 
organizing themselves. It is not in competition with us, but it 
is a very good building block.
    I think when we are not involved in something like this, we 
lose out. We are the losers. So we are looking at ways to open 
up the system.
    Senator Lugar. I am just curious as to what good news we 
can bring in April. It is just a short period of time and 
certainly the promise of the Miami Summit was free trade by 
2005 in the hemisphere and immediate accession of Chile. Is the 
2005 idea still on board?
    Secretary Albright.  Yes, it is, sir.
    Senator Lugar. And will there be active discussion, for 
example, of that?
    Secretary Albright.  Well, it is part of the agenda. We are 
going to be looking at a variety of aspects to underpin a free 
trade area.
    Senator Lugar. Let me ask about the Middle East again.
    Some have suggested, and this is a broad question that hits 
several entangling predicaments, that dual containment with 
regard to Iraq and Iran is a policy that is not working well 
for us, even though people who say this are not certain 
precisely what they would do about it. What consideration is 
there in the administration to reviewing so-called ``dual 
containment'' of those two countries?
    Secretary Albright.  Well, let me say, first of all, the 
Iraq policy is front and center, and I think we are very clear 
about the importance of making sure that Saddam Hussein does 
not break out of the strategic box that we have put him in. 
This is the purpose of what we are doing there, to make sure 
that that does not happen.
    On Iran, the President has said that he was very intrigued 
by the election of President Khatemi, and he has indicated that 
there are ways that we could see about some of the ideas that 
President Khatemi suggested, which was looking at cultural 
exchanges, and we are looking at that.
    But let me say, as far as Iran is concerned, that we cannot 
drop the idea that there are three issues that are of major 
concern to us about Iran: their support for terrorism, their 
lack of support for the Middle East peace process, and their 
desire to acquire weapons of mass destruction.
    And so, I think our problem here is to assess not the words 
but the actions.
    I can say, and I found interesting resonance about this on 
my trip in the Gulf, that the President delivered a message at 
the end of Ramadan in which there was a paragraph that was more 
directed toward showing that we respected the civilization of 
Iran. That was noted, at least among my Arab interlocutors.
    So we need to make sure that Iran deals with these three 
major issues of concern to us, and we are watching very 
carefully. But what is also essential as we look at a variety 
of ways for these exchanges is that, ultimately, the only way 
there can be a change is we believe there has to be dialog 
between the two governments. As you know, that is one of the 
things that President Khatemi is saying, that he would prefer 
other ways of doing this.
    But, clearly, we are all intrigued, as clearly are you, by 
what is going on.
    Senator Lugar. What is the timeframe of decisions we must 
make with regard to French and Russian exports to Iran? Many 
have pointed out that at some point our Nation's laws and 
policies would require us to sanction them and that they are 
likely to retaliate by going to the World Trade Organization 
and claiming that we are extraterritorial in our view and 
beyond the bounds of what we can do.
    How is this going to play out?
    Secretary Albright.  Well, we are, at this stage, going 
through the investigation as to whether the activity is 
sanctionable. We will have a report to you soon on that.
    Senator Lugar. So there is a decision to be made----
    Secretary Albright.  There is a decision still to be made.
    Senator Lugar [continuing]. A decision quite apart of the 
timeframe from taking action?
    Secretary Albright.  Yes. Right.
    Senator Lugar. In the case of the Israelis, the statement, 
I gather, was made by the administration the other day that in 
the event Israel was attacked by Iraq, it had the right to 
defend itself. Is that a fair interpretation of the status of 
that situation?
    Secretary Albright.  We have said that every country has a 
right to defend itself and that, obviously, Israel will make 
its own decisions, and we will be in close consultation with 
them.
    Senator Lugar. Now that is different from Desert Storm. 
Isn't it the case that we actively intervened to ask Israel not 
to retaliate or to take action at that point?
    Secretary Albright.  I was not there at that time. But this 
is our position now.
    Senator Lugar. Well, it is an important position. It sort 
of bobbed up in the paper the other day. Clearly, the 
interaction of all the factors in the Middle East is important. 
Considering that you have been on the firing line on this 
closer than anyone else, what is the future of the peace 
process in the event that we conduct military strikes in Iraq?
    Secretary Albright.  Well, first of all, let me spend a 
little bit more time talking about the peace process.
    Nineteen ninety-seven was not a good year for the peace 
process. As I have described, the peace process is based on 
mutual trust, mutual recognition, mutual respect; and a lot of 
the bonds of confidence had been rubbed away. So what we have 
been trying to do is to rebuild those bonds of confidence.
    As I said in my statement, they are not spending a lot of 
time dealing with each other. So we were hoping that they would 
have some reaction to our proposals.
    When the leaders came here, the President presented his 
proposals or ideas to them. Basically, there is not an American 
plan. There are some ideas that we have. Then I went to the 
Middle East to try to get some reaction from them as to how 
they felt those proposals met their specifications or their 
desires.
    They are still thinking about that, I think. As I said, it 
was very important for them to make some decisions.
    If the decisions need to be made and we are proceeding with 
that, we cannot let the two interfere with each other.
    Now, granted, as I have said also, they are in the same 
region. But they both have their own momentum. We will proceed 
with the peace process, because we believe it is important to 
do so.
    Senator Lugar. As perhaps you know, I and a good number of 
co-sponsors have offered legislation in the Senate, with 
Congressmen Hamilton, Crane, and others in the House, that 
would ask for a more careful review of sanctions, economic 
sanctions, before the United States uses economic sanctions.
    Our thought is that the rationale for why we are doing it, 
what the objectives are, what are the benchmarks of success, 
all of this ought to be known. In essence, our overall view is 
that the United States has been using economic sanctions too 
often, and this is debilitating not only to our trade but our 
relations with others and is often nonproductive for reasons 
the scholars have discussed for a long time.
    Do you have any view with regard to this legislation? It 
comes from ``USA engaged in an attempt by about 600 American 
companies who have banded together, at least, to foster the 
slowing down of sanctions as an idea,'' and this is a 
legislative component of that?
    Secretary Albright.  Senator, let me kind of give a broader 
answer on this.
    When I was teaching, I used to talk about what tools 
American foreign policy had, and there basically are three: 
diplomatic activity, military force, and sanctions.
    We know of the difficulty and appropriateness of using 
military force, and diplomacy is there as a bread and butter 
issue all the time. And there is a temptation to use sanctions.
    When I was Ambassador in New York at the United Nations, 
clearly that is one of the places, the most effective place, 
for multilateral sanctions to be imposed. Then there are 
bilateral sanctions that we take on our own when we believe 
that we need to somehow influence the behavior of another 
government.
    People ask what is foreign policy about. It is about trying 
to get another government to understand your national 
interests.
    However, as we have looked at sanctions and some of the 
issues that you have been talking about, we have seen some of 
the problems that you have described. I have asked at the State 
Department that we really look at how effective sanctions are, 
how we go about using them, generally doing a kind of review.
    I have asked Under Secretary Eizenstat to really take a 
look at that very carefully and he is doing so. He will 
obviously also look at your legislation.
    Senator Lugar. I would appreciate that. It is a serious 
attempt to deal with a serious problem, not to eliminate 
sanctions from your toolbox of responses, but to be more 
thoughtful and understand the costs that are involved which may 
be substantial to our country.
    I am grateful that the chairman has returned.
    Secretary Albright.  So am I.
    Senator Lugar.  Thank you for your responses.
    The Chairman  (presiding). Isn't he a nice guy?
    Secretary Albright.  He's great, but it's like being in 
orals exams, you know.
    Senator Lugar. Thank you.
    The Chairman. This thing happens every once in a while. You 
pray that it won't happen to you, but this is the second or 
third time in a year that it has happened to me. There are many 
Senators here. Chuck Robb, for example, is the ranking member 
on his committee and the chairman is not there. But he wants to 
get here.
    Tell me what time you need to leave, Madam Secretary.
    Secretary Albright.  I think by about noon, Mr. Chairman. 
Is that all right?
    The Chairman. Very well. If we don't get two or three 
Senators here by the time I ask you a question, we will just 
let you go with our thanks.
    Secretary Albright.  I'm always happy to come back, as you 
know.
    The Chairman. On February 4, maybe you saw it, the 
Washington Post had a story about Yassir Arafat who recently 
ordered the release of two Palestinian militants jailed for 
involvement in the January 1995 bombing that killed 21 
Israelis. This is just the latest in a long series of 
outrageous violations of the so-called commitment the 
Palestinian Authority has made to combat terrorism.
    The Palestinians still have not carried out the transfers 
of any of the suspected terrorists requested by Israel and have 
continued a policy of either not jailing the suspects or 
setting them free soon after taking them into custody.
    Now, Madam Secretary, do you feel that there is any hope of 
the peace process advancing when the Palestinian Authority 
refuses to punish the murderers of citizens of any country, 
including Israel?
    Secretary Albright.  Mr. Chairman, the issue of terrorism 
and how it is handled is obviously one of the most serious 
aspects that we are dealing with in the Middle East peace 
process, and security. Whenever I meet with Chairman Arafat, we 
discuss the problem and the necessity for his making a 100 
percent effort in this area.
    There have been, I think, some positive steps in terms of 
the Palestinian authorities dealing with the subject of 
security, both unilaterally and bilaterally with the Israelis.
    There are specific cases and we deal with those. I have 
mentioned them, the President has mentioned them, and I think 
there is obviously room for improvement. But I do feel that the 
Palestinians are making an effort. They need to make more of an 
effort, and we have stated clearly that a 100 percent effort is 
required.
    The Chairman. A while ago you mentioned the difficulties 
about the things that you and I have worked together and made 
concessions on. Let me say that in thinking about this while 
going over to vote on the trolley just a while ago, I am afraid 
there may not be swift approval of IMF and U.N. funding, even 
if you have the votes for it, so long as the administration 
continues to reject concessions made by the House last year on 
the Mexico City policy.
    Now I have to confess before some of the newspaper people 
put it in the paper that yes, I wrote that Mexico City 
provision. ``Mexico City'' around this place is shorthand for 
prohibiting U.S. taxpayers' dollars from being used by foreign 
organizations for abortions.
    Jim Buckley and I collaborated on that little piece of 
legislation.
    Now as you may recall, I stood with you on a lot of things, 
including pleading with the House not to insist on the Mexico 
City provision. They did. They came forth with some 
concessions.
    Now the offer rejected by the White House would have freed 
up funding for the IMF, the United Nations, and the State 
Department Reorganization if the White House would simply agree 
not to use taxpayer money to lobby--to lobby --foreign 
governments to change their laws on abortion one way or 
another.
    Bear in mind that we are talking about a lot of Catholic 
countries here.
    One would think that this reasonable proposal would have 
been acceptable to both pro-life and pro-choice supporters. But 
I am sorry to say that I am not even sure the President was 
asked to consider it. It was dismissed out of hand down the 
line someplace.
    But the White House, in any case, rejected the offer out of 
hand, and the next day the President's Press Secretary 
proceeded to call Republicans ``bone-headed.''
    Now I have been called a lot of things, and that is one of 
the nicer ones that I have been called.
    Before we put the cart before the horse anymore, can you 
give me any idea what the administration is going to do if we 
have the push and the shove about Mexico City or a variation of 
it in the reorganization and other things, because you are not 
going to get any United Nations money? You are not going to get 
the reorganization.
    It seems to me that the President ought to reconsider what 
I think some of his assistants have decided in his stead.
    I would be glad to hear from you on that.
    Secretary Albright.  Mr. Chairman, please allow me to give 
a fairly full answer on this; because this is an issue that has 
created great problems, I think, for all of us. There was, in 
fact, as you have said, an offer of ``a compromise'' on this 
issue.
    But, as you know, there are two parts to the Mexico City 
matter. It is whether money can be used for performing 
abortions or for lobbying--or family planning, I'm sorry.
    In the proposal that was made, it would allow the President 
to waive the restrictions on the funding to organizations that 
use their own money to perform abortions, and it capped all the 
funding for international family planning at $356 million if 
the President did so. The President's request, by the way, was 
$425 million.
    The House Republican Leadership did not allow the President 
to waive the prohibition against allowing the organizations 
that use their own money to lobby and defined ``lobbying'' very 
broadly, to include attendance at conferences and workshops 
having among their themes the alleged defects in the abortion 
laws as well as the drafting and distribution of materials 
calling attention to such alleged defects.
    So what this means is this. Let me just make something 
clear.
    As a matter of long-standing law and policy of this and 
previous administrations, no U.S. funds are spent to perform or 
lobby for abortion, and current law prohibits this use of U.S. 
funds. But under the so-called compromise, attendance at a 
conference or workshop at which abortion laws were discussed 
would disqualify any foreign organizations from receiving U.S. 
funds. This is, basically, a gag rule that would punish 
organizations for engaging in the democratic process in foreign 
countries and for engaging in legal activities that would be 
protected by the first amendment if carried out in the United 
States.
    So the language is so broad that foreign doctors and other 
health professionals might be precluded from providing medical 
advice on policy issues related to unsafe abortions. Even 
research on the incidents, causes and consequences of unsafe 
abortions would be endangered.
    What it really does is dictate to organizations that would 
not be using Federal funds for this how they should carry on 
their activities.
    I think that the administration has had very firm views on 
this, and I think that we cannot have a compromise that is not 
really a compromise.
    I think that this is a very serious issue.
    You and I disagree on the substance of this issue. I 
believe that there are a lot of good people on both sides of 
this issue. It is a very important issue. And I would hope that 
we would all have a chance to debate the issue on its own 
merits, on Mexico City language, as you say. And we should do 
that.
    But I don't think we should attach it to legislation that 
is important for our national security. In fact, I think you 
agree with me on that.
    The Chairman. I stood with you last year, and I got fussed 
at all across the country by people who thought I had sold out. 
But I had not sold out. That's all right. I took my lumps and 
went with it.
    Let's have an agreement that we will sit down, perhaps with 
the President and one or two other principals in this thing, 
and see if we cannot work something out.
    Secretary Albright.  I would agree with that.
    The Chairman. All right.
    Now let me see.
    Senator Sarbanes, you are next in line in seniority. 
Senator Kerry has already asked his questions.
    Go ahead.
    Senator Sarbanes. Madam Secretary, just to continue along 
this line, I don't know how many critical programs are going to 
be taken hostage over this Mexico City/abortion issue. I mean, 
the U.N. was being held hostage and we wrestled with that in 
the last session. Now, apparently, there are some who want to 
hold the IMF hostage as well.
    I am just looking at the morning paper: ``Asian Monetary 
Crisis Sends Ripples to the U.S. West Coast.'' Let me just read 
a couple of paragraphs here.

    California and its neighbors in the Pacific Northwest have 
discovered their dependency on once booming Pacific Rim trade 
may have some drawbacks as the Asian monetary crisis ripples 
across the ocean.
    California, in particular, has barely had time to savor an 
export based comeback from the worst downturn since the Great 
Depression, and faces an uncertain future once again for its 
newly restructured economy because of volatile markets and 
weakened currencies in Asia.

    Then they go on to talk about the drop in the value of the 
Asian currency against the dollar and that it means U.S. 
products cost more and their imports to us cost less.
    I think if we don't get these resources to the IMF in short 
order, we may well contribute to a further intensified crisis 
in Asia and then conceivably elsewhere. I don't know how the 
administration can separate them out.
    I know you've made the request to the Congress, and so the 
problem is really up here. But it seems to me that we have a 
situation out there.
    First of all, we put, what, 18 percent of the quota up for 
the IMF? Is that correct, that is, the U.S.?
    Secretary Albright.  Yes, I think that's right.
    Senator Sarbanes. Yes.
    Secretary Albright.  Oh, 15. Fifteen percent.
    Senator Sarbanes. No, I think it is 18 percent. We have to 
put 15 percent or we lose our veto. If we fall below 15 
percent, then we lost the ability to actually control the 
decisionmaking. But I think we are at 18 percent. But, in any 
event, whichever it is, it means that in terms of burden 
sharing, we are getting 82 percent from other countries around 
the world in order to enable the international community to 
respond to this financial crisis, which seems to me to be a 
pretty good deal. That actually is a better burden sharing than 
we are getting at the U.N.
    Second, as I understand it, we don't have to make a budget 
expenditure in order to do this.
    Secretary Albright.  Right.
    Senator Sarbanes. We have to have budget authority, but we 
don't have any budget outlays connected with this. In fact, we 
get a claim against the IMF which we can use ourselves if we 
need to and which we have done on a couple of occasions in the 
recent past at the time of the oil crisis. I think that is 
correct.
    Now, I take it this also has important foreign policy and 
security implications, does it not? It's not just an economic 
question. It's not just a question for the Treasury. I take it 
that you are seriously concerned about its implications as 
well, particularly with respect to Korea. Is that right?
    Secretary Albright.  Absolutely, Senator, and Indonesia.
    Let me just say that you are stating the case in the best 
possible way that this is a very serious problem. It is 
affecting our national security. Basically, we are trying to 
deal with problems without the resources with which to carry 
on.
    I think that the problem here is that this legislation is 
being held hostage and that is the problem. I think that we 
ought to free it up and vote on the issue itself, which is, as 
I said, a very important one to a lot of people. But I think to 
hold up our national security on issues that are--let me just 
say--of principle to both sides--that's the problem. I don't 
think principle is only on one side. I happen to have my views 
on it, but I think there is principle on both sides.
    When that happens, I think it is very hard to have a 
compromise. Therefore, what needs to happen is to vote on it 
separately, not to keep people from discussing it. But let us 
not hold up what is clearly important to our national security 
on the Asian financial situation as well as the U.N.
    We are trying to tell people that Saddam ought to obey U.N. 
Security Council resolutions. That is our vehicle for trying to 
deal with some of these problems.
    So yes, Senator, this is affecting us very deeply. I just 
would ask that we vote on an issue like this separately. That 
is all we are asking.
    The Chairman. Madam Secretary, we have two Senators who are 
here who would like to question you. Would you be able to stay 
long enough for that?
    Secretary Albright.  I could.
    The Chairman. Senator Robb, please forgive me, and thank 
you. Senator Feingold has been here from the very beginning, 
and I hate to pass over him.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman and thank you, 
Senator Robb, very much. And thank you, Madam Secretary, for 
being here.
    I would like to commend you for your remarks about Africa 
and also especially for your having visited Africa recently. 
During your confirmation hearing, you pledged to this committee 
that you would place great emphasis on doing what you could to 
help Africa's democratic leaders broaden and deepen the 
positive trends taking place in Africa. I was pleased by that 
promise and that you followed through with it.
    Perhaps the only greater way that the United States can 
show support for these positive trends is for the President 
himself to travel to the continent. So I am very pleased that 
President Clinton plans to be the first sitting President since 
Jimmy Carter, I am told, to make a similar trip in March.
    We cannot underestimate the importance of this kind of 
signal to Africa and to the world, and I appreciate the 
administration's efforts in that area.
    Having said that, I think it was unfortunate that many of 
the press reports concerning your visit to Africa gave the 
impression that in its drive to increase emphasis on economic 
and security concerns, somehow the administration was beginning 
to focus less on democracy and human rights issues even though 
you have consistently stated that human rights and democracy 
are cornerstones of your Africa policy. I think this would be a 
good opportunity for you to tell this committee about your 
expectations and goals for the trip. In light of some of the 
press reports, would you consider the trip a success in that 
regard?
    Secretary Albright.  Yes, Senator. Thank you.
    Let me say, first of all, thank you for what you said 
generally about our support for Africa and working more with 
the African countries.
    I hate to say this, but I don't think you should believe 
everything you read in the newspapers. Let me just make the 
following point.
    I think that we have had a tendency to look at Africa just 
as a continent when we ought to look at it as a patchwork quilt 
of many different countries with many historical backgrounds, 
different levels that they are involved in in terms of their 
movement toward democracy. I think that it is a big mistake if 
we just look at it as all being the same.
    I think the big issue that came up was when I met with 
President Kabila of the Democratic Republic of Congo. We talked 
a great deal about what is going on in that country and how he 
can move it forward in a way that would open up the system, 
have transparency, a multi-party system, freedom of the press--
all the things that we consider essential to democracy.
    I spoke to him about the centrality of human rights, which 
is, obviously, always central to our foreign policy. But I have 
to say that I think we need to look at each of these countries 
individually without making any excuses, but see where they are 
in their process and, at the same time, press them to develop 
their economic base and to be aware of where they are within 
their region, how they interact with their regional leaders.
    So I in no way believe that I detracted from our overall 
American policy to keep human rights central. But I think I did 
recognize that in each country there is a slightly different 
situation and that one has to look at where they are and at 
what it is that one asks of them.
    Senator Feingold. Let me follow your lead in regarding each 
country differently. One that is not so slightly different is 
Nigeria.
    The administration has apparently been reviewing its 
Nigeria policy for at least the year since you have been 
confirmed, if not longer. I understand there is an options 
paper floating around the State Department, but there has not 
yet been a convening of the principals to make the hard 
decisions that have to be made with regard to coming up with a 
new policy.
    So I just have to say for the record that I am very 
disappointed that I have yet to see any results of this policy 
review. The situation in Nigeria remains precarious, and I am 
worried that the United States does not really have a Nigeria 
policy.
    Let me say to soften this a bit that my conversations with 
your Assistant Secretary of State for African Affairs, Susan 
Rice, on this topic have been excellent. But I have been asking 
for some time for some signal or closure on this, and I think 
it is something urgent.
    Secretary Albright.  Senator, I do not disagree with you. I 
have also been calling for such meetings. We will have them.
    Senator Feingold. Thank you.
    Mr. Chairman, with regard to China, I have a brief question 
about the United States with respect to China at the upcoming 
U.N. Human Rights Commission meeting in Geneva.
    Last year, as you obviously know, many observers blamed the 
failure of the Commission to pass a resolution on China on the 
failure of the United States to lobby vigorously enough, or 
early enough, to garner sufficient support for such a 
resolution. As I understand it, the President has made a strong 
commitment to continue to raise human rights issues in China at 
Geneva.
    My question is this. Will the United States take the lead 
in pushing for resolution this year? If so, do you intend to 
begin those efforts now, prior to the development of a common 
position by the European Union?
    Secretary Albright.  Senator, we are looking at the whole. 
Obviously, in the State Department, we just released our human 
rights report on this. We raise our human rights concerns with 
the Chinese all the time and have also said that we will never 
have a totally normal relationship with them until their human 
rights policy changes and improves.
    We are consulting on a resolution in the Human Rights 
Commission.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for extending for just a moment.
    I apologize. The Senate Armed Services Committee was also 
having a full open hearing at precisely the same time and the 
ranking member is traveling with your colleague, the Secretary 
of Defense, and asked me to substitute for him in that meeting. 
So I was not able to be here for your opening statement or the 
questions.
    I am told that Iraq has been explored quite thoroughly. I 
would just add a comment, not a question. A number of us on 
that committee were in Germany and Bosnia over the weekend at 
the Verkunde Conference; and I can assure you that, on a 
bipartisan basis, the members of the U.S. delegation made very 
clear some of the points that you have been making publicly and 
have been underscoring with the international community to the 
point that, toward the end of the conference, some of the 
defense ministers and other participants from international 
communities asked if we had coordinated our comments. We had 
not. But I thought you might be pleased to know that we were 
speaking with one voice on those matters in that particular 
conference.
    There are a couple of matters that I do not believe have 
been covered, and if they have, please tell me so that I will 
not ask you to repeat them.
    Kim Dae Jung is planning to visit Washington on March 9. 
The question is whether or not that will be a state or a 
working visit and whether or not you expect any different or 
more assertive relationship from Kim Dae Jung than you had from 
Kim Young Sam, at least in the latter stages of dealing with 
North Korea and specifically relating to the framework 
agreement and possible full participation which has now been in 
question in terms of South Korea's part. Also, what do you 
think Japan will do relative to the comments that have been 
given and the difficult economic or financial position that 
South Korea finds itself in today?
    Secretary Albright.  Let me answer on Korea and then I 
would like to go back to Iraq for a minute.
    First of all, we are looking at ways to try to have Kim Dae 
Jung's visit be of the greatest use and at the appropriate 
level, and I don't have an answer yet. We actually talked about 
this yesterday.
    I think all of us would like to see that visit be treated 
with the greatest level of respect and to be able to show our 
relationship with Korea in an appropriate way. But we will get 
back to you as soon as we know.
    I think Kim Dae Jung does seem to have a more aggressive 
view toward trying to do something in terms of North/South 
talks, and we will obviously be supportive of his approach. The 
four party talks are a vehicle that is going on and I am very 
glad that those are in train.
    As far as the reactor is concerned, the South Koreans are 
going to be able to fulfill their responsibilities, and the 
Japanese also. And we are talking to others to make sure that 
the KEDO process is able to continue. It is very important. 
Also, whenever I meet with the appropriate people, we ask to 
make sure that the funding on that continues.
    Senator Robb. Madam Secretary, I may be in error, but I 
thought I had read someplace where, in view of the crisis, with 
respect to the financial crisis that was being experienced in 
the South, there had been some reservations about the ability 
by the South to complete their obligations, the $4 billion or 
so, in terms of either timing or completion.
    Is that incorrect?
    Secretary Albright. Senator, yesterday I had the same 
question as I was going through my notes. I asked about this, 
and I was assured that it would be OK. But we can keep track of 
that.
    Senator Robb. Thank you.
    Secretary Albright.  If I may, on the Iraq thing, this is 
also something that came up earlier. You said that you were at 
this meeting. I think it is evident that there are quite a lot 
of people with us on Iraq, and I am not sure that people are 
aware at this moment what our support out there is.
    Obviously, the United Kingdom is with us shoulder to 
shoulder. But, as many of you may have heard this morning, the 
Canadians have stated they are with us. Australia has also 
expressed a willingness to participate in a military operation. 
And then there are different versions of how people support us.
    France has said that Saddam must comply and has emphasized 
the need for diplomacy while noting that it is unclear how it 
might succeed. And, while I was there, they said that all 
options were open.
    Germany has indicated that U.S. bases on its territory 
could be used to support military operations. Russia and China 
have rejected the use of force and have called for a diplomatic 
solution.
    I talked about the Arab countries. But I think here it is 
very important for us to understand that there is agreement on 
the following facts: that Saddam is responsible for this 
crisis; that he must fulfill his Security Council obligations; 
that a diplomatic route is preferable, but Saddam will be 
responsible for whatever grave consequences may come. And if we 
do have a military strike, it will be substantial; and we 
reserve the right for a follow-on strike if we find that they 
are reconstituting their weapons of mass destruction.
    Senator Robb. Thank you, Madam Secretary. I had a couple of 
other questions but, because of the time, I will defer. I will 
simply comment, if I may, that your characterization of those 
countries' positions was entirely consistent with their private 
conversations to us and in many instances were considerably 
stronger than what has been assumed to be the public response. 
I think that is encouraging.
    The Chairman. In that connection, Senator, I ask unanimous 
consent that all members of the committee have until the close 
of business Friday to submit additional questions in writing 
for the record for the Secretary. Without objection, it is so 
ordered.
    Senator Biden. Mr. Chairman, with your permission and the 
permission of the committee, I would just like to take 60 
seconds on the matter of Mexico City and how it is holding up 
very, very important business of the Nation.
    Madam Secretary, I know you know this, but I want the 
record to reflect that last year, the last calendar year, the 
chairman intervened personally and consistently, and sometimes 
in a very blunt fashion with his allies on this issue, on the 
substantive issue of Mexico City, to plead, cajole, and firmly 
state that he wanted the issues separated, that he thought they 
should be separable.
    I, quite frankly, at one point--because I did not think we 
could get it done--counseled him not to stick his neck out 
anymore. He was taking too much heat. It was one thing for him 
to do it if there were any chance of this succeeding. But he 
insisted that, as a matter of principle, this should be 
separated and this was important to do.
    So I just want the record to show that, although we 
disagree on IMF and we disagree on Mexico City, he was 
incredibly forceful, including picking up phones and calling 
people that would surprise the living devil out of everyone 
here if they knew what he did--and I am going to say this with 
your permission, Mr. Chairman--to the point of asking me to 
accompany him to the Majority Leader's office and engaging the 
Speaker of the House at the same time on this issue.
    Now I know you know that generally, but I am not sure you 
know specifically. So when the chairman says he would like to 
sit with the President and others to discuss a way out of this, 
he has, as the old expression goes, he has given at the office 
on this one. I am not sure how many liberals would go the other 
way on this to get this done if it were being held up for 
another reason, if you follow me.
    So I just want the record to show this. I think he is wrong 
on Mexico City. I disagree with him substantively. But on 
separating this out, I don't know what else we could have done 
the last time out. It was no skin off my back, because I was 
pushing for a position that I happened to have that is 
consistent both ways. In his case, it was putting the foreign 
policy of the Nation on a separate track. He tried to do it.
    I just want the public to know that.
    I hope I have not caused you trouble, Mr. Chairman, but 
that is a fact.
    Secretary Albright. I also know it as a fact, and I am very 
grateful to the chairman for this. He is a truly honorable 
gentleman on what he has been doing on this, and I am very 
grateful to him.
    The Chairman. Local papers, please copy.
    Thank you very much, both of you. I didn't know you were 
going to do that. Thank you.
    Senator Kerry, I think you have a private arrangement with 
the Secretary.
    Senator Kerry. I just wanted to ask something quickly.
    First of all, I wanted to thank you for the clarification 
that you gave, which I think is helpful. I just wanted to ask a 
couple of quick followups.
    One, have we arrived, in a sense, within the administration 
at a decision that this particular goal can, in fact, be 
accomplished, the goal that you set?
    Secretary Albright.  Yes.
    Senator Kerry. We have arrived at that?
    Secretary Albright.  Yes, we have. But we have not made the 
decision to do it.
    Senator Kerry. I understand that. I understand.
    Then quickly, on another subject, if I may, our staffs and 
many of us have been informed by counterparts in the Duma and 
by many of the staffs of people within the Duma that, in fact, 
President Yeltsin is really the key to the passage of START II; 
that, while the Foreign Minister and others are for it, it 
really is going to be dependent on his ability to make the 
phone calls he made on the Chemical Weapons Treaty to lobby 
personally. Most of them say that if he does that, this could 
happen within the next six months.
    I wonder if the administration might take note of that and, 
if there is any way that you felt extra leverage might be 
exerted to try to solicit from President Yeltsin that kind of 
effort because of the value, obviously, of achieving that.
    Secretary Albright.  I think in every meeting that I have 
been in between President Yeltsin and President Clinton, 
President Yeltsin has committed himself to the passage of it. 
So we just have to see. I think you are absolutely right.
    Senator Kerry. The final thing--and I thank the chair for 
his indulgence and I thank you, Madam Secretary--is this. We 
have become the world's largest arms dealer by far. We have 
gone from about 11.1 percent in 1989 to now 44 percent of all 
of the conventional weapons sales in the world belonging to us. 
That is a remarkable economic accomplishment. But at the same 
time there are many people who feel that some of the standards 
that were part of the traditional assumptions and expectations 
you mentioned earlier in your comments about the United States 
and its role in the world do not take into account the kinds of 
regimes with which we are dealing and trading and whether there 
is a full level of human rights.
    The House passed a code of conduct last year. I have 
introduced it here in the Senate. I wonder if the 
administration, if you, would be willing to agree to perhaps 
review these to see if we can't find some language that is 
multilaterally leverageable in the interests of the United 
States, language which does not result in a unilateral shoot-
yourself-in-the-foot action but which simultaneously seeks to 
reach a higher level of international dialog on the subject of 
these arms sales, and particularly offer more leadership 
ourselves with respect to it.
    Secretary Albright.  I would like to look at that Senator.
    Senator Kerry. Thank you very much.
    Secretary Albright.  Mr. Chairman, could I just say 
something before I depart, if that is what I am to do.
    The Chairman. All right. Somebody told me that with your 
customary graciousness you have agreed to have Senator Thomas 
ask you a question.
    Secretary Albright.  Yes, I would be happy for that. Yes.
    The Chairman. If you do that, I would appreciate it.
    Senator Thomas. Thank you. I will be very quick.
    What about KEDO? What kind of commitment do we have from 
South Korea that they are going to continue to finance their 
portion of what they promised to do there?
    Secretary Albright.  Senator, they have said that, despite 
their difficulties, they are going to continue. I checked on 
this yesterday; and we will continue to keep track of it, 
because I think that all of us believe that it is an essential 
part to controlling nuclear proliferation.
    Senator Thomas. And we are continuing to buy oil and send 
it there?
    Secretary Albright.  Yes.
    Senator Thomas. How much will we do this year? Will we have 
the same level or are there increases in your budget for that?
    Secretary Albright.  I have to get back to you on that.
    [The information referred to follows:]

    The South Korean government has reaffirmed, both privately 
and publicly, that it remains fully committed to KEDO and the 
LWR project. In his February 25, 1998, inauguration speech, 
South Korean President Kim Dae-jung stated that, despite the 
country's current economic difficulties, his administration 
would carry out the promises the ROK made in connection with 
the construction of the LWRs in North Korea. It is also 
important to note that full implementation of the LWR project 
will take many years. The current financial crisis in South 
Korea and the region is therefore not expected to have a 
significant bearing on this long-term effort.
    With regard to RFO deliveries, KEDO is committed to provide 
North Korea with 500,000 metric tons of heavy fuel oil (HFO) 
annually to offset lost power generation from the freeze on the 
DPRK's nuclear program. KEDO has fulfilled this commitment in 
each of the last two years, and has also recently initiated 
1998 HFO deliveries. To complete its delivery quota for the 
year, however, KEDO will require significantly increased 
funding from the international community, since its expected 
funding needs for 1998 significantly exceed pledged 
contributions. KEDO is currently carrying $47 million in debt 
for past HFO deliveries, which must be funded along with 1998 
HFO expenditures.
    While South Korea and Japan bear primary responsibility for 
funding the LWR project, the U.S. has taken the lead in 
arranging financing for KEDO's HFO program. Most of our annual 
contributions to KEDO in the past have been devoted to HFO, and 
we anticipate that this will be the case again in 1998. At the 
same time, we continue to urge other members of the 
international community to contribute funding for KEDO's HFO 
program to help ensure that the organization continues to meet 
this commitment.
    Our budget proposal for FY 1999 included a request for $35 
million for KEDO. For FY 1998, Congress appropriated $30 
million for KEDO, and also made available an additional $10 
million to assist with KEDO debt relief, contingent upon a 
certification by the Secretary of State that funds sufficient 
to repay the remainder of KEDO's debt have been provided by 
countries other than the United States. We believe our FY 1999 
budget request for $35 million for KEDO is both necessary and 
justified to maintain U.S. leadership within KEDO, ensure that 
KEDO continues to fulfill its important mission, and secure 
continued DPRK compliance with its nonproliferation obligations 
under the U.S.-DPRK Agreed Framework.

    Senator Thomas. You mentioned the International Monetary 
Fund being kind of a credit union. Are you satisfied with the 
reforms, for instance in Indonesia? You say there is going to 
be an election. Well, there is not much doubt what the election 
is going to be. Is Suharto going to make the changes that are 
necessary?
    Secretary Albright.  Well, I think, first of all, he and 
his government have committed himself to the IMF program and 
they are pursuing that. I think that he clearly will be 
elected. But I think the issue is that we need to talk and deal 
with him on the long run here, that he has a legacy of economic 
development for that country and that it is important that 
Indonesia be able to prosper as a democracy and that we need to 
be talking with him about how to make it more pluralistic.
    Senator Thomas. But talking with him, I mean, that is what 
we always say, that we are going to talk and so on. We are 
talking about authorizing more money for this program and we 
need to be sort of result oriented.
    Are you confident that there are going to be changes in 
Indonesia?
    Secretary Albright.  We are working to that end, sir.
    Senator Thomas. You are not confident?
    How do you expect, for instance, when people say gee, are 
you making any changes--people in Wyoming say why should we put 
more money there unless there is real, significant evidence 
that there will be changes.
    Secretary Albright. I believe that there will be. I think 
that we have a stake in having Indonesia function properly and 
having the economy work there well. Frankly, in all the 
problems of the Asian financial crisis, these people are our 
customers. They buy our goods. They are competitors. If they 
are not doing well, they will cut the prices; and we have a 
security interest throughout Asia.
    So we believe that it is very important for us to resolve 
this crisis. The best method is through the IMF process and 
then to get them to pursue democracy. We believe, as I said to 
the chairman on my first answer to his question, that 
ultimately democratic governments with market systems are the 
best way to achieve the kind of stability that is good for all 
of us.
    Senator Thomas. And no one would disagree with what you 
said, that we need, sometimes, if we are going to commit 
ourselves, some sort of assurance.
    Someone asked me the other day about this. We have the 
Middle East, which is unsettled. We have Asian economic 
problems. Bosnia is uncertain as to when we are going to be out 
of there. Iraq is obviously a problem. Russia is something of a 
problem with trade and so on.
    Senator Lugar listed a number of things. Do you think the 
administration is giving enough emphasis to foreign affairs?
    Secretary Albright.  Well, I think I earn my pay.
    Senator Thomas.  I'm talking about results. Let's talk 
about results.
    Secretary Albright.  I think that the administration is. 
Yes, I do think so. I think that we need some more resources 
for it. We need to be able to work through some of our serious 
problems, the kind that we were talking about. Some of the 
legislation being held up has to do with issues, the ones that 
you are talking about.
    I think we need to develop an even better partnership in 
how we do foreign policy together.
    There is no question as we move into the 21st century that 
this is a job that needs to be done by all of us together, and 
I seek your suport on it.
    Senator Thomas. Thank you.
    The Chairman. Madam Secretary, you certainly earned your 
pay this morning. I am sorry about the votes and all the rest 
of the delays, but you have been a real trooper.
    I believe you had something you wanted to say.
    Secretary Albright.  I just wanted to say that we have 
spent a lot of time on Iraq; and there is no doubt that we 
started that way, because there are many questions; and it is 
on everybody's mind. I think we have to keep in mind the 
options that we have, how we best achieve what is good for 
American national interests, what we can do, what we must do, 
and to set out goals clearly, which I believe we have done, and 
to follow through.
    I think we need to spend a lot of time talking with each 
other about it. But I also think that we need to show unity 
because Saddam Hussein is watching us.
    Thank you.
    The Chairman. Well said.
    There being no further business to come for the committee, 
we stand in recess.
    Thank you, ma'am.
    Senator Biden. Thank you.
    [Whereupon, at 12:25 p.m., the committee recessed.]


                            A P P E N D I X

                              ----------                              



     Prepared Statement of Secretary of State Madeleine K. Albright

    Mr. Chairman and Members of the Committee, a year ago, I came here 
to ask your help in creating a new foreign policy framework--adapted to 
the demands of a new century--to protect our citizens and friends; 
reinforce our values; and secure our future.
    In the months since, we have worked together successfully as 
partners, not partisans, to advance American interests and sustain 
American leadership.
    During that time, we have helped achieve progress towards a Europe 
whole and free, a Bosnia where peace is beginning to take hold, an Asia 
where security cooperation is on the rise, an Africa being transformed 
by new leaders and fresh thinking, and a Western Hemisphere blessed by 
an ever-deepening partnership of democracies.
    We have also joined the Chemical Weapons Convention, intensified 
the war against international crime, taken an essential first step 
towards a global agreement to combat climate change and done much to 
re-establish a bipartisan consensus for U.S. leadership in world 
affairs.
    These efforts are paying dividends both here at home and overseas. 
And this Committee has been a major contributor, forging a strong 
record on legislation, treaties, oversight and moving promptly and 
fairly on nominations.
    Of course, important accomplishments lead to great expectations. 
And so, this morning, I am here again to ask for your help.
    As we meet, America is prosperous and at peace in a world more 
democratic than ever before. But we cannot afford to rest. For 
experience warns us that the course of history is neither predictable 
nor smooth. And we know that, in our era, new perils may arise with 
21st century speed.
    Today, our citizens travel the world and we have major interests on 
every continent. We work in a global marketplace in which economies 
rise and recede together. We face dangers no nation can defeat alone--
dangers as mobile as a renegade virus, as deadly as a terrorist's bomb, 
as widespread as international crime and as pernicious as violence 
spawned by ethnic hate.
    As always, the obligation we have is to our citizens, but that 
obligation comes now with the knowledge that, increasingly, what 
happens anywhere will matter everywhere.
    If Americans are to be secure in such a world, we must seize the 
opportunity that history has presented to bring nations closer together 
around basic principles of democracy, free markets, respect for the law 
and a commitment to peace.
    This is not an effort we undertake with a scorecard in hand. But 
every time a conflict is settled or a nuclear weapon dismantled; every 
time a country starts to observe global rules of trade; every time a 
drug kingpin is arrested or a war criminal prosecuted; the process of 
constructive integration moves forward and the ties that bind the 
international system are strengthened.
    America's place is at the center of this system. And our challenge 
is to see that the connections around the center--between regions and 
among the most prominent nations--are strong and dynamic, resilient and 
sure.
    We must also help other nations find their way into the system as 
partners--by lending a hand to those struggling to build democracy, 
emerge from poverty or recover from conflict.
    We must build new institutions and adapt old ones to master the 
demands of the world not as it has been, but as it is and will be.
    We must summon the will to deter, the support to isolate, and the 
strength to defeat those who run roughshod over the rights of others.
    And we must aspire not simply to maintain the status quo. Abroad, 
as here, we must strive for higher standards in the marketplace and 
workplace, the classroom and courtroom, so that the benefits of growth 
and the protections of law are shared not only by the lucky few, but by 
the hardworking many.
    All this requires a lot of heavy lifting. We must--and we will--
insist that others do their fair share. But do not doubt, if we want to 
protect our people, expand our economy, improve our lives and safeguard 
the freedoms we cherish, we must stamp this heretofore unnamed era with 
a clear identity--grounded in democracy, dedicated to justice and 
committed to peace.

                         I. Unfinished Business

    Mr. Chairman, the best way to begin this year's work is to finish 
last year's. And last year, at your initiative, we developed creative 
plans to restructure our foreign policy institutions and to encourage 
United Nations reform while paying our long overdue UN bills.
    Unfortunately, a small group of House Members blocked final passage 
of those measures, along with needed financing for the International 
Monetary Fund (IMF). Those Members did not oppose our ideas, nor make 
credible arguments against them. They simply wanted to take valuable 
legislation hostage. And as the price for releasing the hostages, they 
insisted that the Administration agree to their unrelated position on 
international population programs.
    The victims of this act of legislative blackmail are your 
constituents--the American people. For without reorganization, our 
effort to improve foreign policy effectiveness is slowed. And the 
failure to pay our UN bills has already cost us. Last December, the 
General Assembly voted on a plan that could have cut our share of UN 
assessments by roughly $100 million every year. But because of that 
small group of Congressmen, we lost that opportunity--and our taxpayers 
lost those savings--and will continue to do so every year we fail to 
address this obligation.
    But paying our UN bills is about more than money. It is also about 
principle--and honor--and our vital interests.
    The United Nations is not--as some have seemed to suggest--an alien 
presence on U.S. soil. It was Made in America. Our predecessors brought 
the UN together, led the drafting of the UN Charter and helped write 
the UN's rules. And we have used the UN to tell America's side of the 
story during international showdowns from the Korean War, to the Cuban 
Missile Crisis, to the destruction of flight KAL-007, to Operation 
Desert Storm, to Castro's shootdown of the Brothers to the Rescue two 
years ago this month.
    Today, we still have important business to conduct at the UN, such 
as dealing with Saddam Hussein, punishing genocide, ensuring the safety 
of Americans traveling abroad and helping poor and hungry children to 
survive.
    Mr. Chairman, this issue is not complicated; it is simple. The best 
America is a leader, not a debtor.
    Let us act quickly to put our UN arrears behind us; restore 
America's full influence within the UN system; move ahead with UN 
reform; and use the UN, as its founders intended, as an important tool 
to make the world safer, more prosperous and humane.

         II. American Leadership and Interests Around the World

A. The Crossroads
    As we move to deal with old business, we must also think anew. 
Normally, when I review U.S. policies around the world, I begin with 
Europe and Asia. This morning, I want to break with tradition and begin 
with the crossroads linking those continents--the vast territory that 
stretches from the Suez and Bosporus in the west to the Caucasus and 
Caspian in the north to the Bay of Bengal in the southeast.
    I do so because--as much as any region--the choices made here 
during the remaining months of this century will determine the shape of 
the next.
    They will decide, for example: whether weapons of mass destruction 
cease to imperil the Gulf and South Asia; whether the oil and gas 
fields of the Caucasus and Central Asia become reliable sources of 
energy; whether the opium harvests of death in Burma and Afghanistan 
are shut down; whether the New Independent States become strong and 
successful democracies; whether Israel can find peace with security and 
Arabs prosperity through regional trade and integration; whether 
terrorists are denied the support they need to perpetrate their crimes; 
and whether the great religions of the world can work together to 
foster tolerance and understanding.
    As Secretary of State, developing an integrated approach to this 
part of the world is a major challenge, not least because it includes 
countries covered by every regional bureau in the Department except 
Africa and Latin America. But despite the region's diversity, we are 
able to approach it with a set of common principles.
    First, we believe that the nations in and outside the region must 
work together to avoid a modern version of the so-called ``Great 
Game,'' in which past struggles for resources and power led to war, 
repression and misery. Here, as elsewhere, each nation's sovereignty 
must be respected; and the goal of each should be stability and 
prosperity that is widely shared.
    Second, cooperation must extend to security. Nations must have the 
wisdom and the will to oppose the agents of terrorism, proliferation 
and crime.
    Third, neighbors must live as neighbors. From the Middle East to 
Central and South Asia, long festering disputes remain unsettled. Those 
within the region must seek to protect vital interests, while settling 
differences fairly and peaceably. Those outside the region must refrain 
from exploiting divisions and support efforts to settle conflicts.
    Fourth, the international community must nurture inter-ethnic 
tolerance and respect for human rights, including women's rights. This 
responsibility is shared by all, for no culture or religion has a 
monopoly on virtue--nor is any fully free from extremist violence.
    U.S. policy is to promote and practice these principles; to 
persuade all those with a stake in the region to rise above the zero-
sum thinking of the past; and to embrace the reality that cooperation 
by all will yield for all a future of greater prosperity, dignity and 
peace.
    That is certainly our message in the Middle East, where we continue 
to seek progress towards a just, lasting and comprehensive settlement, 
based on UN Security Council Resolutions 242 and 338, including the 
principle of land for peace.
    The President sent me to the region to follow up on the ideas he 
presented to Chairman Arafat and Prime Minister Netanyahu. He presented 
our ideas as a way to break the stalemate, recognizing that the 
parties, given the level of their distrust, might respond to us even if 
they remain reluctant to respond to each other.
    Frankly, the issue now is whether the leaders are prepared to make 
the kind of decisions that will make it possible to put the process 
back on track. Indeed, we have to ask: are they prepared to promote 
their common interests as partners? Or are they determined to compete 
and return to an era of zero sum relations?
    The stakes are high. That's why we have been involved in such an 
intense effort to protect the process from collapsing. U.S. credibility 
in the region and the interests of our Arab and Israeli friends depend 
upon it.
    America's interest in a stable and prosperous Middle East also 
depends on whether the nations there work together to reform their 
economies, attract investment and create opportunities for their 
people. Hopelessness is a great enemy of the region, for those with 
faith in the future are far more likely to build peace than those 
immobilized by despair.
    Accordingly, I hope we will have the Committee's support for our 
proposals to contribute to a Middle East and North Africa Development 
Bank, provide desperately-needed assistance to the Palestinian people 
and to development in Jordan, where King Hussein has been a consistent 
and courageous supporter of peace.
    Mr. Chairman, if we are to have an international system based on 
law, we must have the spine to enforce the law. And that is where our 
policy towards Iraq begins. Saddam Hussein is an aggressor who has used 
weapons of mass destruction before and--if allowed--would surely use or 
threaten to use them again.
    At the end of the Gulf War, the UN Security Council established a 
system to ensure that Saddam would not have this opportunity. Iraq was 
required to declare its weapons of mass destruction and delivery 
systems, destroy them and never build them again. The UN Special 
Commission, or UNSCOM, was to verify the declarations and the 
destruction, inspect to be sure of the truth and monitor to prevent the 
rebuilding of weapons.
    But from the outset, Iraq did all it could to evade UNSCOM's 
requirements. Iraqi officials lied, concealed information and harassed 
and bullied inspectors. UNSCOM nevertheless accomplished a great deal, 
destroying more weapons of mass destruction than were demolished in the 
entire Gulf War.
    Then, in 1995, Saddam Hussein's brother-in-law defected and 
provided new and chilling information especially about Iraq's 
biological weapons program. This set in motion a high stakes game of 
poker between UNSCOM and Iraq.
    As UNSCOM has learned more about Iraqi methods, it has become more 
creative in its inspection strategy--and increasingly threatening to 
Saddam. As UNSCOM has moved closer to discovering information that Iraq 
wants desperately to hide, Baghdad has grown more belligerent, 
repeatedly blocking inspection teams, challenging UNSCOM's authority, 
and refusing access to dozens of suspect sites. Iraq now says it will 
eject UNSCOM altogether if UN sanctions are not soon lifted.
    Clearly, if UNSCOM is to uncover the full truth about Iraq's 
weapons of mass destruction programs, it must have unrestricted access 
to locations, people and documents that may be related to those 
programs. But as UNSCOM's Chairman Richard Butler attests, Iraq is 
making it impossible for the Commission to do its job. We, in the 
international community, are left with a choice between allowing Saddam 
Hussein to dictate the terms of UN inspections--essentially folding our 
hand--or calling Saddam's bluff.
    In recent months, we have worked hard to find a diplomatic 
solution. The UN Security Council has insisted repeatedly and 
unanimously that Iraq cooperate fully with UNSCOM. Meanwhile, the UN 
inspectors have been kicked out, then allowed back in, then prevented 
from doing their work, then threatened again with expulsion. Saddam 
Hussein's dream is the world's nightmare--to gain the lifting of UN 
sanctions, without losing his capacity to build and use weapons of mass 
destruction. In pursuing this fantasy, Saddam has thwarted efforts to 
resolve the crisis diplomatically and made the use of military force 
more likely.
    As President Clinton has made clear, the United States will not 
allow Iraq to get away with flagrantly violating its obligations. And I 
have been heartened, both during my travels and in other 
communications, by the support our position has received.
    In virtually every part of the world, there is a determination that 
Iraq comply with the UN Security Council resolutions, and that it 
provide unfettered access to UN weapons inspectors. There is agreement 
that responsibility for the current impasse and its potential 
consequences rests with Iraq alone. And there is an understanding that, 
unless Iraq's policies change, we will have no choice but to take 
strong measures--not pinpricks, but substantial strikes--that reduce 
Saddam's capacity to re-constitute his weapons of mass destruction and 
diminish his ability to threaten Iraq's neighbors and the world. Let no 
one miscalculate: we have the authority to do this, the responsibility 
to do this, the means and the will.
    Before leaving this subject, I want briefly to dispose of Saddam's 
argument that the UN and the United States are to blame for the 
suffering of the Iraqi people. The truth is that Saddam doesn't care a 
fig about the Iraqi people, whom he has terrorized, tortured and 
brutalized for years.
    I am told by Arab leaders I trust that there is great concern in 
the Arab world about the plight of Iraqi civilians. I am convinced that 
is true for this concern is fully shared by the United States and the 
American people. Saddam knows this, which is why he so bravely sends 
women and children to guard his palaces in time of crisis.
    The United States has strongly supported efforts through the UN to 
see that foods and medicines are made available to the Iraqi people. UN 
Secretary General Kofi Annan has proposed to expand these efforts, and 
we are looking hard at how best to do that. Meanwhile, the blame for 
Iraqi suffering does not rest with the international community; it 
rests with Saddam Hussein.
    Mr. Chairman, America is never stronger than when it is together. I 
have been deeply impressed and encouraged by the strong bipartisan 
backing we have received on this issue. We will look to Congress for 
continued support and counsel in the days ahead.
    Across the border from Iraq in Iran, there are signs that popular 
support is building for a more open approach to the world. We welcome 
that. An Iran that accepts and adheres to global norms on terrorism, 
proliferation and human rights could contribute much to regional 
stability. Iran's President Khatami called recently for a dialogue 
between our two peoples. There is merit in this, for we have much to 
learn from each other. But the issues that divide us are not those of 
respect between our two peoples, but matters of policy that must 
ultimately be addressed directly through government to government 
talks.
    Further north, in the Caucasus, we are working hard with our Minsk 
process co-chairs to settle the dispute between Armenia and Azerbaijan 
over Nagorno-Karabakh. Although the cease-fire continues, progress 
towards a definitive solution has stalled. We have substantial 
interests here, but our leverage would increase if Congress lifted 
legal restrictions on nonmilitary assistance to Azerbaijan, while 
maintaining support for aid to Armenia--where we will be encouraging 
free and fair Presidential elections this spring.
    Finally, President Clinton plans to visit South Asia later this 
year to explore possibilities for closer economic ties, press concerns 
about proliferation, and seek better mutual cooperation across the 
board. With India, we have begun a strategic dialogue between the 
world's oldest democracy and the world's largest. And with Pakistan, we 
are developing a broader partnership with our long time friend. These 
nations, and Bangladesh and Sri Lanka, with their large, diverse 
populations, are laboratories of democracy. We are committed to working 
with them in appropriate ways to strengthen institutions, facilitate 
growth, protect human rights and enhance the rule of law.

B. Europe
    Mr. Chairman, the strategies we are developing in places such as 
the Gulf, the Caucasus and Central Asia illustrate the breadth of 
change that has transformed the political map. They show, as well, that 
the regional categories into which we once divided the world no longer 
suffice.
    But however old or new the challenges we face, there is still one 
relationship that more than any other will determine whether we meet 
them successfully, and that is our relationship with Europe.
    This is not because we and our European friends always see eye to 
eye. We do not. The transatlantic partnership remains our strategic 
base--the drivewheel of progress on every world-scale issue when we 
agree, the brake when we do not.
    Today, we have two strategic goals in Europe. The first is to work 
with our European Union partners to continue carrying out our New 
Transatlantic Agenda, and with all our friends on the continent to meet 
global challenges.
    This means supporting peace initiatives from the Middle East to 
Central Africa. It means recognizing that halting the spread of weapons 
of mass destruction is a shared responsibility that cannot be balanced 
against competing political or commercial concerns. It means joining 
forces to fight international criminals and protect the global 
environment. And it means joint efforts to build a more open world 
economy with reduced barriers to cross-Atlantic investment and trade.
    A second goal is to build a Europe that is itself for the first 
time whole, free, prosperous and at peace.
    To this end, two years ago, the United States led the effort to 
stop the war in Bosnia. We knew that it did not serve our interests to 
see aggression undeterred and genocide unpunished in the heart of 
Europe, or NATO divided on how to respond. Now, we must finish what we 
started and maintain our support for implementing the Dayton Accords.
    Shortly before Christmas, I went to Bosnia with the President, 
Senator Dole, and members of Congress to visit our troops and talk 
frankly with local leaders. We found a nation that remains deeply 
divided, but where multi-ethnic institutions are once again beginning 
to function. Economic growth is accelerating. Indicted war criminals 
are surrendering or being arrested. Refugees are slowly beginning to 
return. And a new Bosnian Serb government is acting on its pledge to 
implement Dayton.
    More slowly than we foresaw, but as surely as we hoped, the 
infrastructure of Bosnian peace is taking shape and the psychology of 
reconciliation is taking hold. Day by day, town by town, the evidence 
is growing that, if we persevere, peace will be sustained.
    But if we were to leave now, as some urge, the confidence we are 
building would erode, the democratic institutions would be embattled, 
and the purveyors of hate would be emboldened. The result could well be 
a return to genocide and war.
    That would surrender the progress we and our partners have helped 
Bosnians achieve, and devalue the sacrifices our armed forces, 
diplomats and private citizens have made. It would abandon Bosnia's 
democrats, who put their faith in the United States. It would hurt 
American leadership within NATO, which is vital to our national 
security. And it would undermine NATO itself, by raising doubts, even 
as we propose to enlarge it, about the willingness of the alliance to 
tackle hard problems.
    Quitting is not the American way. In Bosnia, the mission should 
determine the timetable, not the other way around. And as the President 
made clear in December, ``that mission must be achievable and tied to 
concrete benchmarks, not a deadline.''
    So Mr. Chairman, Members of the Committee, I ask your support. Let 
us continue to play an appropriate role in Bosnia as long as our help 
is needed, our allies and friends do their share, and the Bosnian 
people are striving to help themselves. That is the right thing to do. 
And it is the smart thing, for it is the only way to ensure that when 
our troops do leave Bosnia, they leave for good.
    The effort to recover from war in Bosnia reminds us how important 
it is to prevent war. And how much we owe to those who designed and 
built NATO, which has been for a half century the world's most powerful 
defender of freedom and deterrent to aggression.
    Mr. Chairman, in two weeks, I am scheduled to be here with you 
again, together with Secretary Cohen and General Shelton, to seek the 
Committee's support for making America among the first to ratify the 
admission of Poland, Hungary and the Czech Republic to our alliance. I 
hope you will agree when the time comes for a vote--and I hope it will 
come early--that by welcoming these three nations, and holding the door 
open to others, we will make America safer, NATO stronger, and Europe 
more stable and united.
    Building peace in Bosnia and beginning the enlargement of NATO are 
two key elements in our effort to build a peaceful, free and undivided 
Europe. But there are many others.
    Last month, President Clinton joined the leaders of Estonia, Latvia 
and Lithuania in signing the U.S.-Baltic Charter, to show our support 
for the freedom and security of these nations and for their efforts to 
join western institutions. We are pursuing our Northeast Europe 
Initiative to encourage integration among nations of the Nordic and 
Baltic region, and to strengthen their ties with us, the EU and their 
neighbors.
    We strongly support the expansion of the EU into central and 
eastern Europe, and Turkey's desire to be part of that process.
    We are putting in place a new Southeast Europe strategy to help 
integrate countries in that region into western institutions.
    We are leading the transformation of the OSCE into an organization 
that produces not just reports, but results.
    President Clinton and I are backing efforts to achieve lasting 
reconciliation in Northern Ireland.
    We are working hard to ease tensions in the Aegean and have put 
unprecedented effort into trying to achieve a Cyprus settlement.
    We have cemented our strategic partnership with Ukraine, knowing 
that an independent, democratic, prosperous and stable Ukraine is a key 
to building a secure and undivided Europe. In 1998, we will continue to 
support Ukraine's economic and political reforms, deepen our 
cooperation under the NATO-Ukraine Charter and insist on its adherence 
to nonproliferation norms.
    We are also striving to build a relationship with Russia--and 
between Russia and NATO--that is steady and consistent--encouraging 
Russia toward greater openness at home and constructive behavior 
abroad. In coming weeks, we will be working with Russia to keep its 
economic reforms on track, urge START II ratification by the Duma, and 
take needed steps to prevent proliferation.

C. Asia
    The United States is a Pacific nation, just as we are an Atlantic 
and a Caribbean nation. We have allies and friends in every part of the 
continent. We are major buyers and sellers in Asia-Pacific markets. We 
are backers of Asian democracy which--as the recent election in the 
Republic of Korea indicates--is alive and well. And we have a vital 
stake in the security of Asia, where we have fought three wars during 
the past six decades.
    Since becoming Secretary of State, I have traveled to East Asia 
three times and to the APEC Ministerial and Summit in Vancouver. This 
reflects the priority we have placed on improving ties throughout the 
region.
    Our overarching objective is to continue building a new and 
inclusive Pacific community based on stability, shared interests and 
the rule of law.
    To this end, we have fortified our core alliances, crafted new 
defense guidelines with Japan, maintained our forward deployment of 
troops, embarked on Four Party talks to create a basis for lasting 
peace on the Korean Peninsula, and continued to implement, with our 
partners, the Agreed Framework which is dismantling North Korea's 
dangerous nuclear program.
    In addition, we are working with ASEAN and other regional leaders 
to encourage a return to representative government in Cambodia, and a 
meaningful dialogue in Burma between the authorities there and the 
democratic opposition, led by Aung San Suu Kyi.
    We have also intensified our dialogue with China, achieving 
progress on economic and security matters, while maintaining our 
principles on respect for Tibetan heritage and human rights. Let me 
stress here, Mr. Chairman, that engagement is not the same as 
endorsement. We continue to have sharp differences with China--but we 
also believe that the best way to narrow those differences is to 
encourage China to become a fully responsible participant in the 
international system.
    Steps in the right direction include China's commitment to strictly 
control nuclear exports, assurances on nuclear cooperation with Iran, 
security cooperation on the Korean peninsula, signing the CTBT, 
continued economic liberalization, the release of Wei Jingsheng and the 
invitation to the UN High Commissioner for Human Rights to visit.
    But most urgently, Mr. Chairman, we have been working with the IMF 
and the world community to respond to the financial crisis in East 
Asia.
    Many of your constituents may have asked why the United States 
should help Asian governments and businesses recover from their 
mistakes. It is a good question to which the facts provide a persuasive 
answer.
    The crisis resulted from bad economic habits in the countries 
involved and on the part of those who did business with them. Rapid 
growth bred excess short-term borrowing, which was used to finance 
imprudent investments, which led to unsustainable levels of debt, which 
local authorities were slow to recognize and confront. Last summer, 
markets began responding to these weaknesses and a crisis of confidence 
grew.
    Our approach is clear. To recover, a nation must reform its 
economy. And if it is willing seriously to do so, it will be in our 
interest to help.
    The governments of Thailand, Indonesia and Korea have developed 
programs with the IMF that address the economic problems they face. 
These arrangements require market-opening measures, the restructuring 
of financial sectors, greater investment transparency and other 
reforms.
    We are working with these governments, and with others such as 
Japan, Singapore and China, to prevent the crisis from spreading.
    And we will be asking Congress to approve our 15% share of the 
additional IMF resources that are required.
    We have adopted this approach for several reasons.
    East Asia includes some of the best customers for U.S. products and 
services; more than one-third of our exports go there. Thousands of 
good jobs in Atlanta and St. Paul, Wilmington and Raleigh depend on 
economic vigor in places such as Bangkok and Seoul.
    Second, the reforms the IMF is supporting are designed in part to 
promote better governance, by encouraging more openness and 
transparency in decisionmaking. This offers the greatest hope of 
progress towards more democratic and accountable political systems 
which should lead, in turn, to sounder and wiser economic management.
    Third, East Asia includes some of our closest allies and friends. 
South Korea faces a large, hostile and well-armed military force across 
the DMZ. Democratic Thailand has taken courageous steps to put its 
fiscal house in order. Indonesia is the world's fourth most populous 
country and one of its most diverse; its stability, and the efforts of 
its people to build a more open society, are central to the region's 
future.
    Finally, since the IMF functions as a sort of intergovernmental 
credit union, these so-called bailouts won't cost our taxpayers a 
nickel--just as the President's bold plan to rescue the Mexican economy 
three years ago proved cost-free.
    Still, there are some who say we should disavow the IMF, abandon 
our friends and stand aside, letting the chips--or dominoes--fall where 
they may.
    It is possible that, if we were to take this course, the economies 
of East Asia might miraculously right themselves and we would not 
experience a sharp drop in exports or see our own markets even more 
inundated with cut-rate foreign goods.
    It is possible that we would not see instability and civil violence 
create new security threats in this region where 100,000 American 
troops are deployed.
    It is possible that the effects of a financial freefall in East 
Asia would not spread around the world, and that our decision to walk 
away would not be misunderstood, and a wave of anti-American sentiment 
not be unleashed, and potential progress towards the higher labor and 
environmental standards we advocate not be washed away.
    All this is possible, but I would not want to bet American security 
or prosperity on that proposition. Nor would I want to risk the jobs of 
your constituents. For it would be a very, very bad bet.
    The truth is that, even with full backing for the IMF, and diligent 
reforms in East Asia, the risks are substantial. Recovery will take 
time. And further tremors are possible.
    The best way to minimize the depth and duration of the crisis is to 
back the reforms now being implemented and do all we can to keep the 
virus from spreading.
    But we must also take strong steps to prevent this kind of crisis 
from recurring.
    To this end, we are continuing efforts to improve the international 
financial community's ability to anticipate and respond to problems. 
Reforms achieved since the G-7 Halifax Summit in 1995, such as the 
IMF's Emergency Funding Mechanism, have helped us respond to the Asian 
crisis. In all of the Asian programs, we have pressed hard to increase 
transparency, and have succeeded in getting the specifics of the IMF 
programs published. More needs to be done. At the President's 
initiative, Secretary Rubin will convene a meeting later this spring 
with finance ministers and central bank governors from around the world 
to build a consensus on ways to strengthen the global financial system. 
They will focus on four objectives: improving transparency and 
disclosure; strengthening the role of the international financial 
institutions; improving regulation of financial institutions; and 
developing the role of the private sector in bearing an appropriate 
share of the burden in time of crisis.

D. The Americas
    Mr. Chairman, closer to home, we meet today at a time of heightened 
emphasis in our policy towards the Americas. In recent months, 
President Clinton has visited Canada and Mexico, with whom we enjoy 
relationships of extraordinary warmth despite occasional disagreements. 
He also traveled to Central and South America and the Caribbean. In 
April, he will go to Chile for the second hemispheric Summit.
    This attention is warranted not only by proximity of geography, but 
by proximity of values. For today, with one lonely exception, every 
government in the hemisphere is freely-elected. Every major economy has 
liberalized its system for investment and trade. With war in Guatemala 
ended, Central America is without conflict for the first time in 
decades. And, as recent progress toward settling the Ecuador-Peru 
border dispute reflects, nations are determined to live in security and 
peace from pole to pole.
    Despite this, the region still faces serious challenges. Growing 
populations make it harder to translate macroeconomic growth into 
higher standards of living. For many, the dividends of economic reform 
are not yet visible, while the costs of the accompanying austerity 
measures are. The building of democracy remains in all countries a work 
in progress, with stronger, more independent legal systems an urgent 
need in most.
    In Haiti, the challenge of creating a democratic culture and market 
economy--where neither has ever existed--is especially daunting. For 
the past nine months, Haiti has been mired in what is both a political 
standoff and a separation of powers dispute. Other young democracies 
have taken years and endured much violence to sort out such issues. 
Haitians are trying to resolve their differences through dialogue and 
debate, not guns. But it will take time to find the way forward.
    Meanwhile, the pace of restructuring an economy still badly damaged 
by decades of dictatorial rule has lagged. For millions of impoverished 
Haitians, democracy has not yet delivered on the hope of prosperity.
    We cannot turn our backs at this critical stage. To do so would 
risk Haiti's mirroring its past: an undemocratic Haiti that serves as a 
safe haven for criminals and drug traffickers and from which thousands 
of would-be migrants are driven to seek refuge on our shores. Our 
economic and food aid to Haiti is directed at basic human needs and at 
laying the foundation for sustained economic growth. I ask your support 
for continuing and increasing this assistance to strengthen civil 
society and help expand microenterprise, health, education and family 
planning efforts. It will also be used to assist secondary cities to 
attract private investment and create jobs.
    In Cuba, Christmas had special meaning this year because of the 
Pope's visit. But we will not rest until another day--Election Day--has 
meaning there, as well. The people of Cuba deserve the same right as 
their counterparts from Argentina to Alaska to select their own leaders 
and shape their own lives. The Cuban regime was right to allow the 
Pope's visit. It should act now in the spirit of free expression that 
His Holiness espoused. Meanwhile, the United States will continue 
working with friends in Europe and throughout the hemisphere to 
heighten the pressure--which is building--for democratic change.
    This spring, the hemisphere's democratic leaders will gather in 
Santiago for the second Summit of the Americas. Their purpose will be 
to set an agenda to take us into the 21st century, an agenda that will 
include education, trade, economic integration, fighting poverty, 
strengthening the rule of law, judicial reform, the environment and 
human rights.
    The United States is looking forward to participating in the 
summit, and to achieving an outcome notable not only for its goals, but 
also for concrete plans to achieve them.

E. Africa
    In the past, U.S. relations with Africa have been distorted by the 
prisms of east-west and north-south divisions. We have a rare chance 
now to establish more mature relationships, characterized by 
cooperation and dedicated to solving problems.
    During my recent visit, I was impressed by how rapidly Africa is 
departing from the shopworn stereotypes, even as it continues to 
grapple with chronic problems of poverty and strife. Today, many old 
conflicts are being settled. Countries are modernizing. Centralized 
economies are giving way to open markets. And civil society is 
beginning to blossom.
    As a result, the opportunity is there to help integrate Africa into 
the world economy; build democracy; and gain valuable allies in the 
fight against terror, narcotics trafficking and other global threats.
    As we prepare for the President's upcoming visit, we want to 
express our support for countries such as South Africa, Botswana and 
Benin where the commitment to democracy is strongest, while paying 
heed, as well, to the trouble spots that remain.
    In the strategic, strife-torn Great Lakes region, for example, 
countries face long odds. Rwanda is still recovering from genocide; 
Burundi remains without a stable political order; and the vast, 
resource-rich Democratic Republic of Congo must rebuild and democratize 
after decades of misrule.
    I urge the Committee's support for the President's initiative to 
promote justice and development in the Great Lakes, so that we may help 
the people there to prevent further outbreaks of violence and to plant 
the seeds of democratic progress and social renewal. I urge your 
support for our request for funds for education, debt relief and 
development. And I hope Congress will act quickly to approve the 
proposed Africa Growth and Opportunity Act. This is a Capitol Hill 
initiative, supported by the Administration, designed to frame a new 
American approach to the new Africa.
    We believe that the African countries that most deserve our help 
are those that are doing the most to help themselves. And that the most 
useful help we can provide is the kind that will enable economies to 
stand on their own feet--through open markets, greater investment, 
increased trade and the development among their peoples of 21st century 
skills.

                 III. Global Opportunities and Threats

    Mr. Chairman, to protect the security and prosperity of our 
citizens, we are engaged in every region on every continent. Many of 
our initiatives and concerns are directed, as I have discussed, at 
particular countries or parts of the world. Others are more 
encompassing and can best be considered in global terms.

A. Reducing the Threat Posed by Deadly Arms
    For example, it is a core purpose of American foreign policy to 
halt the spread and possible use of weapons of mass destruction, which 
remain--years after the Cold War's end--the most serious threat to the 
security of our people.
    The new world map has created for our diplomats a twin imperative: 
achieving further progress in our difficult nuclear build-down with 
Russia; and maintaining a global full-court press to keep biological, 
chemical and nuclear weapons, and the missiles that deliver them, from 
falling into the wrong hands.
    These demands require a wide of range of approaches old and new, 
from traditional negotiations, to international law-enforcement and 
counter-terrorism efforts, to cooperative threat reduction programs, 
such as those pioneered by the Nunn-Lugar legislation.
    And with President Clinton's leadership, we have made real 
progress. The Nuclear Non-Proliferation Treaty is now permanent; its 
safeguards are stronger; and only five countries remain outside its 
framework. Some 150 nations, including the nuclear powers, have signed 
the Comprehensive Test Ban Treaty (CTBT). Russia has followed us in 
joining the Chemical Weapons Convention, and China is undertaking 
important new nonproliferation commitments.
    This year, Mr. Chairman, I hope we can work together to build on 
the record we have forged, for we have a unique opportunity to ensure 
that the American people never again face the costs and dangers of a 
nuclear arms race.
    Much depends on whether the Russian Duma ratifies START II. This 
treaty will slice apart Russia's heavy MIRVed SS-18 missiles--the 
deadliest weapons ever pointed our way. And it would set the stage for 
START III, and cuts in strategic arsenals to 80 percent below Cold War 
peaks.
    This past September, we completed the ABM Treaty Demarcation and 
Succession agreements. Mr. Chairman, we agree that the Senate deserves 
every opportunity to examine them closely, and I look forward to 
testifying before you at the appropriate time.
    But to encourage the Russians to act on START II, we have told them 
firmly that we will neither begin negotiating START III, nor submit the 
ABM agreements and the START II Extension Protocol to this Committee 
until the Duma acts. We should not retreat from that stand.
    Meanwhile, the Demarcation agreements allow us to continue 
developing robust theater defenses. And we know that for Russian 
reductions to continue, the ABM Treaty must remain viable.
    An essential part of our strategy to reduce the nuclear danger is 
the Comprehensive Test Ban Treaty now pending before the Senate. By 
ending testing, we can hinder both the development and spread of new 
and more dangerous weapons.
    The CTBT has been a goal of U.S. Presidents since Dwight Eisenhower 
and John Kennedy. It has the support of 70 percent of the American 
people. It has been endorsed by four former chairmen of the Joint 
Chiefs of Staff: Generals John Shalikashvili, Colin Powell and David 
Jones, and Admiral William Crowe. And it holds the promise of a world 
forever free of nuclear explosions.
    But if we are to fulfill this promise, America must lead the way 
this year in ratifying the Treaty, just as we did in negotiating and 
signing it. Mr. Chairman, I respectfully seek an early opportunity to 
testify before this Committee on a treaty that our citizens want and 
our interests demand.
    Last year, thanks to the Senate's bipartisan support, the United 
States joined the Chemical Weapons Convention as an original party. 
This year, we will continue working with Congress to enact domestic 
implementing legislation, to make it harder for terrorists to concoct, 
conceal, or conspire to use poison gas in our own country. Our 
experience with Saddam Hussein in Iraq underscores how tempting 
biological weapons remain to the very worst regimes. This year, with 
the President's leadership, we are determined to strengthen the 
Biological Weapons Convention through an international inspection 
system to help detect and deter cheating.
    Finally, the United States is determined to contribute mightily to 
the worldwide effort to protect civilians from anti-personnel 
landmines.
    We lead the world in humanitarian demining. And we are 
substantially increasing our own commitment, while asking other 
countries to increase theirs. Our goal is to free civilians everywhere 
from the threat of landmines by the year 2010.
    Meanwhile, we have embarked on an aggressive search for 
alternatives to anti-personnel landmines, with the hope that we can 
fulfill the President's goal of ridding the world of these terrible 
weapons.

B. Promoting Prosperity
    A second overarching goal of our foreign policy is to promote a 
healthy world economy in which American genius and productivity receive 
their due.
    Through bipartisan efforts, we have put our fiscal house in order 
and our economy is stronger than it has been in decades. I am pleased 
that American diplomacy has contributed much to this record.
    Since President Clinton took office, we have negotiated more than 
240 trade agreements, including the Uruguay Round and agreements on 
information technology, basic telecommunications services and--most 
recently--financial services. These agreements remove barriers to U.S. 
products and services, thereby creating good American jobs. To help 
level the playing field for American business, we concluded an OECD 
Convention last year that commits more than 30 other nations to join us 
in criminalizing foreign commercial bribery.
    We have also been striving to ensure that agreements made are 
agreements kept. Our diplomats know that one of their principal jobs is 
to see that American companies and workers get a fair shake. To that 
end, our trade negotiators are making full use of every available 
enforcement tool, including a strengthened WTO.
    All this matters to Americans because trade is responsible for one-
third of the sustained economic growth we have enjoyed these past five 
years. Today, some twelve million U.S. jobs are supported by exports 
and these are good jobs, paying--on average--15% more than non-trade 
related positions.
    To stay on this upward road, we are using our diplomatic tools to 
forge an increasingly open system of global investment and trade that 
is fair to investors, business people, farmers and workers alike.
    At last November's APEC summit, Pacific governments agreed to begin 
negotiation on a sectoral liberalization package covering more than 
$700 million in trade. We are continuing to explore new opportunities 
for expanded commerce with the EU. We have an opportunity in the OECD 
to conclude a major treaty on the rules of international investment. In 
April, at the hemispheric summit in Santiago, we will seek to launch 
negotiations for a Free Trade Agreement of the Americas. And this 
summer, at the International Labor Conference in Geneva, we will be 
striving for a strong declaration on core labor standards.
    We will be working with Congress this year to ensure that the 
President has the fast-track trade negotiating authority he needs to 
reach agreements that benefit our economy and advance our overall trade 
liberalization, environmental and worker rights objectives.
    We will also be asking you to support our economic and humanitarian 
assistance programs and the Peace Corps. Many of our fastest-growing 
markets are in developing countries where the transition to an open 
economic system is incomplete. By helping these countries overcome 
problems, we contribute to our own prosperity while strengthening the 
international system, in which we have the largest stake.
    For example, our programs assist developing nations in stabilizing 
population growth rates, thereby allowing them to devote more of their 
scarce resources to meet the basic needs of their citizens. Moreover, 
the family planning programs we support are voluntary. They do not fund 
abortions; on the contrary, they contribute to our goal of reducing the 
incidence of abortions.
    An open, growing world economy is vital to our prosperity--and a 
foreign policy imperative. For when we make progress on the 
international economic front, we make progress on all fronts. A world 
that is busy growing will be less prone to conflict. Nations that have 
embraced economic reform are more likely to embrace political reform. 
And as history informs us, prosperity is a parent to peace.

C. Fighting International Crime and Narcotics
    Mr. Chairman, a third global objective of our foreign policy is to 
fight and win the struggle against international crime. In our era, the 
drug trade, arms smuggling, money laundering, corruption and 
trafficking in human beings have become overlapping and reinforcing 
threats. They undermine our effort to build a more stable, prosperous 
and democratic international system. And they threaten us whether we 
are traveling abroad or walking down the very streets on which we live.
    Here at home, we have found that community policing and a strong 
judicial system can cut crime. Our parallel strategy overseas is 
reducing crime before it reaches our shores. The Bureau of 
International Narcotics and Law Enforcement Affairs is leading an 
aggressive effort to strengthen foreign judicial systems, break up 
international criminal cartels, eliminate offshore havens for hot 
money, increase extraditions, and block the illicit smuggling of 
narcotics, guns, stolen cars and illegal aliens.
    All this requires more than increasing police on our borders or 
Coast Guard ships at sea. It involves virtually every aspect of our 
diplomacy, from building viable judicial and law enforcement 
institutions; to eradicating coca and opium poppies; to forging 
bilateral law enforcement agreements; to speaking frankly with foreign 
leaders about the need to close ranks.
    There is no silver bullet in the fight against international crime, 
but--as our increased budget request for this year reflects--we are 
pushing ahead hard. Our purpose, ultimately, is to create a kind of 
global ``Neighborhood Watch'', with governments and law abiding 
citizens everywhere coming together to plug the legal and law 
enforcement gaps that give criminals the space they need to operate and 
without which they could not survive.

D. Environment
    The United States also has a major foreign policy interest in 
ensuring for future generations a healthy and abundant global 
environment and in working to prevent environmental problems that could 
lead to conflict or contribute to humanitarian disasters.
    The wise stewardship of natural resources is about far more than 
esthetics--about whether one responds more warmly to butterflies than 
bulldozers. Misuse of resources can produce shortages that breed 
famine, fear, flight and fighting. And as societies grow and 
industrialize, the absorptive capacities of the Earth will be severely 
tested.
    We can respond to this reality with complacency, assuring ourselves 
that the full costs of our neglect will not come due until after we 
have passed from the scene. Or we can meet our responsibility to future 
generations by striving to identify meaningful, cost-effective ways to 
anticipate and mitigate environmental and resource-related dangers.
    We are choosing the latter course.
    That is why we have incorporated environmental goals into the 
mainstream of our foreign policy, and why we have established and are 
pursuing specific environmental objectives in every part of the world.
    It is why we are seeking an international agreement to regulate the 
production and use of persistent chemical toxins that have global 
impacts.
    It is why we will be focusing new attention on what may be one of 
the most explosive international issues of the 21st century--access to 
secure supplies of fresh water.
    And it is why we will be asking Congress to work with us as we seek 
to ensure that the promise of the Kyoto Protocol is realized. In Kyoto, 
the world's leading industrialized nations committed themselves for the 
first time to significant reductions in greenhouse gas emissions and 
adopted, in key respects, the U.S. market-based approach to achieving 
those reductions. Kyoto also made a significant downpayment on securing 
the meaningful participation of developing countries in the needed 
global response, but clearly more must be done to meet our 
requirements.

E. Human Rights, Democracy and the Rule of Law
    Finally, U.S. policy is to promote democracy, the rule of law, 
religious tolerance and human rights. These goals reflect a single 
premise: the health of the community depends on the freedom of the 
individual.
    A half century ago, the nations of the world affirmed in the 
Universal Declaration of Human Rights that ``the foundation of freedom, 
justice and peace'' resides in the ``inherent dignity and . . . equal . 
. . rights of all members of the human family.''
    Today, there are those who argue that the Declaration reflects 
western values alone. But that is nonsense.
    Consider, for example, the first Afro-Asian Solidarity Conference 
held in Indonesia more than four decades ago. There, the 
representatives of 29 nations from China to Libya and from Sudan to 
Iraq cited the Universal Declaration as ``a common standard of 
achievement for all peoples and all nations.''
    And less than five years ago, countries on every continent 
reaffirmed their commitment to the Declaration at the Vienna Conference 
on Human Rights.
    Unfortunately, as our recent human rights report indicated, the 
face of the world remains scarred by widespread abuses, many the 
byproduct of ethnic and religious intolerance, others perpetrated 
willfully by authoritarian regimes. These violations are an offense to 
humanity and an anchor retarding human progress. For only when people 
are free to express their identities, publish their thoughts and pursue 
their dreams can a society fulfill its potential.
    In recent months, some have criticized America for, in their words, 
trying to ``impose'' democracy overseas. They suggest it is hopeless 
and sometimes damaging to encourage elections in countries that are not 
yet developed. They appear to assume that our efforts are limited to 
the promotion of elections, and that we are indifferent to the history, 
culture, politics and personalities of the countries involved.
    In truth, we understand well that democracy, by definition, cannot 
be imposed. It must emerge from the desire of individuals to 
participate in the decisions that shape their lives. But this desire is 
present in all countries. America's aim is to assist democratic forces, 
where and when we can, to assemble the nuts and bolts of a free 
society. That requires far more than elections. Depending on the 
country and the situation, we employ a wide variety of means from 
vigorous diplomacy to training judges to providing technical advice on 
everything from drafting a commercial code to the rules of 
Parliamentary procedure.
    To term our support for democracy an imposition is to get the logic 
upside down. For democracy is the only form of government that allows 
people to choose their own path. There could be no better way for us to 
show respect for the uniqueness and autonomy of others than to support 
their right to shape their own destinies and select their own leaders.
    So let us be clear. American policy proceeds from this truth: in 
any language, on any continent, for any culture, dictatorship is an 
imposition; democracy is a choice.
    Accordingly, the United States will continue to support democratic 
ideals and institutions however and wherever we can effectively do so.
    We will continue to advocate increased respect for human rights, 
vigorously promote religious freedom and firmly back the international 
war crimes tribunals.
    As the President pledged in his State of the Union Address, we will 
send legislation forward to address the intolerable practice of abusive 
child labor.
    We will renew our request that the Committee approve--at long 
last--the Convention to Eliminate All Forms of Discrimination Against 
Women.
    And because of our commitment to the rule of law, and to the 
economic, security and scientific interests of the United States, we 
are pleased to join the Department of Defense in urging your support 
for the revised International Convention on the Law of the Sea.

                       IV. World-Class Diplomacy

    The efforts we make to advance our security, prosperity and values 
are both right and smart for America and for our future. But we cannot 
lead without tools.
    It costs money to track the development of weapons of mass 
destruction around the world; to dismantle and dispose of nuclear 
materials safely from the former Soviet Union; to protect American jobs 
by representing American interests in Tokyo and Brussels, Ottawa and 
Buenos Aires; and to help our partners build societies based on peace, 
democracy and law. But these costs do not begin to compare to the costs 
we would incur if we did not act; if we stood aside while conflicts 
raged, terrorists struck, newfound freedoms were lost and chemical, 
nuclear and biological weapons spread willy-nilly around the globe.
    American leadership is built on American ideals, supported by our 
economic and military might, and tested every day in the arena of 
international diplomacy. To thrive in the new century, America will 
need first-class factories and farms; first-class students and 
scientists; and first-class soldiers and sailors. We will also need 
world-class diplomacy.
    World-class diplomacy depends on having the right number of people, 
in the right places, with the right level of skills, modern 
communications systems and buildings that are secure.
    Unfortunately, despite strong support from many in both parties in 
Congress, we have lost ground during this decade. In real terms, 
funding has declined sharply. Since 1993, we have closed 32 embassies 
and consulates. We've been forced to cut back on the life's blood of 
any organization, which is training. We face critical infrastructure 
needs in key capitals such as Berlin and Beijing. We must modernize our 
information systems or we will enter the 21st century with computers 
that do not work. And we have seen the percentage of our nation's 
wealth that is used to support democracy and prosperity around the 
globe shrink steadily, so that among industrialized nations we are now 
dead last.
    So I urge the Committee to support the President's budget request, 
remembering as you do so, that although international affairs amounts 
to only about one percent of the Federal budget, it may well account 
for fifty percent of the history that is written about our era, and it 
affects the lives of one hundred percent of the American people.
    Finally, Mr. Chairman, as Secretary of State, I can tell you that 
you can be proud of the people--foreign service officers, civil service 
and foreign service nationals--who work every day, often under very 
difficult conditions, to protect our interests around the world. I have 
never been associated with a more talented, professional or dedicated 
group of people. And I hope I can work with the Committee this year to 
see that our personnel receive the support and respect they deserve; 
and to maintain the highest standards of diplomatic representation for 
America.

                             V. Conclusion

    As always, Mr. Chairman, I come before you with my mind focused on 
the present and future, but conscious, also, of past events that have 
shaped our lives and that of our nation.
    A half century ago, this month, a Communist coup in my native 
Czechoslovakia altered forever the course of my life and prompted, as 
well, an urgent reappraisal by the west of what would be required to 
defend freedom in Europe.
    In that testing year, a Democratic President and a Republican 
Congress approved the Marshall Plan, laid the groundwork for NATO, 
helped create the Organization of American States, established the 
Voice of America, recognized the infant state of Israel, airlifted 
life-sustaining aid to a blockaded Berlin and helped an embattled 
Turkey and Greece remain on freedom's side of the Iron Curtain.
    Secretary of State George Marshall called this record ``a brilliant 
demonstration of the ability of the American people to meet the great 
responsibilities of their new world position.''
    There are those who say that Americans have changed and that we are 
now too inward-looking and complacent to shoulder comparable 
responsibilities. In 1998, we have the opportunity to prove the cynics 
wrong. And Mr. Chairman and members of the Committee, I believe we 
will.
    From the streets of Sarajevo to the Arabian and Korean peninsulas 
to classrooms in Africa, boardrooms in Asia and courtrooms at The 
Hague, the influence of American leadership is as beneficial and as 
deeply felt in the world today as it has ever been.
    That is not the result of some foreign policy theory. It is a 
reflection of American character.
    We Americans have an enormous advantage over many other countries 
because we know who we are and what we believe. We have a purpose. And 
like the farmer's faith that seeds and rain will cause crops to grow; 
it is our faith that if we are true to our principles, we will succeed.
    Let us, then, do honor to that faith. In this year of decision, let 
us reject the temptation of complacency and assume, not with complaint, 
but welcome, the leader's role established by our forebears.
    And by living up to the heritage of our past, let us together 
fulfill the promise of our future--and enter the new century free and 
respected, prosperous and at peace.
    Mr. Chairman, Members of the Committee, thank you very much. And 
now, I would be pleased to respond to your questions.
                               __________

   Additional Questions for the Record Submitted by the Committee to 
                           Secretary Albright

     Additional Questions for the Record Submitted by Senator Biden

Authority to Use Force Against Iraq

    Question.  What is the basis for the Executive's assertion that it 
has the necessary authority, under both domestic and international law, 
to launch a military strike against Iraq?
    Answer. With respect to domestic law, the President has two 
mutually reinforcing sources of authority--his constitutional authority 
as Commander-in-Chief and the statutory authority provided at the 
outset of the Gulf War and reaffirmed since then. Here Congress 
expressly authorized the President to use force against Iraq under 
Public Law 102-1, enacted in January 1991. Public Law 102-1 
specifically stated that it satisfied the 1973 War Powers Resolution.
    Congress affirmed in section 1095 of Public Law 102-190, enacted in 
December 1991, that this authorization to use force continued to apply 
after the Gulf War ceasefire to any action needed to achieve the goals 
of United Nations Security Council Resolution 687. That resolution 
required Iraq, among a number of other requirements, to destroy its 
weapons of mass destruction and their means of delivery and to accept 
United Nations inspections to verify this.
    These provisions should be understood in light of the President's 
constitutional authority as Commander-in-Chief to use armed forces to 
protect our national interests.
    From the end of the Gulf War to the present, the Bush and Clinton 
Administrations have submitted the reports to Congress called for under 
Public Law 102-1. As reported to Congress, both Presidents authorized 
the use of force during this period under these authorities.
    With respect to international law, Resolution 678 authorized United 
Nations member states cooperating with Kuwait to use ``all necessary 
means'' to implement the Council's resolutions and ``to restore 
international peace and security in the area.'' This resolution and 
other relevant resolutions of the Council remain in force.
    Resolution 687 mandated a ceasefire, but also imposed a number of 
requirements on Iraq, including--as indicated above--destruction of 
weapons of mass destruction and their delivery systems, and its 
acceptance of United Nations inspections to verify this.
    Iraq's actions have constituted flagrant, repeated and material 
breaches of these requirements. Such breaches would entitle Coalition 
members to exercise the authority given by Resolution 678 and to take 
necessary and proportionate measures, including the use of force, to 
compel Iraq to comply with all relevant Security Council resolutions. 
This is in addition to our right to act in self-defense against any use 
or threat of force by Iraq.
    On March 2, the Security Council adopted a resolution that 
recognized that failure by Iraq to fulfill its obligations ``to accord 
immediate, unconditional and unrestricted access'' to UNSCOM would be 
sufficiently serious to warrant the ``severest consequences.''

Rwanda: Hate Radio

    Question. What is the U.S. doing to counter the reemergence of 
destabilizing hate radio messages?
    Answer. On December 11, 1997, there was a broadcast from Bukavu 
inEastern Congo which encouraged the expulsion and/or extermination of 
ethnic Tutsis. This broadcast coincided with the movement of extremist 
Hutu militiamen from eastern Congo to Rwanda. We have detected no 
transmissions since December 11. Although this may have been an 
isolated event, we are well aware of the previous devastating impact of 
hate radio in the region and are therefore preparing offensive and 
defensive strategies to counter this threat.
    Our offensive strategy is to augment messages of ethnic 
cooperation, healing, and reconciliation. Voice of America (VOA) 
broadcasts in local languages in the region and enjoys a wide audience. 
We are examining how we might better utilize VOA programming to promote 
peace and inclusivity. We have also sent a team to the region to assess 
how we might further advance reconciliation through grass-roots 
activities such as village plays and radio dramas.
    Jamming hate broadcasts requires detailed information on the 
location of the transmitter(s) and the frequencies being used. We are 
exploring this issue and can provide you with further details in a 
classified briefing, if you desire.
Rwanda: Support to Rebels
    Question. Do we know who is responsible for supporting the rebels 
responsible for the continued violence--and can we do anything to shut 
off that support?
    Answer. We do not know definitively who is responsible for 
supporting the rebels. Our intelligence services continue to examine 
the issue and have prepared a report of their findings. You may contact 
the CIA directly for a copy of this classified paper.
    In an effort to gain more information and to eventually help thwart 
rebel supply-lines, we are asking the United Nations to reinstate the 
U.N. Arms Flow Investigative Commission. We have canvassed our Security 
Council partners and there is broad support for this initiative. The 
task now is to identify adequate financial support.

Comprehensive Test Ban Treaty Ratification

    Question. The President called for the Senate to give its advice 
and consent to ratification of the Comprehensive Nuclear Test Ban 
Treaty (CTBT) this year. He said that the treaty ``can help prevent the 
development of new and more dangerous weapons, and make it more 
difficult for non-nuclear states to build them.'' We are also told that 
the Department of Energy's 45-billion-dollar ``stockpile stewardship'' 
program will maintain the safety and reliability of U.S. nuclear 
weapons without the need for nuclear testing.
    (a) Why is it important for the Senate to address the issue of 
ratifying the treaty this year, rather than waiting 5 or 10 years to 
judge the success of the Department of Energy's ``stockpile 
stewardship'' program?
    (b) Will early U.S. ratification of the treaty have a real impact 
upon how soon it enters into force, or on whether countries like India 
and Pakistan comply with it?
    Answer. (a) It is essential that the U.S. demonstrate leadership 
with regard to the crucial treaties and regimes that strengthen our 
global nonproliferation effort. Were the U.S. to delay its ratification 
of CTBT for 5 to 10 years, it could do serious harm to U.S. global 
nonproliferation efforts, and to the prospects for the CTBT entering 
into force (EIF) in the near future.
    U.S. commitment to completing the CTBT was instrumental in 
achieving the unconditional extension of the Nonproliferation Treaty 
(NPT) in 1995. A lengthy delay in U.S. ratification would negate the 
commitment the U.S. so clearly demonstrated during and after the CTBT 
negotiations; it would thereby harm implementation of the NPT and U.S. 
nonproliferation initiatives generally.
    Until the United States has itself ratified the CTBT, it will also 
be very difficult for us to cooperate closely with others in the 
international community in promoting ratification by all 44 countries 
(including the U.S.) whose ratifications are required for EIF. Were EIF 
to be delayed, one or more of the nuclear weapon states--which are 
currently observing self-imposed moratoria on test explosions--could 
decide, in the absence of firm legal constraints, that they must resume 
testing.
    Moreover, we do not need to wait to see if the Stockpile 
Stewardship Program works. The directors of the U.S. nuclear weapons 
laboratories have confirmed to the President their confidence in the 
Stockpile Stewardship Program and its ability to maintain America's 
nuclear deterrent without nuclear testing. Successful implementation of 
the Program has already begun. The second of the recently mandated 
annual stockpile certifications has been completed, and it confirmed 
that no nuclear testing is required at this time. Problems in 
stockpiled warheads have been resolved, and an existing weapon has been 
modified without explosive testing.
    Senate advice and consent would also be conditioned on six 
safeguards. One of these is the President's commitment that, if he is 
informed that a high level of confidence in the safety or reliability 
of a nuclear weapon type considered to be critical to our nuclear 
deterrent could no longer be certified, he would be prepared, in 
consultation with Congress, to withdraw from the treaty under the 
standard ``supreme national interests clause'' in order to conduct 
whatever testing might be required.
    (b) Rather than waiting to see if others will ratify the CTBT, 
America must lead in bringing the CTBT into force. U.S. ratification of 
the Chemical Weapons Convention last year, for example, led to Russian 
and Pakistani ratification shortly thereafter. The sooner we have 
signed and ratified it, the better our position will be to urge others 
to adhere to it.
    In addition, if the CTBT has not entered into force three years 
after it is opened for signature, the treaty provides for an annual 
conference of countries that have ratified to consider what measures 
may be taken to accelerate the ratification process in order to 
facilitate early EIF. To participate in such a conference, the U.S. 
must ratify. Ratification by the U.S. and others will also strengthen 
the international norm against nuclear testing, thus helping to deter 
tests by non-signatories and support the international community's 
efforts to gain universal adherence to the CTBT.
Bosnia and Herzegovina
    Question. In December, you used your waiver authority under section 
573 of the Fiscal 1998 Foreign Operations Appropriations Act in order 
to be able to provide economic assistance to areas in the Republic 
Srpska that are not in compliance with the war criminals provisions of 
Dayton. Last month Milorad Dodik, non-nationalist Bosnian Serb, was 
elected Prime Minister of the Republika Srpska. Dodik has pledged to 
implement Dayton to the fullest.
    (a) Does it still make sense to waive compliance with Dayton and 
give U.S. assistance to localities that are harboring war criminals?
    (b) In other words, why should we undercut Prime Minister Dodik's 
courageous policy of implementing Dayton?
    Answer. (a) The waiver for U.S. bilateral assistance signed by the 
Acting Secretary on December 23, 1997, was necessary under the 
provisions of our appropriations act to permit U.S. bilateral 
assistance to any part of the Republika Srpska. It is essential for the 
success of our policy in Bosnia to keep providing carefully targeted 
assistance in support of Prime Minister Milorad Dodik.
    In fact, the political and economic assistance we provided last 
year to President Plavsic prior to the RS assembly elections was 
responsible for the Pale hard-liners losing.their majority in the RS 
assembly and is the reason Mr. Dodik is now Prime Minister at the head 
of a moderate coalition.
    Even though war criminals continue to live in the RS, we believe 
that U.S. assistance should be provided in support of Dodik. He and 
President Plavsic were active in encouraging the recent peaceful 
surrender of two indictees in Samac, and we believe this sort of 
cooperation on war criminals will continue.
    (b) As I have mentioned, providing assistance in the Republika 
Srpska will bolster Prime Minister Dodik, not undercut him. Prime 
Minister Dodik needs resources if he is to gain control of the RS 
Government and be able to cooperate on war criminals, refugee returns, 
and other Dayton implementation issues.
    Question. Wouldn't it be better to underline our support for Dodik 
by conditioning all aid to cooperation on war criminals, refugee 
returns, and seating of elected governments?
    Answer. We have, in fact, discussed with Mr. Dodik a number of 
conditions for continued U.S. assistance and support, including those 
you have mentioned. Mr. Dodik has voiced his clear support for the 
implementation of Dayton but has indicated that he will need help to 
establish a fully functioning government capable of carrying out Dayton 
commitments.
    We will carefully tranche our assistance to the Dodik government 
and have made it clear that we expect progress in all areas of Dayton 
implementation in order for it to continue to receive U.S. political 
and economic support. But denying him any kind of assistance until 
there is complete implementation of commitments on war criminals, 
refugee returns, and seating of elected governments would effectively 
rob the new government of necessary tools to accomplish these and other 
difficult tasks, many of which are going to take time to achieve.

     Additional Questions for the Record Submitted by Senator Smith

Funding for the Global Environment Facility (GEF)

    Question. The budget request proposes $300 million for the 
GlobalEnvironment Facility (GEF). This is a 525% increase from the 1998 
enacted level of $48 million. What is this money for?
    Answer. The Administration strongly supports the GEF as an 
essential tool for mobilizing international resources to protect the 
global environment, especially as regards climate change and protection 
of biodiversity.
    With over 120 members, the GEF provides grant funding for projects 
that protect the global environment. Its programs focus exclusively on 
global resources vital to the health and long-term economic prosperity 
of all countries, specifically in the areas of climate change, 
biodiversity, international waters and ozone depletion. The GEF acts as 
a catalyst for other funding, using relatively small grants to leverage 
much larger projects, thus far committing about $1.3 billion for over 
200 full-scale projects, plus 300 smaller local projects funded through 
its highly successful Small Grants Program.
    The U.S. pledged $430 million in 1993 to support the GEF's current 
four-year (FY95-98) work program; yet over the past three years, the 
U.S. has given barely half its pledged amount due to Congressional 
underfunding. We now carry GEF arrears from FY96-98 of $193 million. 
The Administration's $300 million request will clear our arrears and 
meet our FY99 pledge of $107 million.
    The GEF is an instrument that can help us meet our twin objectives 
of promoting U.S. technology and shaping international environmental 
responsibility, but only if it receives adequate funding. We already 
have the best technology to address these challenging environmental 
problems, and the U.S. must take the lead in shaping global 
environmental responsibility as well. Unless we maximize the potential 
of the GEF, it will not be able to help us meet our international 
environmental goals.
Funding for Security and Maintenance of U.S. Missions
    Question. The budget request proposes $641 million in budget 
authority for the State Department Security and Maintenance of U.S. 
Missions account--a 61% increase from the $398 million in 1998. What is 
this money for?
    Answer. The Department's $640.8 million request in Fiscal Year 1999 
for the Security and Maintenance of U.S. Missions account is to provide 
safe, secure, and functional overseas facilities from which we conduct 
our diplomatic activities. The request reflects the Administration's 
continuing commitment to protect and maintain our overseas facilities 
infrastructure investment.
    The increase of nearly $250 million over the Fiscal Year 1998 
enacted appropriation for foreign buildings is primarily to construct 
new chanceries in Beijing ($200 million) and Berlin ($50 million of the 
$120 million needed). The total request for all other Foreign Buildings 
programs, $390.8 million, is about $7 million less than the Fiscal Year 
1998 enacted appropriation. These funds are used to maintain, 
rehabilitate, and modernize the 3,000 USG-owned and long-term leased 
facilities overseas; lease property required for operations; and assess 
the adequacy and safety of our facilities.
    The chancery in Beijing is needed because the current structure has 
security and life-safety deficiencies, is greatly overcrowded, and 
cannot support the kind of U.S. presence needed now and in the future. 
The $200 million that the Department is requesting will allow us to 
acquire a site, design and construct the new building.
    The American Embassy in Germany is moving from Bonn to Berlin in 
phases, with the final elements moving in late 1999. The Department 
plans to construct a new chancery in Berlin on Pariser Platz, the site 
of our pre-Worid War II embassy next to the Brandenburg gate. The 
Department plans to finance the construction of the new Berlin 
Chancery, to the extent possible, with the proceeds from the sale of 
excess property in Germany. Because one of these properties cannot be 
sold at the price we originally estimated, we will require an 
appropriation of $50 million to enable the Department to proceed with 
the capital project, which is estimated to cost $120 million.
    The Department's request also includes increases in the amounts 
allocated for safety programs and security-related projects. We plan to 
hire additional staff to oversee the management of pesticides and other 
hazardous materials and to increase the number of facility maintenance 
specialists who manage USG properties abroad.
Israeli Foreign Aid
    Question. What has been the Administration's reaction to the 
Israeli government's plan to wean itself off American Foreign Aid?
    Answer. In late January, Israeli Finance Minister Yaacov Ne'eman 
began discussions with Members of Congress and Administration officials 
on a proposal that would gradually reduce Israel's economic assistance 
to zero, while phasing in military assistance increases.
    We welcome the Israeli government's initiative and are working 
closely with Israel and the Congress to further develop the concept.
    As Israeli Prime Minister Netanyahu told a joint session of 
Congress, there is no greater tribute to America's longstanding 
economic aid than Israel's achievement of economic independence.
OMB Revision of Budget Subsidy Risk Premiums
    Question. In 1999 the Office of Management and Budget will change 
the way it calculates risk used to determine subsidy levels for Ex-Im 
and OPIC loans and the Treasury's debt reduction program. What prompted 
0MB to recalculate the sovereign risk?
    Answer. There are two main reasons the Administration has proposed 
changing the risk premiums used to determine the subsidy cost of U.S. 
government international credit.
    First, the existing premiums have been in use since the FY 1993 
budget. The proposed premiums update them to reflect financial market 
experience of the last six years.
    Second, the existing premiums were determined by reference to U.S. 
domestic corporate bond premiums. Because more data is now available, 
the proposed premiums use international bond premiums as a reference to 
the extent possible.

Bipartisan Budget Agreement

    Question. Last year the Bipartisan Budget Agreement designated 
Function 150 as a priority function and specified $128.6 billion in 
budget authority and $18.8 billion in outlays as the agreed to 
discretionary flinction levels for FY 1999. I therefore expected to be 
supporting that budget request in FY 1999. However, the Administration 
moved the goal posts on me. When the budget was released last week, I 
found that to support full funding of the 150 account I couldn't stick 
with agreed-upon $18.6 billion figure, but instead was being asked to 
support a figure about $1 billion more. Madam Secretary why is this?
    Answer. First, it is important to note that our FY 1999 budget 
request is fully compliant with last year's Bipartisan Budget 
Agreement. As you recall, that Agreement set annual caps on non-defense 
discretionary spending, which includes Function 150 spending. For FY 
1999 the overall Federal budget is within those caps while eliminating 
the deficit earlier than envisioned in the Agreement. The Agreement 
also gave priority to certain budget functions and programs of which--
as you point out--the International Affairs function was one. However, 
amounts for these priority functions, including Function 150, were 
indicative but not mandatory. For example, for FY 1998 the Congress did 
not provide all the funds envisioned in the agreement for International 
Affairs.
    As you indicate, our FY 1999 request--excluding arrears payments 
for the Multilateral Development Banks--is about $1 billion over the 
notional FY 1999 target for Function 150. However, much has changed 
since the Budget Committee approved its outyear funding levels last 
spring. I would like to explain why we require this higher figure and 
to solicit your support for the $19.6 billion level. I hope you share 
my strong belief that our nation cannot afford a lower funding level 
for International Affairs. Some of the more important programs and 
accounts where increases above of the FY 1999 budget ceiling include:
    The New Independent States (NIS) (+$80 million): We have no higher 
priority than to ensure that NIS countries build peaceful ties with the 
West through free-market engagement and reliable democratic 
institutions. Our NIS programs promote democracy and market economies 
by building a grassroots constituency for continuation of needed 
reforms. To succeed, we need to augment the resources for reform 
efforts, particularly, but not only, in Russia. This approach is solid 
insurance against the risk of a return to confrontational relations 
with a major power.
    Bosnia (+$170 million): Last year, when levels were set for the 
SEED account, it was anticipated that Bosnia expenses would be scaled 
back considerably, reflecting an improved situation. This, however, has 
proved unrealistic. Our FY 1999 budget request for Bosnia is $225 
million in recognition of the continuing need to accompany our allies 
in providing the reconstruction and economic assistance that will make 
sustained peace in Bosnia possible after military forces leave.
    Africa (+$120 million): During my recent visit to the region, I was 
firmly persuaded that we need to renew our efforts in Africa. We must 
assist in finding solutions to basic problems, especially in the Great 
Lakes region. It makes good sense to be proactive in attacking the 
underlying causes of instability, rather than engaging in continual 
crisis response. The President's Fiscal Year 1999 budget increases 
funding for Africa by $120 million in Economic Support Funds (ESF), 
Treasury Debt Reduction Programs, and Development Assistance. This 
increase will provide $35 million in special debt reduction for African 
nations as part of the ``Partnership for Growth and Opportunity in 
Africa''; $30 million for the Africa Trade and Investment Initiative; 
$25 million to support the Africa Great Lakes Initiative designed to 
prevent further conflict in the region; and $10 million to support 
Education for Democracy and Development in Africa.
    Non-proliferation, Antiterrorism, Demining, and Related (NADR) 
Programs (+$120 million): New requirements proposed in the budget 
include: $50 million to support the President's Demining 2010 
Initiative; $28.9 million to support for the Comprehensive Test Ban 
Treaty, including development and installation of an international 
nuclear explosion monitoring program; and funds that will support 
technology transfer and export control programs to contain 
proliferation of weapons of mass destruction and strengthen technical 
assistance for International Atomic Energy Agency nuclear safety 
programs.
    International Narcotics and Law Enforcement (+$40 million): To 
maintain our success in reducing narcotics production in the Andean 
countries, we have increased our request for interdiction and anti-
narcotics programs.
    Peace Corps (+$45 million): The FY 1999 budget will put the Peace 
Corps on the path to 10,000 volunteers (from 6,500) in the early years 
of the next century. More Americans are expressing an interest in Peace 
Corps service than ever before, and the request for volunteers by other 
countries far exceeds the level that current resource levels can 
support.
    Export Import Bank of the United States (+$130 million): These 
funds help Americans maximize their export sales, thus stimulating 
economic growth and creating jobs in the United States. The increase 
reflects business growth in Russia, the New Independent States, and 
other ``big emerging markets''.
    State Operations (+$400 million): Budget assumptions made in 1997 
did not allow for significant new operational requirements necessary to 
maintain our overseas investments in FY 1999. The construction of new 
facilities in Beijing ($200 million) and Berlin ($50 million) require a 
strong capital investment. In addition, there is a compelling need to 
continue modernizing our worldwide information technology 
infrastructure, including Year 2000 compliance requirements.
    Assessments to International Organizations (+$40 million): The FY 
1999 request is consistent with statutory restrictions of U.S. assessed 
contributions to the United Nations (UN) and 48 international 
organizations. Early progress in meeting our UN arrears in 1998 will 
enable us to seek a reduction of our assessments from 25 percent to 22 
percent that will result in significant future year savings.
    To accommodate these new requirements, we have reduced funding in a 
number of accounts below the levels anticipated in last year's budget 
agreement. However, there is a limit to how much we can do within the 
base provided. New demands for one region or program do not mean that 
we can afford to shirk our responsibilities in another. We must be able 
to respond to new requirements while maintaining our longer-term 
investments.
    Our FY 1999 submission is more than a routine budget request. This 
is an appeal for bipartisan consensus to provide the funding necessary 
for International Affairs programs and personnel indispensable to 
maintaining U.S. global leadership; a leadership that serves 
increasingly vital interests of direct consequence to the American 
people. I hope I can count on your support.

   Additional Questions for the Record Submitted by Senator Feingold

The President's New Initiatives for Africa

    Question. The President has proposed several new Africa programs as 
part of an overall ``Africa initiative'' (including the Partnership for 
Trade and Development, the Great Lakes Initiative and Education for 
Development). Please detail the various components of this initiative, 
and the accounts from which funds are to be made available. What is the 
total budget request represented by these components?
    Answer. The new Africa initiatives for which funding is being 
requested are: the Partnership for Economic Growth and Opportunity in 
Africa, the Great Lakes Justice Initiative, and the Education for 
Development and Democracy Initiative. They are distinct yet mutually 
supportive. Each targets a key area of need and promise and strives to 
coordinate and unify diverse U.S. government agency expertise and 
resources under a clear strategy. Private U.S. expertise is being 
factored into the development of each initiative as well. Together, the 
initiatives are designed to boost Africa's integration into the world 
community of free market democracies as the 21st Century approaches. 
The initiatives are described below.

            The Partnership for Economic Growth and Opportunity in 
                    Africa ($65 million):

    Prior to the June 1997 G-8 Denver Summit, the President announced a 
new Partnership for Economic Growth and Opportuniry in Africa with five 
major components: (1) market access, (2) debt relief, (3) investment 
support, (4) assistance to improve economic policies and business 
climates and (5) multilateral support. A total of $65 million is 
requested in FY 99: $35 million in Debt Relief and $30 million in 
Development Assistance. Additional support will be provided through 
ongoing U.S. programs and private sector resources as described below.
    Market Access: The Partnership advocates renewal of current market 
access incentives provided under the U.S. Generalized System of 
Preferences Program (GSP) which allows eligible countries to export 
products to the U.S. duty free. Under the new GSP law, those considered 
least developed countries (LDCs--29, or the majority, are African) may 
export an additional 1800 product categories to the U.S. duty free from 
all African countries. If passed, the proposed African Growth and 
Opportunity Act would provide additional market access incentives to 
African countries that are implementing aggressive economic reforms by 
eliminating a $75 million per product competitive need limitation on 
GSP imports. If doing so would not harm U.S. industries, the Act allows 
those countries to export products currently excluded from the GSP 
program, including textile and apparel products, on a duty free basis. 
The Act also calls for quota free entry of textile and apparel products 
from selected African countries. Finally, under the President's 
Partnership, the United States will be open to pursuing free trade 
agreements with African countries that meet rigorous requirements for 
starting negotiations.
    Debt Relief: The Partnership for Economic Growth seeks to take our 
previous U.S. efforts in debt relief a step further. Benefits will 
focus on those countries that are making serious efforts to implement 
sound economic policies, create a hospitable climate for investment, 
and liberalize their trade regimes. Relief of bilateral concessional 
debt will be offered under the partnership. This would be in addition 
to reduction of concessional or market-rate debt provided through the 
Paris Club or under the Highly Indebted Poor Countries (HIPC) 
initiative.
    Investment Support: Under the Partnership, the Overseas Private 
Investment Corporation (OPIC) issues loan guarantees for a privately-
managed investment fund capitalized at $150 million. The fund is open 
to 29 African countries. Under the Partnership, OPIC is also seeking 
investors to establish and manage additional OPIC guaranteed funds that 
could be capitalized for up to $500 million. These investment funds 
would finance infrastructure projects in African countries, and could 
be established within OPIC's existing budget.
    Improvements in Economic Policy and the Business Climate: USAID is 
seeking $30 million in FY 99 to help African private and public sector 
partners design and implement policy reforms that will make their 
countries attractive to international trade and investment. This will 
include a combination of: Technical assistance to implement reforms in 
trade and investment regimes, with particular attention to a limited 
number of countries with outstanding economic reform records; non-
project assistance to help such countries with the introduction of 
aggressive, market-friendly reforms; and assistance to forge business 
linkages and networks to help catalyze relations between U.S. and 
African firms. USAID's existing Initiative for Southern Africa will 
also contribute to objectives of the Partnership. It will provide up to 
$25 million annually for regional programs that facilitate economic 
integration and development in southern Africa. The Partnership also 
calls for more Trade and Development Agency missions and urges greater 
allocations of PL-480 commodities to African countries with outstanding 
economic reform records.
    Multilateral Support: In addition to bilateral measures by the 
United States Government, under the Partnership, the Administration 
will actively support greater financial assistance from international 
financial institutions and other bilateral donors for African countries 
with good economic reform records.

            The Great Lakes Initiative ($25 million)

    The objective of the Great Lakes Justice Initiative, which is 
subject to congressional consultation and the approval of required 
waivers to legislative restrictions, is intended to contribute to 
efforts in the Democratic Republic of the Congo (DROC), Rwanda and 
Burundi to help bring an end to the cycle of violence and culture of 
impunity. Recognizing that justice is one critical element, the 
initiative is designed to support an expanded effort to help those 
nations to develop justice systems that are impartial, credible and 
effective, and to help promote respect for human rights, inclusivity, 
coexistence, human rights and security. The initiative offers a true 
partnership involving African support and expertise, in which Africans 
will define their own needs and solutions. Secretary Albright announced 
plans for this initiative when she traveled to Africa in 1997. Total FY 
99 funding requested: $25 million in Economic Support Funds.
    Because the hallmark of the initiative is partnership, specific 
objectives and project activities will be developed in concert with 
African governments, civil societies, international and indigenous non-
governmental organizations and the donor community. An illustrative use 
of funds at the national level might include, for example, (1) reform 
projects such as coordinating commissions that work with Ministries of 
Justice and Interior and the courts, prosecutors and prisons under 
their direction to implement reforms, build institutional capacity or 
train personnel, or (2) assistance to professional associations and 
universities in civil society to formulate improved laws and practices 
and support reform in governmental institutions.
    At provincial and local levels, the FY 99 ESF could, for example, 
be used to support legal education programs, human rights monitoring 
activities, and local and regional reconciliation initiatives such as 
alternative dispute resolution programs and inter-ethnic economic and 
reconstruction projects.

     The Education for Development and Democracy Initiative ($66 
               million)

    The Education for Development and Democracy Initiative improve the 
quality of, and technology for, education in Africa as the 21st Century 
approaches. The African education system has declined over twenty years 
of rapid population growth amid diminishing resources. Over twenty 
African countries are pursuing educational reforms, and a number of 
donors, including the United States, are already active in this area. 
But the difficult challenges have yet to be met. They include: 
providing basic education for the fifty percent of Africa's population 
which is below the age of 15; providing skills to post-secondary 
students which will enable Africa to participate effectively in the 
global economy; and developing policies, institutions, values and 
knowledge needed to empower African citizens politically as well as 
economically. $66 million is requested in FY99: $5 million in Peace 
Corps funds, $10 million in Economic Support Funds, $25 million in PL 
480 II assistance, and $26 million in Development Funds.
    Like the Great Lakes Initiative, the Education Initiative will be a 
collaborative venture in which specific project objectives and 
activities will be designed according to local African needs and 
preferences. The Education Initiative will leverage U.S. experience, 
resources and skills with African and other efforts already underway. 
U.S. programs will focus in areas where the United States has a 
comparative advantage or can provide value-added, catalytic investments 
based upon field-proven methods. The Initiative will strengthen U.S.-
African partnerships and partnerships among Africans that link 
governments, educational institutions, private corporations and civil 
society to improve the quality of education.
    Depending upon need and African vision and programs for education 
reform, Education Initiative project activities will be made available 
at all levels of public education with a focus on girls and women, and 
will include skills training and civic education to promote sustainable 
democracy by targeting professionals such as judges, parliamentarians, 
journalists and civil socIety leaders.
    Projects sponsored by the initiative could, for example, provide or 
expand access to computer ecuipment and provide training, allow access 
to the internet, or provide other technology, such as radio learning, 
through local community resource centers, university systems, and USIS 
Information Resource Centers in order to accelerate African integration 
into modern global systems of education, government, business and 
communications. In some contexts, simpler tools and supplies such as 
typewriters or duplication equipment might be more useful. Pilot 
programs will be used in finding the right mix of support under the 
initiative, and for testing the operability of innovative methods to, 
for example, improve the quality of teacher preparation and develop 
curriculum reforms, explore renewable energy sources for computers, 
sustain resource centers which provide internet access, provide 
practical job skills training, or forge reciprocal school, university 
and community linkages.

New Programs in the Africa Initiative

    Question. Which pieces of this initiatIve represent entirely new 
programs? How do these components compare to activities undertaken in 
previous fiscal years, in both budget and programmatic terms?
    Answer. While each initiative coordinates and builds upon elements 
of ongoing U.S. programs and resources under a clear focus, each also 
includes entirely new components.
    Under the Partnership for Economic Growth, the $35 million 
requested for bilateral concessional debt relief for reformers would 
augment other U.S. debt relief programs and concessional debt 
rescheduling and reduction through the Paris Club and the Highly 
Indebted Poor Countries (HPIC) initiative. Investment in infrastructure 
through the $500 million fund that OPIC is seeking to establish would 
be new. The $25 million in Development Funds requested to improve 
economic policy and the business climate will be used for new 
activities described in the previous question. The Trade and 
Development Agency will increase the number of reverse trade missions 
to African countries. USDA will allocate a much larger portion of PL-
480 Title I commodities to African countries with outstanding economic 
reform records for FY 98 and beyond Finally, diplomatic efforts to 
press for multilateral support for reformers would seek to take such 
efforts further than before.
    Funds requested for the Great Lakes Justice Initiative, which is 
subject to congressional consultation and the approval of required 
waivers to legislative restrictions, are in addition to Africa's annual 
request for Economic Support Funds for regional democracy programs. The 
Great Lakes Initiative's program components, while new, will 
incorporate best lessons from rule of law programs in Africa and other 
regions. USAID has provided some bilateral assistance to Rwanda in 
recent years to improve the administration of justice, working with the 
Ministry of Justice and bar and judicial associations, and training 
lawyers. The bilateral Rwanda program also seeks to increase civil 
society participation in governance. As of yet, however, only 
humanitarian and small grant NGO projects are being undertaken in 
Burundi and the Democratic Republic of the Congo, and the Rwanda 
program lacks the coordinated, regional approach of the Great Lakes 
Initiative.
    The Education Initiative will coordinate elements of ongoing U.S. 
agency programs with new projects and resources. Of the $66 million in 
FY 99 funds requested for the Education Initiative, $10 million in FY 
99 Economic Support Funds, $5 million in Peace Corps support, $25 
million in FL 480 II resources and $26 million in FY 99 DevelopmenL 
Assistance are in addition to ongoing programs. New project activities 
that U.S. and African partners choose to implement will build upon, be 
coordinated with, or be supplemented by, ongoing U.S. agency projects 
in ways which provide clearly focused, value-added support for 
education and technology. Project activities will expand or complement 
ongoing African, U.S. and other donor education programs in Africa.
U.S. Programs Changes Due to Africa Initiatives
    Question. Are the programs of any specific government agency (e.g., 
OPIC, TDA, Ex-IM) expected to change substantially as a result of these 
Africa initiatives? Please explain.
    Answer. Overall, ongoing U.S. agency programs are not expected to 
change substantially as a result of the Africa Initiatives. As has been 
noted in the previous questions, the Africa Initiatives strive to 
improve coordination among and target certain U.S. agency resources 
under a coherent interagency strategy in ways which have not been 
attempted previously or which expand efforts beyond current programs. 
Such coordination is proving beneficial in achieving a new synergy of 
best U.S. practices and expertise. Although some U.S. agency program 
resources may serve the goals of that agency and the goals of a new 
initiative simultaneously, individual U.S. agency guidelines will 
continue to constrain and direct how that agency's resource 
contribution will be factored into each initiative.

Distinction Between Development Assistance Proposed for The Economic 
        Partnership and Development Assistance Proposed for the 
        Education Initiative

    Question. Please explain the distinction between the $30 million 
request for development assistance funds being proposed as part of the 
Partnership for Economic Development and the request for $26 million in 
Development Funds being proposed as part of Education for Development 
and Democracy. I would appreciate a comparison between these proposals 
and similar ones in previous fiscal years.
    Answer. The FY 99 Development Assistance being requested by USAID 
for each of these initiatives will be applied towards the distinctive 
programs of each. The Development Assistance requested for the 
Partnership for Economic Growth and Opportunity will contribute to 
increasing Africa's integration into the global economy. The trade and 
investment policy reform activities (described in your first question), 
for which the Development Assistance is requested, draw upon USAID's 
expertise in implementing similar programs in African countries.
    The Development Assistance requested for the Education for 
Democracy and Development Initiative will focus on building Africa's 
human resource capacity in order to sustain economic progress and 
political reform into the 21st Century. Activities (described in an 
illustrative fashion in the first question) that are funded with 
Development Assistance will draw upon the expertise of a variety of 
U.S. agencies and private sector experts, as well as African experts, 
and might expand or might innovate upon ongoing program activities, as 
described in the first question, depending upon what African recipients 
feel is appropriate.

       Partnership for Economic Growth and Opportunity in Africa

 Partnership for Economic Growth and Opportunity in Africa, Function 150
                                Resources                               
                            ($ in thousands)                            
------------------------------------------------------------------------
                                     FY 1997      FY 1998      FY 1999  
          Appropriation               Actual      Estimate     Request  
------------------------------------------------------------------------
Debt Relief......................  ...........  ...........      $35,000
DA...............................  ...........  ...........       30,000
      Total......................  ...........  ...........       65,000
------------------------------------------------------------------------


            U.S. Foreign Policy Objectives

    The Partnership for Economic Growth and Opportunity in Africa 
(Partnership) provides the policy framework and programs that the USG 
will implement to pursue the Administration's highest foreign policy 
objective for Africa--the integration of African countries into the 
global economy. The Partnership seeks to help African countries move 
away from dependence on foreign assistance by providing incentives for 
them to adopt sound economic policies that will spur economic growth 
and make them better trade and investment partners for U.S. companies.
    Most African countries are eligible for the U.S. Generalized System 
of Preferences program and OPIC investment support as part of the basic 
Partnership program. A number of other programs will be open to a 
select group of African countries that meet rigorous economic policy 
reform criteria: (1) debt reduction of $35 million for FY 1999; (2) 
participation in the U.S.-African Economic Forum; and (3) three USAID 
programs amounting to $30 million annually.
    Under the Partnership, renewal of the current GSP law will provide 
enhanced market access for the poorest African countries that are in 
the Least Developed Country category (LLDCs). New legislation must be 
passed to provide enhanced market access to the growth-oriented African 
countries that meet the reform requirements for Level 2 participation 
in the Partnership. The Administration is working with the sponsors of 
the African Growth and Opportunity Act to develop a market access 
program for Level 2 countries that can be passed by Congress and that 
will not harm U.S. industries.
    To encourage private investment in Africa, OPIC has launched two 
new funds which are available to support up to $270 million in U.S. 
investments in Africa. OPIC's activities will not require any 
additional budget authority.

            Strategy for FY 1999

    The Administration is moving forward with Partnership Programs that 
do not require legislation. Most programs are in the implementation 
stage and will be continued during FY 1999. An interagency review 
process to determine which reform-oriented countries will be invited to 
participate in the U.S.-Africa Economic Forum and Level 2 of the 
Partnership should be completed by the third quarter of FY 1998. During 
FY 1998 USAID will continue to develop the three programs that be will 
launched during FY 1999 which will provide economic-policy related 
assistance to Level 2 Partnership countries.
    Legislation must be passed to implement the market access 
provisions of the Partnership. Renewal of the GSP law and passage of 
the African Growth and Opportunity Act are high legislative priorities 
and the Administration vigorously will seek their passage by Congress.
            Indicators
  <bullet> Complete development work on 3 USAID programs for Level 2 of 
        the Partnership and launch them during FY 1999.
  <bullet> Complete work necessary to grant debt relief to Level 2 
        countries during FY 1999.
  <bullet> Obtain passage of African Growth and Opportunity Act which 
        has politically feasible market access provisions that will not 
        harm U.S. industries.
  <bullet> Continue implementation of ongoing Partnership programs 
        which were launched during FY 1998.
  <bullet> Organize and hold first ministerial-level meeting of the 
        U.S.-Africa Economic Forum.

                         Great Lakes Initiative

             Great Lakes Initiative, Function 150 Resources             
                            ($ in thousands)                            
------------------------------------------------------------------------
                                     FY 1997      FY 1998      FY 1999  
          Appropriation               Actual      Estimate     Request  
------------------------------------------------------------------------
ESF..............................  ...........  ...........      $25,000
      Total......................  ...........  ...........       25,000
------------------------------------------------------------------------

            U.S. Foreign Policy Objectives

    Emerging from major conflicts, the Great Lakes region is a 
potential engine for development of a large part of Africa. U.S. policy 
seeks to prevent destabilizing conflicts, secure the rule of law, 
strengthen democratic practices, and promote long-term economic growth. 
To tap the region's potential and address the roots of conflict, we 
will act as a catalyst to mobilize international donor resources to 
support regional development.

            Strategy for FY 1999

    We will work to strengthen mechanisms for justice and 
reconciliation in order to break the cycles of impunity, extreme 
violence, and instability that have plagued the region's recent 
history. Additional goals are to assess the role of the international 
community in becoming a partner in finding solutions: to reinforce 
internal constituencies for judicial reform; and to galvanize support 
for social reform and social security systems which enhance 
accountability and the rule of law.
    To address the culture of impunity, renewed dedication is required 
at three levels: civilian justice, military justice, and international 
mechanisms. At each level, we will focus on three goals: training of 
personnel, building institutional capacity, and creating long-term 
financing of justice institutions.
    In addition, creating and/or reinforcing the institutions that 
support democracy is a critical ingredient for preventing future 
conflict. We propose to provide training, technical assistance and 
direct support to local, regional and national institutions in key 
sectors so as to enhance the responsiveness of governments on key 
issues. We will also provide support to parliaments, electoral 
commissions, local civil society institutions, and constitutional 
commissions to promote wider participation in governance.
    We will initiate efforts to demobilize and demilitarize the region 
via targeted support for programs that are linked to the productive 
private sector to offer an alternative livelihood.
    We will channel assistance to programs aimed at eliminating 
transportation and communications bottlenecks in order to unleash the 
economic potential of key sectors throughout the region. We will also 
support regional integration efforts through joint planning and 
projects for roads, railways, ports, and communications infrastructure 
and harmonized tax and tariff policies. $10 million of the BSF 
allocated for this initiative in the President's budget has been 
reallocated to support the Education for Development and Democracy 
Initiative.
            Indicators

  <bullet> Reduction in the size of regional armed forces.
  <bullet> Creation of demobilization programs linked to micro-economic 
        enterprises or agricultural development programs.
  <bullet> Technical assistance missions to national ministries of 
        finance and planning focused on creation of rational investment 
        regimes.
  <bullet> Establishment of human rights commissions or ombudsmen and 
        human rights NGOs.
  <bullet> Increased naval justice military and civilian training.
  <bullet> Drafting of military codes of justice.
  <bullet> Creation of a witness protection program for the 
        International Criminal Tribunal for Rwanda.
  <bullet> Implementation of the Rwanda genocide law.
  <bullet> Increased effectiveness of the DROC Office of Ill-Gotten 
        Gains, created to identifv assets misappropriated by the Mobutu 
        regime.

                Education for Development and Democracy

  Education for Development and Democracy, Foreign Operations Resources 
                            ($ in thousands)                            
------------------------------------------------------------------------
                                     FY 1997      FY 1998      FY 1999  
          Appropriation               Actual      Estimate     Request  
------------------------------------------------------------------------
Peace Corps......................  ...........  ...........   $5,000 \1\
ESF..............................  ...........  ...........       10,000
USIA.............................  ...........  ...........  [4,500] \2\
PL 480 II........................  ...........  ...........       25,000
DA...............................  ...........  ...........       26,000
      Total......................  ...........  ...........      66,000 
------------------------------------------------------------------------
\1\ In addition, $29,000,000 of Peace Corps funding in Africa is already
  designated for education programs.                                    
\2\ Included in other USIA figures.                                     

            U.S. Foreign Policy Objectives

    The U.S. seeks to promote a democratic, economically developed 
Africa. An educated citizenry is fundamental to meeting these 
objectives. Democracy and development in Africa need to be addressed in 
a larger social and political context. One of the major obstacles 
Africa faces is the limited human capacity that hinders efficiency, 
popular participation in decision-making, and good governance. There is 
also a lack of understanding regarding civil and political rights and 
the respective roles of governments and citizens in a democracy. In an 
effort to overcome historical patterns of centralized power and 
corruption, many African governments are moving toward a wider 
dispersal of economic and political power throughout their societies. 
The United States will work with Africans to enhance human capacity 
through education to strengthen democracy and free-market systems. The 
United States will also seek to improve Africans access to the 
technology and knowledge they need to participate fully in the global 
economy and the world community of democracies.

            Strategy for FY 1999

    U.S. objectives will be pursued through combining U.S. experience, 
resources and skills with African and other donor efforts already 
underway to improve education in Africa. With assistance from USAID, 
USIA, the Peace Corps, and private U.S. institutions and NGOs, the 
United States will help equip Africans to build educational 
institutions and practices that will foster efficient economic systems 
and a democratic political culture. U.S. programs will focus on areas 
that promise practical short- or medium-term results at primary through 
university levels, as well as on civic education and skills training 
for professionals such as judges, journalists and civil society 
leaders.
    Targeted infusions of technology, which can accelerate African 
integration into modern global systems of education, government, 
business and communications, will be pursued. The Leland and GLOBE 
initiatives are examples of U.S. efforts in this area. U.S.-African 
partnerships linking governments, educational institutions, private 
corporations and civil society to promote education will also be 
strengthened and expanded. Pilot programs will be used to test the 
operability of innovative concepts, such as the use of hand-crank 
radios for rural education, renewable energy sources, new methods to 
train teachers, the design and implementation of curricula reforms, and 
the creation of regional hubs which serve as technical resources and 
manage partnership linkages.
            Indicators
  <bullet> Increased linkages between U.S. and African partners in 
        universities, civil society groups, private corporations, 
        schools and other groups and institutions involved in African 
        education.
  <bullet> More effective overall linkages between U.S. education 
        programs in Africa, both governmental and private.
  <bullet> Innovations in increasing the accessibility of education 
        technology to Africans.
  <bullet> Creation of pilot programs which lead to improvements in 
        African education.

African Crisis Response Initiative
    Question. Please comment on the progress of the African Crisis 
Initiative and the Administration's plans for ACRI in FY 1999.
    Answer. At the conclusion of FY 1998, the Administration's African 
Crisis Response Initiative (ACRI) will have provided six ACRI partner 
countries with interoperable communications and other peacekeeping 
equipment, completed Initial Training and initiated Sustainment 
Training with five battalions, and begun Initial Training with two 
additional battalions and a brigade staff. Under the ACRI, Initial 
Training consists of a team of 70 U.S. Special Forces training the host 
military unit for 70 days; Sustainment Training (30 trainers for 30 
days) both promotes training retention in the host military unit and 
provides additional training depth in certain specific subjects. Our 
ACRI partner countries are, in order of Initial Training: Senegal, 
Uganda, Malawi, Mali, Ghana, and Ethiopia. The total number of African 
soldiers trained by the end of FY 1998 under the ACRI's international-
standard Program of Instruction represents approximately one-half of 
the Initiative's objective of 10,000-12,000 trained and equipped 
soldiers prepared for peacekeeping or humanitarian relief operations 
identified in the Administration's ACRI Strategic Plan. This level of 
recruitment and training puts the Administration on target for the 
proposed five-year ACRI program.
    An additional successful aspect of the ACRI can be seen in the 
cooperation between the U.S. and our European partners (most notably 
France and Great Britain, but Belgium and Portugal have also indicated 
an interest in assisting with the ACRI in some capacity) to enhance 
African peacekeeping capacity. Further international cooperation has 
been stimulated by the initial meeting of the African Peacekeeping 
Support Group held in New York last December.
    The Administration's Strategic Plan calls for training and 
equipping additional ACRI partner countries in FY 1999. We anticipate a 
requirement for the same funding level ($20 million) to engage three 
additional battalions and one company of African soldiers into the 
ACRI. We are particularly interested in adding more of the politically 
and militarily stable states in southern Africa to our ACRI 
partnership. Sustainment Training, a critical part of the total ACRI 
concept, will also be provided through requested funding during ten 30-
day training events in six countries.
International Military Education and Training Program for Indonesia
    Question. Despite the fact that last year the Government of 
Indonesia opted to decline participating in the International Military 
Education and Training program--in part because of the controversy its 
participation inspires in Congress--it is my understanding that the 
Administration continues to pressure the Indonesians to renew its 
participation. Given everything else that is taking place in Indonesia 
right now--the financial crisis, growing food shortages, important 
political changes--and the fact that congressional opposition to 
Indonesia's participation remains as strong as ever, is it your view 
that IMET should still be a priority for our Embassy in Jakarta? Please 
explain.
    Answer. Congress has limited Indonesian participation in IMET to 
the Expanded IMET program, and we have allocated $400,000 in FY 98 in 
the expectation that the Government of Indonesia will reconsider 
participating in the IMET program.
    The Administration continues to support resumption of IMET to this 
important country but is certainly not ``pressuring'' Indonesia to 
resume its participation in this program. Indonesia is one of the key 
countries in ASEAN; has played a leading and constructive role in the 
region on issues of common concern such as Cambodia; and straddles sea 
lanes of strategic importance to regional and world security. We thus 
see resumption of IMET and the enhanced military-to-military ties that 
would result as in U.S. security interests.
    As Indonesia faces its current crisis, proper military conduct is 
essential. The IMET program represents an opportunity to expose the 
Indonesian military to U.S. culture and values, and resumption of IMET 
would complement Indonesia's efforts to instill professionalism, proper 
conduct and respect for human rights in its military. IMET graduates 
have played prominent roles in investigating human rights abuses and 
are likely to be major players in future military reforms.

     Additional Questions for the Record Submitted by Senator Grams

Restoration of pre-1975 Coalition Government in Laos
    Question. What is the prospect for restoration of the coalition 
government and constitutional order that existed in Laos prior to the 
Communist seizure of power in 1975?
    Answer. We see no prospect for the restoration of the coalition 
government that existed prior to 1975. A series of unstable coalition 
governments were militarily defeated by the Lao communist party, the 
Pathet Lao, and its armed forces. The U.S. has maintained unbroken 
diplomatic relations with the state of Laos since the fifties.
    While Laos remains a one party state, recent political and economic 
reforms are fundamentally changing the nature of government.
    The party leadership adopted a constitution in 1990 which marked 
the beginning of a shift from an authoritarian government ruled by 
party decree to a society ruled by law with greater separation of state 
and party.
    We are continuing to work with the current government to make 
changes which will improve the political and economic lives of all Lao. 
We believe this is the most effective course we can undertake to 
improve conditions in Laos.

Human Rights Violations in Laos
    Question. What is the Administration doing to address the genocide 
and human rights violations against Hmong and Lao people? I am told 
that the ``killing fields'' are still going on today.
    Answer. The State Department takes allegations of human rights 
abuses in Laos very seriously and the U.S Embassy in Laos vigorously 
pursues all such reports. This administration has worked hard to 
improve human rights in Laos generally and the situation of the Hmong 
in particular.
    All available evidence indicates that state organized mistreatment 
of the Hmong, which had been a serious problem from the end of the war 
until the late eighties, ended a decade ago when the last of those held 
in reeducation camps were released.
    During meetings with the Lao President and Foreign Minister in 
Vientiane last November, Deputy Secretary Talbott highlighted the 
importance of respect for human rights to our bilateral relationship.
    The American Embassy in Vientiane and the United Nations High 
Commission for Refugees (UNHCR) closely monitor the Lao government's 
actions toward the Hmong refugees who have chosen to return to Laos. 
Two UNHCR monitors who are fluent in the Hmong language move widely and 
without hindrance throughout the country and follow up on specific 
allegations of government persecution and/or discrimination of 
returnees. The embassy also consults a variety of nongovernmental 
sources, including some in the local Hmong community, in its attempts 
to verify reports of human rights abuses.
    Neither UNHCR nor our Embassy in Vientiane have found current 
evidence of government directed or sanctioned persecution of Hmong 
returnees or villagers.
Hmong language programming on Radio Free Asia
    Question. There are over 12 million Hmong people in East Asia. 
Currently there is no Hmong language programming through Radio Free 
Asia. I would appreciate your consideration of Hmong programming to 
reach these people throughout East Asia.
    Answer. Hmong language programming is an issue of resources and 
priorities for Radio Free Asia, an independent broadcaster operating 
under the general direction of the Broadcasting Board of Governors.
    Hmong represent a minority (by our estimates no more than 5-10 
percent) of the approximately 5 million Lao. Small Hmong populations 
also reside in Vietnam and Thailand, however, the bulk of the Hmong in 
East Asia reside in China.
    Meanwhile, almost all Hmong living in East Asia speak a second 
language, either Mandarin, Lao, Vietnamese or Thai. Radio Free Asia, 
and Voice of America, have Mandarin, Lao and Vietnamese language 
services which report on potential issues of interest to Hmong speakers 
in those countries.

Chemical Weapons in Laos
    Question. There have been reports that Laos has been producing 
chemical weapons in Laos and using them against political opponents. Is 
there evidence of this, and what is being done to counter that?
    Answer. In early Eebruary, the State Department received three 
written reports from a U.S.-based human rights group which accused the 
Lao government of using chemical/biological weapons on Hmong villages 
in Northern Laos in late January.
    These charges are reminiscent of the claims made fifteen to twenty 
years ago that ``yellow rain'' was being used to subdue ethnic minority 
groups in Laos, particularly the Hmong. At the time, it was claimed 
that a biological substance, trichothecene mycotoxin, was being sprayed 
on rural areas believed to harbor anti-government elements. Those 
claims were controversial at the time and proved impossible to verify 
conclusively.
    Nonetheless, we take all such charges seriously. The U.S. Embassy 
has asked the Lao government for an investigation into these charges 
but has not yet received a response. The Embassy is also attempting to 
seek information on the reports of chemical weapons attacks through 
non-governmental sources. However, to date we have received no 
independent confirmation of these charges.
    We will keep you informed of the results of our efforts.
Cambodian Elections
    Question. Will Hun Sen allow the safe return of Prince Ranariddh, 
and can a fair election be held in July?
    Answer. We do not know yet, but the Administration is working with 
the ASEAN Troika Foreign Ministers and the international community to 
support the creation of conditions that can enable Prince Ranariddh's 
safe return and full participation in the July elections.
    In cooperation with our ASEAN Troika colleagues, we have urged all 
the key Cambodian parties--Hun Sen, Prince Ranariddh, and King 
Sihanouk--to intensify efforts to reach a political settlement 
permitting Prince Ranariddh to return safely to Cambodia with a royal 
amnesty and full political rights intact. Diplomatic efforts toward 
this goal continue. The ASEAN Troika met with the Friends of Cambodia 
on February 15, endorsing the principles of a cease-fire and amnesty 
for Prince Ranariddh proposed by Japan; another meeting of the Troika 
is scheduled for March 6 to assess progress on this initiative after 
another round of diplomatic contacts with the key Cambodia players.
    We have said that free and fair elections in Cambodia are the best 
way to restore the principles of the Paris Peace Accords. We have also 
made clear our view that an essential part of free and fair elections 
must be the full participation of opposition candidates and parties, in 
a climate free of fear and intimidation. We continue to urge the 
Cambodian government to do more to create those conditions for free and 
fair elections, including taking concrete steps to improve the human 
rights climate.

Japan's Cambodia Peace Proposal
    Question. Is Japan's peace proposal for Cambodia achievable?
    Answer. The meeting chaired by the ASEAN Troika for the Friends of 
Cambodia in Manila on February 15 issued statements endorsing the 
principles underlying the proposal offered by Japan for a Cambodian 
cease-fire and an amnesty enabling Prince Ranariddh's return to 
Cambodia. Both Mr. Hun Sen and Prince Ranariddh voiced support for 
Japan's proposal, but the recent reports that the Cambodian government 
plans to draw out the process by holding more than one trial for Prince 
Ranariddh indicates that Hun Sen is already backing away from the key 
principles of Japan's initiative.
    The Administration views Japan's proposal as a serious and 
constructive effort, which forms the basis for further negotiations 
among the Cambodian parties. In cooperation with the ASEAN Troika 
Foreign Ministers and other concerned nations, we are urging the key 
Cambodian parties to intensify efforts and take the necessary steps to 
make their support for Japan's proposal a reality.

Relations with the Hun Sen Government
    Question. What kind of contact does the U.S. have with the Hun Sen 
government? Are there plans to recognize the coup?
    Answer. The U.S. immediately condemned the violent ouster last July 
of Prince Ranariddh, the democratically elected First Prime Minister. 
We were among the first to condemn this as a violent overturning of the 
Paris Peace Accords framework, and steadfastly rejected as undemocratic 
the Hun Sen government's appointment of Foreign Minister Ung Huot as 
Prince Ranariddh's replacement.
    As a matter of policy, the U.S. recognizes states not governments. 
We opposed the seating of Hun Sen's delegation at the U.N. last year 
and supported the delegation of Prince Ranariddh as the legitimate 
claimant to Cambodia's seat. Our position led to the U.N.'s decision to 
leave the seat vacant.
    We continue to have the necessary and appropriate contacts with the 
government of Cambodia to advance key U.S. interests across the board, 
including promotion of democracy, human rights, law enforcement and 
counternarcotics efforts.

China WTO Accession and Permanent MFN
    Question. What are China's chances for entry into the WTO this 
year? If that happens, will the Administration seek permanent MFN for 
China? The two seem to be tied together.
    Answer. We do not have a timetable for China's entry into the WTO. 
The key to moving forward will be the substance of China's positions, 
although we are willing to move as fast as China on this issue.
    We support China's accession to the WTO on the basis of its 
providing significant new market access for our companies and 
committing to fundamental WTO principles. We believe we have made some 
progress over the past year and one-half.
    A decision on permanent MFN would require legislation and is 
ultimately up to the Congress. One important consideration will be 
whether or not China has made adequate offers in its WTO accession.

U.S./China Nuclear Agreement Implementation
    Question. Will you actively oppose efforts to block the President's 
certification that China is complying with the U.S.-China Nuclear 
Agreement?
    Answer. The Administration is committed to working with Congress to 
uphold the President's certification of China's nuclear 
nonproliferation credentials necessary for implementation of the 1985 
U.S./China Peaceful Nuclear Cooperation Agreement.
    Throughout the negotiating process leading to certification, 
Administration officials consulted closely with Congress. We continue 
to meet with Members and staff to discuss the nuclear certification and 
the President's reasons for recommending certification now. On February 
4, Deputy Assistant Secretary of State Robert Einhorn testified before 
the House International Relations Committee on the certification. We 
will continue to talk to Members and their Staffs about the 
certification process and the importance of implementation to U.S. 
nonproliferation goals and U.S.-China bilateral relations.
    Implementation of the 1985 Agreement will bring important benefits 
for the United States. It will also provide an effective means of 
encouraging China to live up to the nuclear nonproliferation 
commitments it has recently made. We will be monitoring Chinese 
behavior closely. If and when we encounter problems or uncertainties, 
we will raise them with Beijing. With prospects for continued 
cooperation potentially at risk, China will have a strong stake in 
being responsive to our inquiries and in taking prompt, corrective 
steps to prevent or stop any activities inconsistent with China's 
policies and commitments. Activating the Agreement will also give us 
the most promising basis for making further progress in other 
nonnuclear nonproliferation areas--chemical, missile, and advanced 
conventional arms--where serious problems remain in China's policies 
and practices.

Normalization of the U.S.-Vietnam trade relationship

    Question. When will the President waive Jackson-Vanik for Vietnam? 
Where are we on the trade agreement with Vietnam that precedes 
consideration of MFN?
    Answer. On November 18, 1997, the Administration decided to move 
forward on a waiver of the Jackson-Vanik amendment as the next step in 
economic normalization with Vietnam. On February 4, 1998, the 
Department of State recommended to the President that he grant the 
waiver to Vietnam. The President is expected to act on that 
recommendation shortly.
    We are able to consider a waiver in light of the progress Vietnam 
has made towards liberalizing its emigration policy as evidenced by the 
more than 450,000 Vietnamese who have emigrated under the Orderly 
Departure Program (ODP) and recent implementation of the Resettlement 
Opportunity for Vietnamese Returnees (ROVR) program. With respect to 
ROVR, the Vietnamese authorities have dropped the requirement that ROVR 
applicants obtain exit permits prior to their visa interviews with the 
U.S. Immigration and Naturalization Service, substantially increased 
the number of ROVR applicants presented for interview and begun to give 
an accounting of those who have not been presented for interview.
    A Jackson-Vanik waiver, which must be reviewed annually, is a 
prerequisite along with a bilateral trade agreement for most-favored-
nation (MFN) status. MFN can only be extended to Vietnam after Congress 
approves this agreement. We began negotiation of a bilateral trade 
agreement with Vietnam in Spring 1996. Several rounds have been held, 
but much hard work lies ahead.

Democracy and Human Rights

    Question. Madam Secretary, are you concerned that the bombing of 
Iraq will inflame anti-American sentiment in the Middle East region and 
could jeopardize the incremental gains that have been made towards 
greater democracy and respect for human rights among Iraq's neighbors?
    Answer. Democratization, human rights, and political reform are 
important elements of our dialogue with governments of the region. In 
the case of Iraq, the international community has spoken clearly and 
unanimously that Saddam Hussein must respect the UN Security Council 
resolutions and allow the UNSCOM inspectors to do their work unimpeded. 
If Saddam complies with the UN resolutions, there will be no need for 
military force.
    The U.S. understands that the Iraqi people are suffering under the 
Saddam Hussein regime, and has introduced and recently expanded 
humanitarian aid options through the oil-for-food programs. Saddam is 
using his people as political pawns and devoting his nation's resources 
not to caring for Iraqis but to build WMD and lavish palaces. We do not 
wish to see the Iraqi people sick and hungry because Saddam Hussein 
sees food and medicine as his lowest priorities.

                               <greek-d>

      
</pre></body></html>
